<html>
<title> - IMPROVEMENTS TO DEPARTMENT OF HOMELAND SECURITY INFORMATION SHARING CAPABILITIES VERTICAL AND HORIZONTAL INTELLIGENCE COMMUNICATIONS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                     IMPROVEMENTS TO DEPARTMENT OF
                 HOMELAND SECURITY INFORMATION SHARING
                 CAPABILITIES--VERTICAL AND HORIZONTAL
                              INTELLIGENCE

=======================================================================

                                HEARING

                                 of the

                    SUBCOMMITTEE ON INTELLIGENCE AND
                            COUNTERTERROSIM

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2003

                               __________

                           Serial No. 108-21

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
98-599                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005



                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

           Subcommittee on Intelligence and Counterterrorism

                     JIM GIBBONS, Nevada, Chairman

JOHN SWEENEY, New York, Vice         KAREN McCARTHY, Missouri
Chairman                             EDWARD J. MARKEY, Massachusetts
JENNIFER DUNN, Washington            NORMAN D. DICKS, Washington
C.W. BILL YOUNG, Florida             BARNEY FRANK, Massachusetts
HAROLD ROGERS, Kentucky              JANE HARMAN, California
CHRISTOPHER SHAYS, Connecticut       NITA M. LOWEY, New York
LAMAR SMITH, Texas                   ROBERT E. ANDREWS, New Jersey
PORTER GOSS, Florida                 ELEANOR HOLMES NORTON,
PETER KING, New York                   District of Columbia
JOHN LINDER, Georgia                 JAMES R. LANGEVIN, Rhode Island
JOHN SHADEGG, Arizona                KENDRICK B. MEEK, Florida
MAC THORNBERRY, Texas                JIM TURNER, Texas, ex officio
CHRISTOPHER COX, California, ex 
officio

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada, and Chairman, Subcommittee on Intelligence and 
  Counterterrorism
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Sweeney, a Representative in Congress From the 
  State of New York, and Vice Chairman, Subcommittee on 
  Intelligence and Counterterrorism..............................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security
  Oral Statement.................................................    38
  Prepared Statement.............................................     6
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington                                             4
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    41
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of Rhode Island......................................    44
The Honorable Edward J. Marky, a Representative in Congress From 
  the State of Massachusetts.....................................    56
The Honorable Karen McCarthy, a Representative in Congress From 
  the State of Missouri
  Oral Statement.................................................    60
  Prepared Statement.............................................     9
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................     5
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas
  Oral Statement.................................................     4
  Prepared Statement.............................................     8

                               WITNESSES

Mr. Darin Daniels, Preparedness Planning and Training Manager, 
  Maricopa County, Arizona
  Oral Statement.................................................    34
  Prepared Statement.............................................    36
Mr. George W. Foresman, Deputy Assistant to the Governor on 
  Counterterrorism
  Oral Statement.................................................    29
  Prepared Statement.............................................    30
Mr. James Kallstrom, Senior Adviser to the Governor on 
  Counterrosim
  Oral Statement.................................................    14
  Prepared Statement.............................................    17
Mr. V. Phillip Lago, Deputy Executive Director, Central 
  Intelligence Agency
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Steven McCraw, Assistant Director Office of Intelligence, 
  Federal Bureau of Investigations
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Mr. William Parrish, Acting Assitant Secretary, For Information 
  Analysis, Department of Homeland Security
  Oral Statement.................................................     9
  Prepared Statement.............................................    12

                                APPENDIX
                 Questions and Responses for the Record

Questions and Responses for the Record from Mr. William Parrish..    73
Questions and Responses for the Record from Mr. Steven C. McCraw.    75
Questions and Responses for the Record from Mr. James K. 
  Kallstrom......................................................    78

 
                     IMPROVEMENTS TO DEPARTMENT OF
                     HOMELAND SECURITY INFORMATION
                     SHARING CAPABILITIES VERTICAL
                      AND HORIZONTAL INTELLIGENCE
                             COMMUNICATIONS

                              ----------                              


                        Thursday, July 24, 2003

                     U.S. House of Representatives,
                       Subcommittee on Intelligence
                              and Counterterrorism,
                     Select Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:10 p.m., in 
Room 2318, Rayburn House Office Building, Hon. Jim Gibbons 
[chairman of the subcommittee] presiding.
    Present: Representatives Gibbons, Sweeney, Dunn, Cox (ex 
officio), McCarthy, Langevin, Markey, Lowey, Meek and Turner 
(ex officio).
    Mr. Gibbons. The House Subcommittee on Intelligence and 
Counterterrorism for the House Select Committee on Homeland 
Security will come to order.
    I would like to begin by welcoming everybody here to our 
hearing today. We are going to start, and hopefully my 
colleague and friend Karen McCarthy from Missouri will be here 
shortly for our statement as well, and what I will do is begin 
my statement and then allow for Ms. McCarthy to enter her 
statement. Hopefully she'll be here by then and then we will 
open it up for other members of panel statement and then we 
will turn to our witnesses.
    This looks like it is going to be a great hearing for us, 
very interesting panel we have before us today, and we are all 
looking forward to the information we are going to receive.
    Let me begin by saying that since September the 11, 2001, 
terrorist attacks, Congress has focused on the performance of 
the Intelligence Community and whether intelligence and other 
information are effectively shared to prevent or respond to a 
terrorist attack.
    Today governments at all levels recognize that they have a 
greater role to play in protecting the Nation from terrorist 
attacks, and to achieve this collective goal, homeland security 
stakeholders must effectively work together to strengthen the 
process by which critical information can be shared, analyzed, 
integrated and disseminated to help prevent or minimize 
terrorist activities.
    The success of a homeland security strategy relies on the 
ability of all levels of government to communicate and 
cooperate effectively with one another. Activities that are 
hampered by organizational fragmentation, technology 
impediments or ineffective collaboration blunt the Nation's 
collective efforts in this matter.
    As it is with so many other homeland security areas, it is 
also the case for intelligence and information sharing that 
there are many stakeholders who must work together to achieve 
common goals. Effective analysis, integration and dissemination 
of intelligence and other information critical to homeland 
security requires the cooperative involvement of the Department 
of Homeland Security, the Central Intelligence Agency, the 
Federal Bureau of Investigation and a myriad of other agencies.
    State and local governments have critical roles to play as 
well. Information is shared--is already being shared between 
and among numerous government agencies, information sharing 
practices benefit critical infrastructure protection by 
establishing trust relationships with a wide variety of Federal 
and nonFederal entities that may be in a position to provide 
potentially useful information and advice on vulnerabilities 
and incidences, to develop standards and agreements on how 
information will be used and protected. It also establishes 
effective and appropriate secure communication mechanisms and 
finally takes steps to ensure that sensitive information is not 
inappropriately disseminated, which may require a statutory 
change in some cases.
    Clearly, these practices are applicable to intelligence and 
information sharing in the broadest sense. To optimize such an 
information sharing network, it is important to have a strong 
strategic planning framework and a supporting policy structure. 
The national homeland security strategy describes a number of 
incentives to better develop opportunities for leveraging 
information sharing among stakeholders, including integrated 
information sharing across the Federal Government, integrated 
information sharing across State and local governments, 
improved public safety emergency communication and reliable 
public health information and communications, all of which 
needs to be shared both horizontally and vertically.
    Improvements in efficiency and effectiveness are rapidly 
occurring and are expected to continue for the long term, but 
there are costs and requirements as the new department faces 
communications, human capital, information technology and other 
integration challenges.
    All of these changes of course will take time to fully 
implement. Today we focus on how effective the Department of 
Homeland Security is in information sharing, both vertically 
and horizontally. I would like to welcome the following 
witnesses from the Department of Homeland Security, acting 
Assistant Secretary for Information Analysis, Mr. William 
Parrish. From the Central Intelligence Agency, deputy executive 
director Philip Lago. From the Federal Bureau of Investigation, 
assistant director, Office of Intelligence Steven McCraw. From 
the State of New York, senior adviser to the governor on 
counterterrorism, James Kallstrom, which I will turn for 
further introduction to my cochairman here in a minute. And 
from the State of Virginia, senior adviser to the governor for 
commonwealth preparedness George Foresman. And from Maricopa, 
Arizona, preparedness planning and training manager Darin 
Daniels.
    That looks exactly like the number of people I have in 
front of me, and I will turn now to the vice chairman of the 
subcommittee, Mr. Sweeney from New York, for any comments he 
may have and an introduction of his special guest.
    [The statement of Mr. Gibbons follows:]

 PREPARED STATEMENT OF THE HONORABLE JIM GIBBONS, A REPRESENTATIVE IN 
                   CONGRESS FROM THE STATE OF NEVADA

Since the September 11, 2001, terrorist attacks, Congress has focused 
on the performance of the intelligence community and whether 
intelligence and other information are effectively shared to prevent or 
respond to a terrorist attack.
Today, governments at all levels, recognize that they have a greater 
role to play in protecting the nation from terrorist attacks. To 
achieve this collective goal, homeland security stakeholders must 
effectively work together to strengthen the process by which critical 
information can be shared, analyzed, integrated and disseminated to 
help prevent or minimize terrorist activities.
The success of a homeland security strategy relies on the ability of 
all levels of government to communicate and cooperate effectively with 
one another. Activities that are hampered by organizational 
fragmentation, technological impediments, or ineffective collaboration 
blunt the nation's collective efforts.
As it is with so many other homeland security areas, it is also the 
case for intelligence and information sharing that there are many 
stakeholders who must work together to achieve common goals. Effective 
analysis, integration, and dissemination of intelligence and other 
information critical to homeland security require the cooperative 
involvement of the Department of Homeland Security, the Central 
Intelligence Agency, the Federal Bureau of Investigation, and a myriad 
of other agencies. State and local governments have critical roles to 
play. Information is already being shared between and among numerous 
government organizations.
Information sharing practices benefit critical infrastructure 
protection by:
        -  Establishing trust relationships with a wide variety of 
        federal and nonfederal entities that may be in a position to 
        provide potentially useful information and advice on 
        vulnerabilities and incidents;
        -  Developing standards and agreements on how information will 
        be used and protected;
        -  Establishing effective and appropriately secure 
        communications mechanisms; and
        -  Taking steps to ensure that sensitive information is not 
        inappropriately disseminated, which may require statutory 
        change.
Clearly, these practices are applicable to intelligence and information 
sharing in the broadest sense.
To optimize, such a information sharing network, it is important to 
have a strong, strategic planning framework and a supporting policy 
structure.
The national homeland security strategy describes a number of 
initiatives to better develop opportunities for leveraging information 
sharing among stakeholders, including:
        -  Integrated information sharing across the federal 
        government.
        -  Integrated information sharing across state and local 
        governments.
        -  Improved public safety emergency communications.
        -  Reliable public health information and communications.
Improvements in efficiency and effectiveness are rapidly occurring and 
are expected to continue for the long term, but there are costs and 
requirements, as the new department faces communications, human 
capital, information technology, and other integrationchallenges.
All of these changes of course, will take time to fully implement. 
Today we focus on how effective the Department of Homeland Security is 
in information sharing, both vertically and horizontally.

    Mr. Sweeney. Thank you, Mr. Chairman. Let me first say 
that--congratulate you on your leadership and thank you for 
your leadership in putting together this fine panel and say 
that in a year and a half's time, I have been, in one form or 
the other, whether it is the appropriations process or the 
authorization process, participating in a variety of hearings 
and oversights into the questions of homeland security, the 
questions of intelligence gathering and counterterrorism, the 
linkages, the connecting of the dots that needs to happen, and 
I don't think I have ever been as excited about a panel as I am 
about this one, because I think that this panel and opportunity 
we have here today is really to do some constructive planning 
forward by virtue of the testimony that each of you have 
already submitted and that is all be submitting.
    I am going to use my statement to introduce a friend and a 
fellow New Yorker and someone that we are very proud of, and I 
am particularly proud that he is here, because Jim Kallstrom is 
a model for the country to help us win the war on terrorism. He 
served in the Marine Corps. He has had a distinguished career 
at the FBI and was stationed in New York on three tours in 
1971, 1976 to 1990, 1993 to 1997, including a special agent in 
charge and assistant director in charge of the largest bureau 
in the country, and including in that, overseeing the 
operations of a Joint Terrorism Task Force in one of the most 
critical areas of this Nation.
    He has worked in the private sector as a senior vice 
president for security and management, committee member of the 
MBNA of America, and this is the part that I am most 
particularly proud of Jim Kallstrom. He was asked by Governor 
Pataki to be New York's first director of the Office of Public 
Security. He has left his private sector responsibilities and 
dedicated himself once again to public service. He is still 
serving his State and his country as a senior adviser for 
counterterrorism to the governor, and most importantly, he was 
ahead of the curve on the terrorist threat and knows from the 
inside what is needed to strengthen the intelligence and 
information sharing, and he will share with us today his 
realistic initiatives that I believe the country should accept 
and I think this is a good--as is the case with each of you, 
this is a good opportunity to start down a very constructive 
path, and I thank you.
    Mr. Gibbons. Thank you very much, Mr. Sweeney, and let me 
turn to the vice chairman of the full committee, Jennifer Dunn 
from Washington, if she has any remarks or opening statement.
    Ms. Dunn. Thank you very much, Mr. Chairman. While I too am 
looking forward to your testimony, we have heard Mr. Parrish 
most recently, I think. He gave excellent testimony and 
answers, and today is a chance for us to investigate how we 
communicate all this information that you all have access to.
    Unfortunately, we are going to be interrupted by a series 
of eight votes, and so don't know how the chairman is going to 
handle that, but we will have to leave you hanging for a while. 
Please understand it is not our choice. It is the last couple 
of days of our session, and a lot is being accomplished in 
these days. A lot of it I think is going to be helpful to us if 
we get our appropriations right and make sure that homeland 
security is funded to the degree it should be.
    Thanks for being with us.
    Mr. Gibbons. Thank you very much, Ms. dunn, and I will turn 
to the ranking member of the full committee, Mr. Turner of 
Texas, for any remarks he may have, opening remarks.
    Mr. Turner. Thank you, Mr. Chairman. I will try to be 
brief, because I do know we have votes. In the nearly two years 
that have expired since September 11th, I think we have 
identified a number of things that we all can agree we must do 
to protect our homeland, but it seems at the heart of the 
effort has to be an improved effort to share information about 
the terrorist threat. Our committee has had a lot of hearings 
on this particular subject, and it seems to me that we could do 
a lot better job than we are doing defining our 
responsibilities and determining who it is at the Federal level 
that our State and local law enforcement and other officials, 
as well as the private sector, is supposed to be communicating 
with, whether providing information up the chain or receiving 
information back from the Federal Government.
    So I am pleased today, Mr. Chairman, that we have on this 
panel officials from three different States who can talk to us 
about the information flow issue and how we can improve it. It 
seems to me that there is some confusion here that we ought to 
be able to easily clear up. I have no doubt that everyone 
involved at the State, Federal and local level has good 
intentions, but I think it is our responsibility as a committee 
to be sure that we ask the right questions and help you 
accomplish the tasks that I know each of you are jointly 
committed to achieving for us. So thank you, Mr. Chairman.
    Mr. Gibbons. Thank you very much, Mr. Turner.
    Mr. Gibbons. And Mr. Meek of Florida for any opening 
remarks he may have.
    Mr. Meek. Thank you, Mr. Chairman, and it will definitely 
be brief. I am excited about being here and getting an 
opportunity to hear all of your perspectives as it relates to 
intelligence. As you know, the great debate here on the Hill 
and in Washington is good intelligence, what is good and what 
is bad. I am hoping as we go through that struggle of finding 
out what is good and bad, that it doesn't jeopardize the 
security of the homeland, and State, Federal, me being a 
creature from the State Legislature in Florida myself, being 
able to share information, being a past law enforcement person 
myself, is sometimes very difficult as it relates to the 
different entities and agencies; but I am interested to hear 
the camaraderie that you have now, and hopefully the 
camaraderie that you will have in the future in the times of 
doing a good job and being able to seek out and find out and 
flush out individuals that are going to harm the homeland.
    Thank you so very much, Mr. Chairman. I look forward after 
our series of eight votes to hear from our witnesses.
    Mr. Gibbons. Thank you very much, Mr. Meek. And to our 
witnesses, first of all, let me extend the apology of the 
subcommittee, because as you realize, the series of votes that 
are being called call us away from our duty here, and all of us 
are here to hear your testimony, and we know that this is going 
to inconvenience you by delaying your ability to communicate 
with our panel. I want to advise the committee here we have a 
series of eight votes. There is about 8 minutes remaining or 7 
minutes remaining on the first vote followed by seven 5-minute 
votes. So as we can see, that is about--it is going to be about 
40-some minutes, 45 minutes from now before we can get back 
here. So I would like to apologize once again and just recess 
the committee until we return from this vote. And we ask for 
your patience and your indulgence in the process here today, 
and we will be right back. Thank you very much.
    [Recess.]
    Mr. Gibbons. The subcommittee will come back to order and 
first again let me apologize to our witnesses. There were three 
dilatory motions that were held that cost an additional 15 
minutes per vote, and there were three of them. So it took an 
extra 45 minutes, and I do apologize for that.

 PREPARED STATEMENT OF THE HONORABLE CHRISTOPHER COX, CHAIRMAN, SELECT 
                     COMMITTEE ON HOMELAND SECURITY

    Good afternoon. I join Chairman Gibbons and Ranking Member McCarthy 
in welcoming our witnesses this afternoon to what should be a 
significant and informative discussion. Our topic today--``Improvements 
to DHS Information Sharing Capabilities--Vertical and Horizontal 
Intelligence Communications''--has a variety of dimensions--and could 
be no more timely than to fall on the very day the intelligence 
committees have released their joint report on the 9/11 attacks. [Our 
own committee looks forward to exploring aspects of that topic in a 
hearing later this year.]
    We are, today, first talking about information sharing. If it is 
true that, as the tragedy of the 9/11 attacks teaches, information--
good intelligence--is the lifeblood of homeland security, then it is 
also true that information must move, must circulate. Sadly, that 
hasn't always happened. An article in this morning's New York Times 
states that the 9/11 investigation found that ``key National Security 
Agency communications intercepts never were circulated.'' We must, 
today, talk about the timely sharing of all relevant information--about 
where it goes and how it gets there.
    The purpose of today's hearing is to look forward. We want to 
ensure that key information, regardless of its origin, now can and will 
get to the right place at the right time. We are here to probe, not to 
politicize; to point the way, not to point fingers.
    We are focusing on the Department of Homeland Security and its 
capabilities--both human and technical. The Department is the very core 
of the solution to the 9/11 information sharing problem. It is the tool 
Congress and the President devised soon after the 9/11 attacks in order 
to make absolutely certain that all information that might shed light 
on terrorist capabilities, intentions, plans, and activities is 
comprehensively analyzed and moves in the ways and to the places it 
must go, if we are to frustrate the intentions of those who seek to 
mount the next massive terrorist attack. The Department--in particular, 
its Information Analysis and Infrastructure Protection directorate--
must, in short, succeed. And, on behalf of the President and the 
Congress, this committee will do everything in its power to make sure 
that it does.
    I will say again: What we don't know empowers our enemies--and what 
we do know will help defeat them. In this new war--the ongoing battle 
for our future--knowledge is the very essence of power. If information 
doesn't move, people may die--it's that simple--that's the lesson of 9/
11. We simply must get key information to those who need it most, and 
we cannot be satisfied with inefficiency or delay. What must happen 
must be made to happen.
    We in the Congress and on this committee will also do our part. We 
will insist on breaking down barriers, on revising the ill-fitting 
regulations of the past so as to enable, rather than impede, the flow 
of information. Our ability to defend the American people, our homeland 
and interests, our economy and way of life depend on it. We have 
learned the lesson of 9/11. We will insist on effective information 
sharing. There is no acceptable alternative.
    Let me be clear. In this new world--in this great battle to protect 
our people, homeland, and way of life--we cannot tolerate parochialism. 
We cannot allow the information taxpayer dollars have bought to be held 
by Government agency collectors as their exclusive property, protected 
behind a wall of antique regulations. All the information we have must 
be used to protect us all. The President recognized that long since, 
and we in the Congress have acted upon it in passing the Homeland 
Security Act and the USA-PATRIOT Act. Barriers are coming down--but 
stove-piped cultures and proprietary habits die far harder.
    Today's witnesses represent both ends of a new spectrum, a new two-
way information sharing partnership in which federal agencies that 
collect and provide information--through the new Department--to their 
new state and local government customers also wait eagerly to receive 
the information those same customers provide to them.
    In this new war, federal, state and local officials are equal 
players. We must overcome the notion that the federal Government is the 
source of everything worth knowing--federal agencies must learn to 
listen. State and local governments, as well as businesses may also be 
sources of key information. That, of course, makes sense, since they 
are where the action is, out where the rubber hits the road--as they 
will always be. Federal government agencies must support them. State, 
local, and private sector officials are now among the Intelligence 
Community's key customers--and each federal agency represented here 
today must learn to serve them well--largely through the Department of 
Homeland Security and the FBI. Where homeland security is concerned, it 
is not an act of largesse for the federal government to share threat-
related information with state and local officials; it is essential--
and the Homeland Security Act requires it.
    We must also discard the common assumption that the most important 
information is classified--because in this new world, it may not be. 
The long-haul trucker in the small hours of the night may be the only 
one who sees the critical, anomalous act that indicates a possible 
terrorist attack--and we must have a system to ensure that what that 
trucker sees moves upstream quickly and reliably to the local, state, 
and federal government officials for whom it may be the critical, 
missing piece of a complex puzzle. Information sharing is not, in 
short, some grand gesture of noblesse oblige by a privileged coterie of 
federal agencies. To indulge the assumption that the federal 
Government--including CIA and FBI--has collected, and therefore knows, 
all that is most worth knowing at any given time is dangerous 
paternalism. But where state and local officials--including our ``first 
responders'' and law enforcement officers--do need access to classified 
information in order to protect us, they must have it--period. We must 
speed the clumsy clearance processes that keep them from the 
information that they need.
    Each of today's federal government witnesses represents a member 
agency of the Intelligence Community. Each is involved in the federal 
government's effort to implement the Homeland Security Act. It was, in 
fact, last October, testifying before joint intelligence committees 
during their investigation into the 9/11 attacks, that the Director of 
Central Intelligence expressed the critical new commitment we stress 
today. He said:
        ``We must move information in ways and to places it has never 
        before had to move. . . We need to improve our multiple 
        communications links--both within the Intelligence Community 
        and now in the Homeland Security community. . . . Now, more 
        than ever before, we need to make sure our customers get from 
        us exactly what they need--which generally means exactly what 
        they want--fast and free of unnecessary restrictions.''
    He was right. And we need to make sure that the implications of 
that statement are well understood. Because the implications of full 
commitment to information sharing in the homeland security context--the 
kind of commitment Congress intended and the Homeland Security Act 
requires--are enormous. It may even mean that an agency must, to 
protect the American people from attack, ``lose control of'' the 
information it originates--for example, in a networked environment 
where each recipient of a piece of information can, in turn, augment 
it--as the Markle Foundation suggested in a report last year.
    The good news is that we're not starting from scratch. In early 
March, the Attorney General, the Secretary of Homeland Security, and 
the Director of Central Intelligence took a major step towards 
implementing the information sharing requirements of the Homeland 
Security Act. They signed a Memorandum of Understanding binding all 
Intelligence Community and federal law enforcement agencies, as well as 
the disparate entities that comprise the Department of Homeland 
Security. They didn't blink; they knew the stakes. They stated that:
        ``Providing all timely and relevant [homeland security-related 
        information] to those who have a need-to-know it in order to 
        assist them in meeting their homeland security-related 
        responsibilities is fundamental to the success of the 
        Department and [to] all other efforts to ensure the security of 
        the homeland from terrorist attack. Delay in providing such 
        information risks frustrating efforts to meet these critical 
        responsibilities and could result in preventable attacks 
        against U.S. persons or interests failing to be preempted, 
        prevented, or disrupted.'' [MOU at sec. 3(h)]
    The information sharing MOU commits intelligence, law enforcement, 
and homeland security agencies alike to certain core principles and 
specific actions to implement the Homeland Security Act. It provides, 
for example, that those entities must generally disclose homeland 
security-related information--and intelligence is just relevant 
information--``free of any originator controls or information use 
restrictions.'' (3(k)] It says that providing homeland security-related 
information to one organization does not discharge or diminish the 
originating agency's obligation to share that same information with any 
other entity that has responsibilities for protecting the homeland. 
(3(m)]
    The MOU goes on to say that ``homeland-security related analytic 
efforts. . .  must be informed by the most comprehensive, accurate, and 
timely information available, regardless of its nature and source,'' 
and it recognizes that ``the Federal government must, to the greatest 
extent possible, speak with one voice to state and local officials, 
private industry, and the public, in order to prevent confusion, mixed 
signals, and, potentially, dangerous operational conflicts.'' (4(b)] It 
requires that classified homeland security-related information 
``reaches DHS promptly with accompanying high-content `tear lines' 
suitable for onward passage at an unclassified level.'' (6(a)(i)]
    And the MOU states that if this new mission requires ``more 
expansive'' information sharing than existing departmental policies and 
procedures do, then the MOU's more expansive information sharing 
mandates will prevail. These are new standards for our new, post-9/11, 
reality. They recognize that the irreducible minimum any government 
owes its citizens is to protect them--that homeland security is now 
everyone's number-one priority.
    To prevent the unthinkable, we must, in short, reach beyond the 
limits we have tolerated in the past. It is a message worth stressing 
today, as we absorb the report of the intelligence committees' 
investigation into the 9/11 attacks.
    And I am grateful to our witnesses for giving us their agencies' 
status report today--and grateful to Chairman Gibbons and Ranking 
Member McCarthy for convening this important hearing.

PREPARED STATEMENT OF THE HONORABLE JIM TURNER, CHAIRMAN, SUBCOMMITTEE 
                ON INTELLIGENCE AND COUNTERINTELLIGENCE

    Today's hearing of the Subcommittee on Intelligence and 
Counterterrorism continues the Committee's focus on how we are sharing 
information about terrorists intending to attack America.
    In the nearly two years following the attacks of September 11, we 
have identified a number of things we need to do to protect the 
homeland, such as improved border security and preparing first 
responders. But even if we make these improvements, we will not be safe 
unless we are effectively sharing information about the terrorists' 
intentions against us.
    The Committee has held a number of hearings to address whether 
terrorism information is being provided to all those who need it, 
whether they serve at the Federal, State or local level. Earlier this 
week, the Committee heard from the Department of Homeland Security, the 
Terrorist Threat Integration Center, and the FBI. My impression from 
the hearing was that while the federal agencies were working hard to 
improve performance, their roles were not clearly defined. This was 
especially true with respect to the responsibilities for communicating 
information to state and local officials. Both the FBI, through its 
Joint Terrorism Task Forces, and the Department of Homeland Security 
are providing terrorism information to state and local governments, but 
there did not appear to be a clear division of responsibility or 
established mechanisms for coordinating the flow of information.
    Today we have the opportunity to find out from officials from three 
different states whether the information really is flowing, and whether 
it is useful.
    According to one of our witnesses, Mr. Foresman, there is currently 
more confusion than clarity. As a Cabinet-rank state homeland security 
official for Virginia, he has found a lack of clarity in the 
coordination of information and intelligence flow, and that the current 
confusion only adds to the dangers we face.
    For example, he finds that the Department of Homeland Security has 
become a new layer in the communication between the federal agencies 
and the states. But this new layer has not been coordinated with 
existing channels of communication, and has resulted in more confusion. 
He is receiving information from the Joint Terrorism Task Force, and 
then finding that Department of Homeland Security officials are unaware 
of the information. On other occasions, he has received information 
about potential security threats from the Department of Homeland 
Security and then finding that other federal officials in the field did 
not have the same information.
    The confusion sometimes extends to the quality of the information. 
Mr. Foresman's written testimony relates one instance when he received 
information from the Department of Homeland Security, only to have 
another federal agency attack that information as ``old news'' and 
unreliable, having been over taken by events. As a state homeland 
security official, Mr. Foresman was then left to try to determine 
whether this was a case of ``turf war'' or whether there were 
substantive problems with the information.
    As we have learned from the report released today from the 
congressional intelligence committees, one of the contributing factors 
to 9/11 was the failure of federal agencies to share and act upon 
information about the hijackers in their possession.
    We know that we are a nation still at risk, as terrorists could be 
plotting another attack on the United States. In order to thwart the 
next attack, we must ensure that information about terrorist threats 
gets to every official with homeland security responsibilities. That 
can only happen if everyone involved has a clear understanding of 
standards that define the movement of information across all levels of 
government.
    I am very pleased that we have the officials representing the 
federal agencies as well as the state and local homeland security 
offices here with us today to speak on this vital issue. I look forward 
to your testimony.

        PREPARED STATEMENT OF THE HONORABLE KAREN McCARTHY,
          RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE AND
      COUNTERERRORISM, SELECT COMMITTEE ON HOMELAND SECURITY
    Thank you Mr. Chairman. I am very pleased that we have the 
opportunity today to examine the issue of information sharing within 
the federal government and with state and local officials.
    One of the many tragic aspects of the attacks of September 11 is 
that the federal government did have some information about the 
hijackers in the files of various agencies. Although we cannot be sure 
that we could have prevented the attacks by connecting these dots, we 
must do everything in our power to make sure that information about the 
next plot does not slip through the cracks.
    We as a nation have taken a number of steps to get at this problem. 
We have created a Department of Homeland Security, and the President 
ordered the creation of the Terrorist Threat Integration Center. We 
have also emphasized the importance of the federal government sharing 
terrorism information with the officers at the state and local level 
who have responsibilities for the security of their communities.
    But do we actually have improved information sharing, as we 
approach the second anniversary of 9/11? That is what I hope this 
hearing will answer. On Tuesday, we heard during the full Committee 
hearing on the Terrorist Threat Integration Center that threat 
information is being fed to both the TTIC and the Department of 
Homeland Security. We did not get a clear answer on what TTIC and the 
Department of Homeland Security do with the information. As for sharing 
with the state and local officials, we heard that the FBI shares 
information through its Joint Terrorism Task Forces, and that Homeland 
Security also pushes information to its state and local ``customers.'' 
What we did not learn was whether the FBI and Homeland Security are 
coordinating what they provide to state and local governments, or if 
there is a clear understanding of the roles of each agency.
    The basic problem is very simple. If all the players in homeland 
security, at whatever level of government, do not have the same 
understanding of their roles and responsibilities, it will be all too 
easy for another failure in information sharing to occur. The 
consequences of such a failure, as we know, are grave.
    I am very pleased to have representatives from the Federal, State, 
and local levels of government with us today so they can inform us on 
the status of information sharing and to alert us to problems that 
remain. Hearing from those on the front lines will assist us to do our 
part in breaking down barriers to sharing information critical to our 
homeland security. Thank you.

    Mr. Gibbons. I am going to turn now to the witness 
statements and I will begin with Mr. William Parrish from the 
Department of Homeland Security. Welcome, Mr. Parrish. The 
floor is yours. We look forward to your testimony. And to all 
our witnesses, your full complete and written statement will be 
entered into the record. If you wish to summarize and shorten 
your statement, that is okay too, because we realize the time 
is short and you have been here a while, and it is only getting 
longer each day.
    So Mr. Parrish, welcome.

 STATEMENT OF WILLIAM PARRISH, ACTING ASSISTANT SECRETARY, FOR 
     INFORMATION ANALYSIS, DEPARTMENT OF HOMELAND SECURITY;

    Mr. Parrish. Good afternoon, Mr. Chairman. I appreciate 
that, and distinguished members of the subcommittee, I am 
delighted and honored to be here this afternoon. This hearing 
is very important to the Department of Homeland Security, as I 
too believe it presents an opportunity to provide the status of 
a critical element within the Department, and that is the 
information analysis directorate.
    It is also a special hearing, as it represents the 100th 
Congressional hearing for the Department of Homeland Security, 
since our beginning on March 1st, something I will proudly be 
able to share with my grandson. I am the Acting Assistant 
Secretary for information analysis in the Information Analysis 
and Insfrastructive Protection Directorate. Prior to assuming 
that position on July 3rd of this year, I was the senior 
Department of Homeland Security representative to the Terrorist 
Threat Integration Center. In this capacity, I served in the 
senior leadership position as the Associate Director for 
Homeland Security, and prior to my assignment with DHS, I 
served as the first Executive Director for the Office of 
Antiterrorism at U.S. customs.
    During my tenure with Customs, the importance of 
information sharing became more evident. What I saw firsthand 
was the amount of information that Customs inspectors were able 
to acquire on the movement of people, goods and materials 
entering into our country.
    Information that when analyzed could produce critical 
pieces of intelligence that may lead to connecting the dots and 
the detection or prevention of terrorist attacks to our 
homeland.
    Today, within the Department of Homeland Security, we have 
the operational organizations that have access to potentially 
valuable information, such as that acquired by Customs. For 
example, today with the integration of the Customs and Border 
Protection Organization, the opportunity to acquire critical 
pieces of information enhances the analytical process within 
the information analysis directorate. Our ability to assess and 
then correlate this information against other agencies' 
information both within the Department and external to the 
Department supports our ability to connect the dots.
    For example, on a daily basis, the Customs and Border 
Protection entities process over 1.1 million passengers 
arriving into our Nation and seaports, inspecting over 57,000 
trucks daily and 580 vessels, 2,500 aircraft and over almost 
325,000 vehicles across our borders.
    Significant amounts of information could be acquired 
through each and that data could provide information that may 
tie it to potential terrorist nexus. The Immigration and 
Customs Enforcement entities investigate cases involving alien 
smuggling, terrorist financial operations and other crimes 
associated with terrorist organizations, and the Transportation 
Security Administration screening approximately 1.5 million 
passengers aboard commercial aircraft.
    To further enhance the process of correlating information 
from other agencies, we have within IAIP the Homeland Security 
Operations Center, with representation from over 15 Federal 
agencies. Their presence, their connectivity back to their 
parent agencies, provides a very robust and comprehensive 
exchange of information, both horizontally and vertically.
    IA has initiatives underway to reach out to another very 
important and relevant source of information, and that is our 
customers and our partners at the State and local government, 
as well as the private sector receiving reports from these 
organizations regarding suspicious activities, surveillance 
operations or stopping suspect individuals with potential 
terrorist nexus.
    As these reports are received into Homeland Security 
Operations Center, they are passed to the information analysis 
directorate where we analyze the information and coordinate 
with other agencies including the FBI in order to identify any 
possible correlation or ties to terrorist activities.
    For example, a report of a suspicious person videotaping 
the entrance to a nuclear power facility in one location and 
two days later a similar description is reported at another 
facility 100 miles away. In order to assess if there is a 
correlation to these incidents, the information analysis 
directorate will coordinate with appropriate State, local and 
Federal agencies to assess any and all information that may be 
related to these two incidents.
    IAIP is working aggressively to implement the necessary 
information technology connectivity as well as the associated 
logistics requirements for this initiative to begin.
    Currently within our Homeland Security Operations Centers, 
we are communicating with members of the State, and local 
governments as well as the private sector as our IT program 
continues to expand. The processes and procedures that I have 
described will further enhance our efficiency and analysis and 
assessment of potential terrorist activities.
    I am confident, sir, that the procedures and the process 
that I have described ensures that IAIP is in full compliance 
with the legislation passed by Congress in the Homeland 
Security Act of 2002.
    Each day we are making further progress to enhance our 
capabilities in the 19 functions outlined in the Homeland 
Security Act. Secretary of Homeland Security has placed the 
highest priority on expeditiously completing the new home for 
IAIP, and when completed will give us more personnel, and 
appropriate electronic connectivity.
    However, in the meantime, we have identified procedures to 
ensure we are meeting our tasks and accomplishing our mission. 
Procedures such as employing liaison personnel from other 
agencies, bringing in members into our Homeland Security 
Operations Center, as well as into the information analysis 
directorate.
    I have recently initiated a program for our analysts to be 
able to coordinate directly with analysts of the FBI, the 
Terrorist Threat Integration Center, and other members of the 
Intelligence Community. This exchange of personnel and direct 
access to other analysts will provide the face-to-face and the 
voice-to-voice connectivity that provides essential 
connectivity to ensure that all information is shared.
    I am confident that these work-around measures are 
succeeding in ensuring a timely and efficient flow of 
information both into as well as out of the Department of 
Homeland Security.
    Hearings such as yours today provides each of us an 
opportunity to look back at where we have come from since the 
Nation's dark day in our history on September 11th.
    We need to recognize and extend thanks to you, to your 
staffs, our Federal agencies to include our law enforcement and 
intelligence agencies, the dedicated State and local 
authorities and the private sector and the American people in 
general. We have all risen to the challenges of combatting the 
new enemy threatening our security. Because of the coordinated 
efforts of all of us in sharing challenges as well as the 
responsibilities, we have made a difference in our Nation--and 
our Nation has not suffered another attack.
    However, we must not become complacent nor tired nor weary. 
The dedication and commitment must continue and above all, 
continue as prayers for the safety and security of this great 
Nation.
    Sir, I thank you and I look forward to your questions.
    Mr. Gibbons. Thank you very much, Mr. Parrish, and we do 
appreciate your testimony. It is always a pleasure to have you 
before the committee, and especially your agency, and we have 
always felt that it has contributed to our better understanding 
of how the progress is going of this important agency as we 
move along.
    [The statement of Mr. Parrish follows:]

                PREPARED STATEMENT OF WILLIAM H. PARRISH

    Good morning Mr. Chairman and distinguished members of the 
Committee. I am delighted to appear before you today to discuss The 
Department of Homeland Security's responsibility in information sharing 
both vertically and horizontally.
    I am currently the Acting Assistant Secretary for Information 
Analysis in the Information Analysis and Infrastructure Protection 
Directorate (IAIP). Prior to assuming this position on July 3rd of this 
year I was the Senior DHS representative to the Terrorist Threat 
Integration Center (TTIC). In this capacity I served in a senior 
leadership position as the Associate Director for Homeland Security. My 
tenure in US Customs as the Executive Director of Anti-terrorism 
provided the opportunity to gain an appreciation for the criticality of 
information sharing and the necessity for recognition and understanding 
of individual agencies' capabilities in the fight against terrorism.

    Although only four months old, I can assure you that IAIP is moving 
forward in carrying out our statutory responsibilities, and the key 
missions of Information Analysis which include:
        <bullet> Providing the full range of intelligence support to 
        senior DHS leadership
        <bullet> With IP, mapping terrorist threats to the homeland 
        against our assessed vulnerabilities in order to drive our 
        efforts to protect against terrorist attacks
        <bullet> Conducting independent analysis and assessments of 
        terrorist threats, including competitive analysis, tailored 
        analysis, and ``red teaming''
        <bullet> Integrating the work of all of DHS' components as well 
        as managing the collection and processing of information into 
        usable and actionable information from DHS' intelligence 
        components, e.g., the Bureau of Customs and Border Protection, 
        Immigration and Customs Enforcement, Transportation Security 
        Administration Coast Guard, and Secret Service
        <bullet> Working closely to maintain transparent information 
        exchange between those DHS/IA officers assigned to work on DHS' 
        behalf at the TTIC, IA officers conducting the threat analysis 
        mission at DHS Headquarters, our TTIC partners and Federal 
        Agencies, state and local officials governments and the private 
        sector
        <bullet> Disseminating time sensitive alerts and advisories to 
        federal, state, local governments and private sector 
        infrastructure owners and operators
    IAIP is unique among U.S. intelligence and law enforcement elements 
in authority, responsibility, and access to information. IAIP has 
robust, comprehensive, and independent access; as mandated by the 
President and in the law, to information relevant to homeland security, 
raw and processed, collected domestically and abroad. Accessing the 
information and intelligence from this mosaic of programs and systems 
of federal, state and local agencies supports our mission to analyze 
data and take action to protect against terrorist attacks directed at 
the U.S. homeland. IA has the ability to conduct its own analysis and 
to leverage the information of the FBI, CIA, and the remainder of the 
Intelligence Community and federal government, plus state and local law 
enforcement and private sector entities, to protect of the homeland.
    Central to the success of the DHS mission is the close working 
relationship between the Office of Information Analysis (``IA'') and 
the Office of Infrastructure Protection (``IP'') to ensure threat 
information is correlated with critical infrastructure vulnerabilities 
and protective programs. This threat and vulnerability information can 
then be used to recommend preventative and protective measures. The 
integration of information access and analysis on the one hand, and 
vulnerabilities analysis and protective measures on the other, is the 
fundamental mission of the IAIP Directorate.
    Beyond the unique IA-IP partnership; the Homeland Security 
Operations Center (HSOC) serves as a focal point for the Nation's 
efforts to protect our homeland. The HSOC is a 24 x 7 x 365 days a year 
Watch Center and is comprised of members from over thirteen federal 
agencies from the Intelligence Community, Law Enforcement Agencies, 
emergency preparedness organizations and entities focused on 
infrastructure protection. Given the information provided from the 
parent organizations of these entities, and the all-source data 
provided by other DHS partners; information and intelligence relating 
to threats to the homeland is analyzed from multiple arenas. This all-
source data-fusion performed at IAIP allows products to be tailored to 
address a specific threat to allows DHS constituents to prioritize 
resource allocations in the enhancement of their security posture to 
counter potential terrorist acts.
IAIP is the central information nerve center of DHS' efforts to 
coordinate the protection of U.S. homeland security. As such, IA 
supports DHS's law enforcement components through timely and integrated 
analytical support. For example in a single day:
        <bullet> In coordinating with BCBP which process over 1.1 
        million passengers arriving in our Nation's airports and 
        seaports, inspection of over 57,006 trucks and containers, 580 
        vessels, 2,459 aircraft, and 323,622 vehicles coming into this 
        country, IA has immediate access to valuable information of 
        potential terrorist activities which further enhances our 
        ability to develop threat plot lines--connecting the dots
        <bullet> In coordinating with BICE; which investigates cases 
        involving alien smuggling, terrorist financial dealings and 
        other crimes associated with terrorist operations, IA analysis 
        and assessments have the ability to identify potential trends 
        of terrorist related activity
        <bullet> In coordinating with the Transportation Security 
        Administration; which screens approximately 1.5 million 
        passengers before they board commercial aircraft, IA assists in 
        determining individuals to be entered on the ``No-Fly list'' 
        and Watch Lists
IA ensures that homeland security products derived from the fusing of 
disparate types of information is shared with Federal, state, and local 
governments, as well as the private sector. Recent products include;
        <bullet> Information Bulletin discussing July 4th General 
        Awareness issues
        <bullet> Advisory on the Potential Al Qaeda Threats to the U.S. 
        Water Supply
        <bullet> Advisory on reconnaissance tactics and techniques 
        operatives have employed in attacks overseas; i.e. Riyadh 
        Bombing of 12 May
        <bullet> Information Bulletin discussing Compromised Private 
        Branch Exchange (PBX) and Telephone Voicemail systems
        <bullet> Information Bulletin speaking to Chemical, Biological, 
        Radiological and Nuclear (CBRN) Materials and Effects
        <bullet> Information Bulletin speaking to Potential Indicators 
        of Threats Involving Vehicle Borne Improvised Explosive Devices 
        (VBIEDs)
Additionally, IA coordinates with the Federal Bureau of Investigation 
in publishing combined DHS-FBI Intelligence Bulletins.
In addition to mapping terrorist threats to the homeland, and carrying 
out its many other intelligence-support and analytic functions, IA is a 
full participant in the TTIC, with IA personnel physically located at 
the TTIC. The assignment of IA analysts to assist in the carrying out 
of DHS' analytic mission as full partners in TTIC ensures the timely 
and relevant information flow to and from the IAIP directorate. This is 
not a substitute for the receipt of information directly at DHS 
Headquarters, but rather represents a recognition that, as provided by 
Congress and the President, authorities and capabilities to deter and 
disrupt terrorist threats, particularly overseas, are shared among a 
number of departments and agencies and such activities often must be 
undertaken in concert with state, local, and foreign governments.
    Recent experience has shown that terrorist groups may attempt to 
coordinate multiple attacks, both overseas and within the United 
States, and that threats that appear to be directed overseas may 
actually be directed towards the homeland, and vice versa. The threat 
information integration and analysis that is the beginning, not the 
end, of DHS' protective mission, will most effectively be carried out, 
as Congressional and other reviews have recommended, when all terrorism 
threat-related activities of the U.S. Government work together 
seamlessly. This includes counter-terrorism activities directed against 
threats overseas, as well as criminal investigation and prosecution 
activities, which the President and Congress did not, and, as a matter 
of effective government and common sense, should not, direct be carried 
out exclusively by DHS.
    The direct receipt at DHS Headquarters of information provided by 
statute and Presidential direction to DHS, the complimentary work of IA 
personnel assigned to TTIC, IA analysts detailed to other Intelligence 
Community partners, coupled with the multi-agency representation in the 
HSOC, ensures IA a robust, comprehensive, and independent access to 
information; raw and processed, collected domestically and abroad; 
relevant to analyzing terrorist threats to the homeland
    I come before you today to tell you that progress has been, and 
continues to be made on a daily basis in the IAIP Directorate. As with 
any new organization, there is work to be done. I will be the first to 
admit that we are not where we wish to be, but we are moving rapidly in 
a well-conceived and strategic way to get there in the very near 
future. IAIP is building a strong team of professionals and assigning 
dedicated and knowledgeable individuals in key liaison positions within 
our partnering agencies. This will further enhance the timely access to 
critical information that when placed in the hands of the dedicated and 
competent members of DHS serving at our borders, airports, seaports 
across America, will increase our ability to detect, prevent and deny 
terrorists from striking our Homeland. With the continued support of 
Congress, I am confident that IAIP and our partners in the war against 
terrorism can succeed in meeting the challenges presented before us.
    As Secretary Ridge has stated on numerous occasions, ``When our 
hometowns are secure, our homeland will be secure.'' That is not merely 
rhetoric, but a fundamental principle of the nation's homeland security 
effort. Everyone is a partner in the effort. We must be aggressive in 
connecting and staying connected with our partners to provide an 
extraordinary and unprecedented exchange of information. This 
information must be actionable by local law enforcement and first 
responders, but must also empower the average citizen to do their part 
in assisting with securing our homeland.
    Mr. Chairman, and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Mr. Gibbons. Gentlemen, if I may, I have been advised that 
Mr. Kallstrom has a time constraint that is going to affect his 
time that he can be before us, and with that and your 
concurrence, I would like to invite Mr. Kallstrom to submit his 
testimony right now, and then we will move back for the rest. 
So Mr. Kallstrom, I apologize for the delay in getting to you. 
I appreciate the fact that you have come down to testify and 
would welcome you to speak now, and we are looking forward to 
hearing what you have to say.

STATEMENT OF JAMES KALLSTROM, SENIOR ADVISER TO THE GOVERNOR ON 
                        COUNTERTERRORISM

    Mr. Kallstrom. Thank you, Mr. Chairman. Thank you for your 
great service. I was reading your bio. It is quite impressive.
    Mr. Gibbons. Well, Mr. Kallstrom that and about $3.50 at 
any Starbucks Coffee will buy you the regular decaffeinated 
version. So thank you.
    Mr. Kallstrom. Thank you Congressman Sweeney, who I have 
had a great year and a half working with in New York, and 
Congressman Meek, thank you for being here.
    Good afternoon. I would like to begin by thanking you for 
inviting me to participate I think in this very important 
hearing. From those terrible moments on September 11th, the 
security of the United States and its interests has become our 
Nation's highest priority. Some 22 months later, our country's 
most urgent objective remains the prevention of another 
devastating terrorist attack. In meeting this immense 
responsibility, we must immediately recognize that the 
extraordinary security challenges we face, in large part, can 
best be met by implementing an effective and workable 
intergovernmental approach. We must align the walls separating 
Federal intelligence and law enforcement agencies and State and 
local law enforcement. We must redefine the appropriate roles 
for authorities at all levels of government and in so doing, 
give State and local law enforcement the tools they need, 
timely and relevant counterterrorism information to partner in 
the national effort to protect our country and our citizens. We 
must find ways to empower State and local police and others to 
identify indications and warnings of potential terrorist 
activity.
    Although many challenges lie ahead, much has been 
accomplished since September 11th. Within weeks of the attacks, 
Governor Pataki created one of the Nation's first State 
homeland security offices, the New York State Office of Public 
Security. He asked me to become the Office's first directorate 
and tasked us with developing a comprehensive statewide 
strategy to prevent, deter and respond to terrorist threats and 
events. He asked us to do everything we could do as a State to, 
in his words, never let this happen again.
    Our first order of business was to more fully engage the 
State's 75,000 sworn law enforcement officers. Our eyes and 
ears in our neighborhoods and communities in the war on 
terrorism. To do this, we divided our State into 16 
counterterrorism zones. Within each zone, law enforcement 
agencies now operate in a coordinated manner to best share 
resources, information, training and best practices relevant to 
counterterrorism.
    In addition, we developed and deployed a New York State 
counterterrorism network throughout these zones. This network 
has effectively linked all of our State's police and sheriffs 
in a secure stand-alone counterterrorism information-only 
communications system.
    In a little over a year and a half, more than 350 dedicated 
counterterrorism network computer terminals have been installed 
in virtually every corner of the State. To date, almost 200 
terrorist-related advisories and alerts have been disseminated 
to local law enforcement and related health, education, fire, 
first responder and private sector communities.
    In August, New York State will open its Counterterrorism 
Center. The Center will serve as a central State clearinghouse 
for information sharing and in particular, counterterrorism 
information at all levels.
    As we recognize in our State, the inclusion of the 
country's 700,000 sworn State and local police officers and 
sheriffs in a systematic information-sharing loop is critical 
for us to succeed in the national war on terrorism. But in the 
loop, it is not necessary that all police officers receive 
access to everything, including classified documents within 
secure Federal databases. Rather, the Federal Government must 
provide the police officer on patrol with the ability under 
controlled and orderable circumstances to request a 
comprehensive search of Federal databases, including 
outstanding warrants and intelligence indices, including 
terrorist watchlists in order to receive a green light, yellow 
light, red light indication regarding a subject of interest as 
a possible link to terrorist activity.
    By means of connectivity with a central clearinghouse like 
the New York State Counterterrorism Center, the cop on the 
street could receive focused and vetted guidance as to the 
immediate action he or she should take with respect to the 
individual in question. This can be done without providing the 
details of sensitive information or the methods and sources of 
collection. Better decisions can and will be made on the street 
in realtime.
    We advocate the creation of a green light, red light, 
yellow light system that would make lawful use of the 
information currently maintained by relevant Federal agencies 
coupled with State information, and thus provide local law 
enforcement with the timely answer to a very basic question, 
does this individual have a known or suspected relationship to 
terrorism? And if so, what are my next steps?
    The September 11th hijackers lived among us before they 
perpetrated their lethal attacks. Several of those hijackers 
had interception with State and local law enforcement officers 
during traffic stops. If the officers involved in these 
incidents were fully aware of the patents and indications of 
the terrorist threat to the United States and had appropriate 
and timely access to the Federal Government's various databases 
and watchlists, the September 11th attacks just might have been 
uncovered.
    We will never know this for sure, but one lesson learned is 
that local and State law enforcement officers in the field must 
have access to a one-stop shopping resource where in realtime 
they can query an individual's name or identity against all 
terrorism-related databases.
    We are well aware that this system must be appropriately 
tailored to be used only in connection with counterterrorism 
efforts. Comply with existing law and be subject to audit and 
review.
    I must stress that the FBI Joint Terrorism Task Forces have 
been at the forefront and instrumental in handling terrorism-
related investigations on a nationwide basis and have 
successfully apprehended individuals with a nexus to terrorism 
or organized terror groups on many, many occasions. I can speak 
from personal experience that these task forces are absolutely 
vital in the war against terrorism.
    However, we have found important information obtained from 
these national investigations does not reach the offices 
responsible for patrolling the cities, towns, highways, 
villages and neighborhoods of our country in all cases. State 
and local police officers comprise far less than 1 percent of 
these task forces. Their scope and breadth of mission and their 
ability to learn what they now do not know mandates the use of 
State and local police as eyes and ears in their support.
    To use a military metaphor, State and local police can be 
effective listening posts and forward observers for the task 
forces. Our concern is not only what the task forces do not 
know. It is what we as State and local communities have not 
been empowered to do to assist these task forces.
    With means readily and routinely at our disposal, they will 
know more and be better positioned to protect our country.
    Almost one year ago, the ten northeastern States from 
Delaware to Maine, including New York form the northeast region 
of homeland security agreement as a consortium to combine the 
homeland security efforts of our States. The northeast regional 
agreement has focused on developing, among other things, 
regional information and intelligence sharing strategies. We 
have worked diligently with the Department of Homeland Security 
on these concerns, and strongly believe the northeast regional 
agreement would make an excellent starting point for a pilot 
project envisioned in the recently passed Intelligence 
Authorization Act of 2004, H.R. 2417.
    At the State level, intelligence centers like the New York 
State Counterterrorism Center can be created, either within 
each State or as appropriate on a regionalized basis. A staff 
of cleared personnel assigned to the center while maintaining a 
direct secure line of communications with a Federal 
coordination center would interact both with State police and 
all local police departments.
    Partnering with the Federal Government effective 
counterterrorism information sharing could be almost 
immediately accomplished on a regional basis.
    As the Department of Homeland Security becomes increasingly 
operational, we must continue to connect the counterterrorism 
pipes to enable interagency and both international and national 
information on intelligence sharing on a regular basis.
    America's State and local police officers are one of our 
country's first lines of defense against another terrorist 
attack. They are our forward observers. They are our boots on 
the ground. In this extraordinary and historic effort, they 
must be fully empowered and given the necessary tools to wage 
this great fight of our times.
    We look forward to continuing to work with you to meet this 
challenge. Thank you.
    Mr. Gibbons. Thank you very much, Mr. Kallstrom, and I 
appreciate that.
    [The statement of Mr. Kallstrom follows:]

                 PREPARED STATEMENT OF JAMES KALLSTROM

    Good afternoon Mr. Chairman and members of the Committee.
    I would like to begin by thanking you for inviting me to 
participate in this important hearing.
    From those terrible moments on September 11th, the security of the 
United States and its interests has become our nation's highest 
priority. Some twenty-two months later, our country's most urgent 
objective remains the prevention of another devastating terror attack. 
In meeting this immense responsibility, we must immediately recognize 
that the extraordinary security challenges we face in large part can 
best be met by implementing an effective and workable intergovernmental 
approach. We must realign the walls separating federal intelligence 
agencies and state and local law enforcement. We must redefine the 
appropriate roles for authorities at all levels of government and in so 
doing, give state and local law enforcement the tools they need--timely 
and relevant counter-terrorism information--to partner in the national 
effort to protect our country and citizens; we must find ways to 
empower state and local police and others to identify indications and 
warnings of potential terrorist activity.
    My remarks today will concentrate on the significantly enhanced 
function state and local law enforcement must assume in matters related 
to homeland security. In addition, I will outline the need to 
expeditiously build a bridge over the information-sharing gap that 
exists between the federal and state and local governments. I will 
share several positive and innovative steps New York State has already 
taken to close that gap. But because the states cannot do this alone, I 
will ask your support to enable a unified and workable plan for the 
prevention of terrorism in our country, states, cities and 
neighborhoods.
    Although many challenges lie ahead, much has been accomplished 
since September 11th. Within weeks of the attacks, Governor Pataki 
created one of the nation's first state homeland security offices, the 
New York State Office of Public Security. He asked me to become the 
Office's first Director and tasked us with developing a comprehensive 
statewide strategy to prevent, deter and respond to terrorist threats 
and events. He asked us to do everything we could do as a state to, in 
his words, ``Never let this happen again.''
    Our first order of business was to more fully engage the state's 
75,000 sworn law enforcement officers, our eyes and ears in our 
neighborhoods and communities, in the war on terrorism. To do this, we 
divided our state into 16 Counter-Terrorism Zones. Within each zone, 
law enforcement agencies now operate in a coordinated manner to best 
share resources, information, training and best practices relevant to 
counter-terrorism. In addition, we developed and deployed the New York 
State Counter-Terrorism Network throughout these zones. This Network 
has effectively linked all of our state's police and sheriffs in a 
secure, stand-alone counter terrorism information-only communications 
system.
    In a little over a year and a half, more than 350 dedicated 
Counter-Terrorism Network computer terminals have been installed in 
virtually every corner of the state. The Counter-Terrorism Network has 
become a national model for counter-terrorism information sharing among 
state and local law enforcement authorities. To date, almost 200 
terrorism-related advisories and alerts have been disseminated to local 
law enforcement and related health, education, fire and first responder 
and private sector communities.
    In August, New York State will open its Counter-Terrorism Center. 
The creation of this Center is part of an integrated program that will 
provide for the routine and coordinated exchange of information and 
intelligence between federal, state and local law enforcement. The 
Center will serve as a central state clearinghouse for information 
sharing and in particular counter-terrorism information.
    As we recognized in our state, the inclusion of the country's 
700,000 sworn state and local police officers and sheriffs in a 
systematic information-sharing loop is critical for us to succeed in 
the national war on terrorism. By ``in the loop,'' it is not necessary 
that all police officers receive access to everything, including 
classified documents, within secure federal databases. Rather, the 
federal government must provide the police officer on patrol with the 
ability, under controlled and auditable circumstances, to request a 
comprehensive search of federal databases, including outstanding 
warrants and intelligence indices (including terrorist watch lists) in 
order to receive a ``green light--yellow light--red light'' indication 
regarding a subject of interest's possible link to terrorist activity. 
By means of connectivity with a central clearinghouse like the New York 
State Counter-Terrorism Center, the cop on the street could receive 
focused and vetted guidance as to the immediate action he or she should 
take with respect to the individual in question. This can be done 
without providing the details of sensitive compartmented information or 
the methods and sources of collection. Better decisions can and will be 
made on the street in real time.
    We advocate the creation of a ``green light--yellow light--red 
light'' system that would make lawful use of the information currently 
maintained by relevant federal agencies coupled with state information 
and thus provide local law enforcement with the timely answer to a very 
basic question--``Does this individual have a known or suspected 
relationship to terrorism and if so, what are my next steps?'' With 
guidance and information already maintained by the government and 
provided through contact with such a center, a state or local police 
officer could then be guided to take appropriate action.
    The September 11th hijackers lived among us before they perpetrated 
their lethal attacks. Several of those hijackers, including Mohammed 
Atta, Hani Hanjour, and Ziad Jarrah had interaction with state and 
local law enforcement officers during traffic stops. If the officers 
involved in those incidents were fully aware of the patterns and 
indications of the terrorist threat to the United States and had 
appropriate and timely access to the federal government's various 
databases and watch lists, the September 11th attacks just might have 
been uncovered. We will never know this for sure, but one lesson 
learned is that local and state law enforcement officers in the field 
must have access to a "one stop shopping" resource where in real time 
they can query an individual's name or identity(s) against all 
terrorism-related databases. We are well aware that this system must be 
appropriately tailored to be used only in connection with counter 
terrorism efforts, comply with existing law and be subject to audit and 
review.
    At the Federal level it is essential that various agencies that 
constitute the intelligence community create one central repository for 
terrorist-related information or a method to rapidly check these 
repositories. The post September 11th investigation has exposed 
examples where critical information was ``stovepiped'' in the hands of 
one agency failing to get to appropriate people in another agency. The 
most telling example of such a case is information collected on 
September 11th hijackers Khalid al-Midhar and Nawaf Alhazmi Midhar. 
Sectors of the federal intelligence community had determined the two 
men were al Qaeda operatives. One carried a U.S. multiple-entry visa 
and there were indications the two might attempt travel to the United 
States. However, other relevant federal agencies were not fully 
enlisted in the effort to track these individuals. In hindsight, it is 
evident that agencies like the FAA and INS might have been able to 
thwart entry of the hijackers into this country if there had been 
broader knowledge and access to just a portion of this information.
    I must stress that the FBI-Joint Terrorism Task Forces have been at 
the forefront and instrumental in handling terrorism-related 
investigations on a nationwide basis and have successfully apprehended 
individuals with a nexus to terrorism or organized terror groups on 
many, many occasions. I can speak from personal experience that these 
Task Forces are vital in the war against terrorism.
    However, we have found important information obtained from these 
national investigations does not reach the officers responsible for 
patrolling the cities, towns, highways, villages and neighborhoods of 
our country. State and local police officers comprise far less than one 
percent of these Task Forces; their scope and breadth of mission and 
their ability to learn what they now do not know mandates the use of 
state and local police as eyes and ears in their support. To use a 
military metaphor, state and local police can be effective listening 
posts and forward observers for the Task Forces. Our concern is not 
what the Task Forces cannot do; it is what we, as a state and local 
community, have not been empowered to do to assist these Task Forces. 
With means readily and routinely at our disposal they will know more 
and be better positioned to protect our country.
    The Department of Homeland Security is now the cabinet-level agency 
responsible for coordinating the protection of America's citizens and 
infrastructure from the threat of terrorist attacks. Charged also with 
coordinating state and local government efforts for that purpose, it is 
logical that the DHS take the initiative in accomplishing this mission. 
Under whose auspices the system would fall should not be the crucial 
issue - the quick creation of such a system and the capacity to render 
it fully functional must be our ultimate goal.
    The Intelligence Authorization Act for Fiscal Year 2004 (H.R. 
2417), which recently passed the House by an overwhelming margin, moves 
toward the goal of greater information sharing between the federal, 
state and local governments. Section 336 of the bill would amend the 
Homeland Security Act of 2002 to authorize the DHS Undersecretary for 
Information Analysis and Infrastructure Protection (IAIP) to conduct 3 
year pilot projects in several cities to encourage state and local 
governments, and representatives of various industries with critical 
infrastructure in the project areas, to collect and pass on counter-
terrorism information to the federal government. As part of the 
proposed pilot projects, DHS would be allowed to share with state and 
local governments intelligence information in its possession through 
the use of tear-line reports. The bill would also allow the Director of 
Central Intelligence to establish an orientation and training program 
for certain state and local officials. The Director of the Terrorist 
Threat Integration Center would be mandated to establish two advisory 
councils, one of which would have as its primary focus privacy and 
civil liberties and the other would focus on the information needs of 
state and local governments. While this bill and its companion, S.1025, 
will need further strengthening, it provides a suitable template for 
airing the concerns of the intelligence communities of both state and 
local governments and would greatly facilitate the exchange of 
information between the different levels of government.
    Almost one year ago, the ten northeastern states from Delaware to 
Maine, including New York, formed the Northeast Regional Homeland 
Security Agreement as a consortium to combine the homeland security 
efforts of our states. The Northeast Regional Agreement has focused on 
developing, among other things, regional information and intelligence-
sharing strategies. We have worked diligently with the Department of 
Homeland Security on these concerns and strongly believe the Northeast 
Regional Agreement would make an excellent starting point for a pilot 
project envisioned by this bill. At the state level, intelligence 
centers like the New York State Counter-Terrorism Center can be 
created, either within each state or as appropriate, on a 
``regionalized'' basis. A staff of cleared personnel assigned to the 
center, while maintaining a direct, secure line of communication with a 
federal coordination center, would interact both with state police and 
all local police departments. Partnering with the federal government, 
effective counter-terrorism information sharing could be almost 
immediately accomplished on a regional basis.
    In preparation for effective and meaningful sharing of sensitive 
information, New York State agencies have been working with the 
Department of Homeland Security to obtain varying levels of security 
clearances to appropriate personnel. It is imperative that selected and 
cleared individuals on a state level receive tear line intelligence 
reports relevant to terrorist activity so they can prepare appropriate 
response action plans and overlay them with the ``fabric of their 
community.'' Working in tandem with select local officials awarded the 
same security clearance will help coordinate counterterrorism efforts 
from the federal level down to police officers on the street. 
Currently, a top-secret clearance issued by the Department of Defense 
may not be recognized or deemed comparable by the Federal Bureau of 
Investigation, thus halting the flow of vital and often timely 
intelligence. Therefore, New York State supports federal efforts to 
streamline and standardize security clearances among all Federal 
agencies.
    Just as the federal government relies on state and local 
communities to be the primary first responders to a scene, we must 
continue to work toward the empowerment of state and local police to 
play a necessary role in assisting the Task Forces in the prevention of 
future acts of terrorism. Simply stated, we must have the ability to 
share what we gather on the streets and thereby materially bolster JTTF 
counter-terror investigations. As the Department of Homeland Security 
becomes increasingly operational, we must continue to connect the 
counter-terrorism pipes to enable interagency and both international 
and national information and intelligence sharing on a regular basis.
    America's state and local police officers are our country's first 
line of defense against another terrorist attack. They are our forward 
observers, and our ``boots on the ground'' in this extraordinary and 
historic effort. They must be fully empowered and given the necessary 
tools to wage the great fight of our times. We look forward to 
continuing to work with you to meet this challenge.

    Mr. Gibbons. We have been joined on the panel on the dais 
today by the ranking member, Karen McCarthy from Missouri, and 
the chairman of the full committee, Mr. Chris Cox of 
California. Welcome, and we appreciate their being here as 
well.
    Ms. McCarthy indicated that she will submit her opening 
remarks for the record, and they will be entered into the 
record.
    Right now we will turn to--back to the schedule of 
witnesses, and thank you, Mr. Kallstrom, for your remarks. Very 
helpful and enlightening as well. We are pleased to see New 
York is out there on the leading edge in doing what they are 
doing, and we certainly look forward to studying more of what 
you are doing an how it is working out and--.
    Mr. Kallstrom. Thank you, Mr. Chairman.
    Mr. Gibbons. We will turn now to Mr. Lago for your 
comments.

   STATEMENT OF V. PHILLIP LAGO, DEPUTY EXECUTIVE DIRECTOR, 
                  CENTRAL INTELLIGENCE AGENCY

    Mr. Lago. Good afternoon, Chairman Gibbons, Ranking Member 
McCarthy, Chairman Cox and members of the subcommittee. I thank 
you for the invitation to come here and speak with this 
distinguished panel. The discussion on the information flow and 
how it gets to the people who need it most is at the heart of 
defending the homeland. I also thank you for the break we have 
had. We have managed to get a lot of business done while you 
were gone.
    Mr. Gibbons. That is making lemonade out of lemons. Right?
    Mr. Lago. We do the best we can, sir.
    I also appreciate the fact that you really want to get to 
the question and answer period, and since I have submitted a 
detailed written statement, I am going to keep my opening 
comments very brief. I believe we have some good-news stories. 
I believe we are clearly not there yet. We have a long way to 
go, and we have a lot of challenges ahead of us. I believe that 
the information flow between the CIA and the Department of 
Homeland Security is good. It is getting better, and it will 
continue to get better.
    We are working with our colleagues in the Department and 
the Bureau to work with the State and locals to ensure that we 
get the information flowing both ways to get the right 
information to the right people at the right time.
    If I accomplish nothing else today, I would like to leave 
you with three messages. First--and let me be clear on this--
the CIA is committed to providing all of the information 
required by the Department of Homeland Security to do the 
mission that it was asked to do in the Homeland Security Act of 
2002.
    Second, we are working with our partners to ensure that the 
flow of information goes both ways to ensure that we have the 
maximum amount of usable, actionable information at the right 
place, at the right time.
    And third, the CIA and the Department of Homeland Security 
have a unique relationship. The missions are complementary. The 
relationship has been interactive. We will not simply throw 
information across a transom and walk away. We are going to 
work with them. We have been working with them from the 
beginning to ensure that the flow of information is as best as 
we can get it. We supported then-Governor Ridge when he was 
made the special assistant to the President. We sent CIA 
officers immediately to help him.
    When you enacted the Homeland Security Act of 2002, we 
immediately sent officers to the transition teams to support 
the transition to the Department of Homeland Security. We have 
CIA officers embedded into the Department of Homeland Security 
today. These people have been there to facilitate the flow of 
information back and forth. We were there at the beginning. We 
are going to be there now, and we are going to be there in the 
future.
    We believe we are off to a good start. You could argue it 
is not fast start and you could argue it was not a pretty 
start, but it is a good start. We have had interactions at all 
levels of the organizations. We are working desperately to find 
the seamless movement of communications from all Federal 
entities to the State and local entities. We clearly are 
smarter today than we were 6 months ago. We are going to be 
smarter 6 months from now.
    I tell you the only thing with certainty that I can project 
in the future is we are going to make changes. The way we look 
today is going to be different tomorrow. If we are good, it 
will keep evolving until we get a seamless mechanism to make 
this second nature to us.
    As you know, to the Central Intelligence Agency, this is a 
new mission, to have mission partners in a domestic entity has 
been something that is very, new to us. Before it was very 
difficult to find foreign information and understand that the 
information could be used to defend New York, Reno, Kansas 
City. It was very important for us to turn our direction. We 
have turned. Our director has been very clear to us. We will 
lean as far forward as possible. We will make sure that we work 
with the Department of Justice and make sure we protect the 
civil liberties and don't get caught in those issues, but we 
will lean as far forward as possible to ensure that the right 
information is with the right people at the right time.
    I look forward to this process. I look forward to the rest 
of this hearing today, and I again appreciate the invitation. I 
thank you for your time.
    Mr. Gibbons. Thank you very much, Mr. Lago. We appreciate 
your consideration of all this, and we also appreciate your 
taking time to share with us those highlights. They will be 
very helpful.
    [The statement of Mr. Lago follows:]

                 PREPARED STATEMENT OF V. PHILLIP LAGO

    Good afternoon Chairman Gibbons, Ranking Member McCarthy and the 
Members of the Subcommittee on the Intelligence and Counterterrorism of 
the House Select Committee on Homeland Security.
    I appreciate the opportunity to join my colleagues from the 
Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), and the state and local law enforcement community 
to discuss information sharing with the Department of Homeland 
Security.
    At the outset, let me be clear that the Central Intelligence Agency 
(CIA) is committed to providing all of the information required for the 
Department of Homeland Security to execute the mission assigned to it 
by the Homeland Security Act of 2002. In fact, there are significant 
initiatives underway within the CIA and across the intelligence 
Community aimed at providing intelligence support to the national 
effort to protect our homeland. This support is evolving over time, and 
through an interactive partnership, we are all learning as we go.
    The CIA and DHS have a very unique relationship. While our mission 
has always been to collect information upon foreign threats to our 
nation and, as directed by the President, take appropriate action to 
negate or reduce that threat, we now also have the responsibility to 
support DHS in its new mission to protect the homeland. Our missions 
are complimentary, and reflect the intent of Congress in both the 
National Security Act of 1947 and the Homeland Security Act of 2002. We 
work together to ensure that no gaps exist in our defenses. For many 
years, the CIA has had relationships with several of the major 
organizations that were brought together to form DHS. As DHS stands up 
and evolves, our relationship with it is also evolving. Under Secretary 
Libutti and Acting Assistant Secretary Parrish have already made great 
strides in defining the type of information that the department needs 
to ensure it can perform its mission. We have been addressing those 
issues, we are addressing those issues today, and we will continue to 
address them in the future. One of the truths about the future that I 
am sure of is that this relationship will continue to evolve and change 
over time as we, as a nation, continue our discussions on how to keep 
the homeland secure while protecting civil liberties.
    Let me quickly walk you through the evolution of our relationship 
with DHS. Shortly after the attacks of 11 September 2001, Director 
Tenet designated a focal point for coordinating DCI support to this 
vital mission. CIA has taken an active interest in identifying the 
needs of the homeland security community and improving the availability 
of information on terrorism. For example, the CIA significantly 
increased the number of reports and products that not only had 
compartmented information but also versions that could be released in 
collateral or unclassified formats. The CIA sponsored numerous, non 
Intelligence Community individuals for expedited security clearances to 
ensure that critical personnel in high-risk areas could have access to 
information. We provided officers to certain FBI Joint Terrorism Task 
Forces to help prevent the terrorists from finding a seam in our 
defenses. When the President named, then Governor Ridge as his Homeland 
Security Advisor, and established the Office of Homeland Security, we 
made immediate contact with Governor Ridge and contributed personnel 
and resources to help stand up this vital office.
    We went through our next budget cycle projecting the need for us to 
support Governor Ridge and an Office of Homeland Security that would 
have about 300-400 officers. In early 2002, we announced the creation 
of the position of Associate Director of Central Intelligence for 
Homeland Security (ADCI/HS) including a small staff to help focus CIA 
and Intelligence Community support to this Office. Shortly after the 
announcement, the nation evolved in its planning and established a 
Department of Homeland Security with over 170,000 officers. Clearly we 
had to resize our efforts. Initially, CIA officers were assigned to 
both the former Office of Homeland Security and the transition team for 
the new Department. Since the activation of DHS on 1 March, CIA has 
expanded the range of products and services provided to DHS. CIA 
officers are assigned to the Directorate of Information Analysis and 
Infrastructure Protection (IAIP) and other elements of DHS, working to 
provide both a core analytic capability and establish an infrastructure 
for the care and feeding of the new Department. These officers have 
supported tasks as diverse as information analysis, information system 
management, security oversight, and watch center operations management.
    In addition, CIA provides DCI Representatives to both the Homeland 
Security Advisor and Secretary Ridge. The representatives are senior 
officers who serve as the primary conduits for the Homeland Security 
Advisor, Secretary Ridge, and their staffs to raise issues of concern 
and identify topics of special interest for the Intelligence Community 
to address, as well as providing a mechanism for providing DHS 
requirements to the Intelligence Community.
    Secretary Ridge and his senior advisors receive daily intelligence 
briefings. The Senior Executive Intelligence Brief (SEIB) is also 
available to numerous officers at the department.
    CIA is responding to intelligence requirements issued by DHS in 
addition to the standing intelligence requirements received from 
several organizations and components that were incorporated into DHS. 
We will continue to provide information directly to DHS/IAIP, in 
addition to information provided via the DHS representatives at TTIC 
and to DHS component agencies, while working with the Department to 
better synchronize and streamline the disparate requirements that were 
generated from legacy agreements.
    DHS is on the distribution list for all of CIA's raw terrorism 
reporting, which it began to receive directly immediately upon the 
implementation of their communications system. Prior to that capability 
existing, CIA reporting was sent via indirect channels. In addition, 
all subordinate organizations continue to receive CIA reporting based 
on their requirements--as they did prior to the creation of DHS--via 
their existing communication chains, to ensure that the information is 
received by the action elements as well as DHS headquarters.
    Finished intelligence products and analysis are also shared with 
DHS and their components. CIASOURCE provides direct, immediate access 
to the Directorate of Intelligence's finished intelligence products. 
Access to these products is determined by the reading requirements 
established by the requesting organizations. In the case of DHS, we are 
providing intelligence products based upon two distinct categories of 
requirements. Prior to the creation of DHS, CIA had established 
relationships with a number of organizations that were incorporated 
into the new Department. These organizations included the U.S. Secret 
Service, the U.S. Coast Guard, the old U.S. Customs Service, the 
Transportation Security Administration, the Federal Protective Service, 
the Federal Emergency Management Agency, and the Immigration and 
Naturalization Service. Although these organizations are now part of 
DHS, we continue to satisfy their intelligence requirements that were 
established before the activation of DHS. In some cases, such as the 
new Bureau of Immigration and Customs Enforcement (BICE) and FEMA, 
these requirements lists are more than 80 pages in length. In addition, 
the Intelligence Directorate of the U.S. Coast Guard is separately a 
member of the Intelligence Community and has access to intelligence 
products available to the Intelligence Community.
    We are committed to providing all necessary and relevant 
intelligence to the Department of Homeland Security. It is our intent 
to create a dialogue with DHS and help drive out a meaningful, 
manageable way to flow information, in both directions. We will not 
simply throw information over the wall and walk away declaring that our 
job is done. Our goal is to develop a full and interactive partnership 
with the DHS.
    In addition to our multiple avenues of support to DHS Headquarters 
elements, we also support the work of the Terrorist Threat Integration 
Center (TTIC), a shared partnership including DHS, CIA, FBI, DOD and 
the Department of State, by providing: CIA staff officers assigned to 
TTIC--including managers, analysts, and support personnel--the CT-Link 
information system, personnel positions, and funding, as legally 
permissible.
    The TTIC partner elements use these resources, in part, to carry 
out the mission of directly supporting DHS and other organizations. 
Also, the Community Counterterrorism Board and its community warning 
function, with eight staff positions, has been transferred from the 
DCI's Counterterrorist Center to TTIC. The mission of TTIC does not 
transfer our responsibilities to report directly to DHS.
    Thank you for this opportunity to describe CIA's role in the 
evolution and support of DHS. I would be pleased to answer your 
questions.

    Mr. Gibbons. We will turn now to Mr. McCraw from the FBI 
and ask for your testimony. And welcome before the committee. 
We look forward to hearing what you have to say.

   STATEMENT OF STEVEN McCRAW, ASSISTANT DIRECTOR, OFFICE OF 
         INTELLIGENCE, FEDERAL BUREAU OF INVESTIGATIONS

    Mr. McCraw. Thank you, Mr. Chairman. It is an honor to be 
here today and I will dispense even with my prepared oral 
testimony and just get to the--first, I want to commend Mr. 
Parrish's agency and certainly the CIA. I did in my written 
testimony. I meant it. It is earnest. At the horizontal level, 
there is unprecedented sharing of information. I would contend 
that it is seamless. I mean, we are side by side, whether it is 
out in the field or whether it is at FBI headquarters, the CTC, 
TTIC, that day-to-day information sharing is happening, and it 
is nice to see. It is critical that we do it, because as I 
pointed out in my written testimony, I mean, the greatest force 
multiplier unquestionably is the sharing of information.
    As Mr. Kallstrom pointed out, which I will kind of divert 
to the vertical sharing--I just came back from an assignment as 
SAC in San Antonio, Texas and had, you know, three JTTFs 
working under me, and of course, I would like to state for the 
record some of the best investigators I have ever supervised in 
counterterrorism weren't necessarily FBI agents. They were 
State and local officers. They were Customs, INS analysts from 
the agency, and they do a tremendous job. And clearly it 
requires a combined effort.
    One of the things when I was out there, it was obvious to 
me was that we weren't doing the type of work that we needed to 
do to get information into State and local, the vertical side 
of it. Tommy Davis, the head of the Texas Department of Public 
Safety, former agency before I got into my bureau, made it 
quite clear to me in terms that he didn't have a shared 
comprehensive view of the threat, and it is important to note 
that it is these men and women that are charged and responsible 
for protecting the community.
    So they need information, and they need it fast. They need 
security clearances, because they don't need just unclassified 
information. They need it up to certainly the top secret level 
many times, because they are charged with protecting public 
safety in their cities.
    Also as Mr. Kallstrom pointed out, which I think is 
absolutely right on target, you know, we are blessed in this 
Nation to have an army of dedicated professionals, men and 
women--the army is up to 700 authorization, or it is over 
700,000 now, and if we can arm them, they need to be armed with 
information, because they need to know about trade craft. They 
need training, and that training needs to incorporate in terms 
of the latest trade craft, and the more we can do, the better 
we can do, the better educated that we can use them out on the 
particular streets because they are collectors of information. 
Not only the first line of defense.
    Moreover, the advantage of plugging into them is that if 
they know what the requirements are, what the collection 
requirements are, then guess what, they are going to be better 
armed to collect that type of information that goes back and 
gets integrated, again, into that shared threat. And we need to 
leverage them.
    Now, the FBI, I am proud to say, has always been great 
collectors of information. In fact, I would argue that we have 
always had a great intelligence program that has been organic 
to our investigative mission. What we haven't done, though, 
however, there has never been a core competency to sharing 
information. We have never had an enterprise-wide plan to share 
information in the FBI. It has been done on a case-by-case 
basis. It has been done with the JTTFs person to person. 
However, we have not mastered that process.
    Right now we are in a 10-week program. We fortunately stole 
someone from a--a 24-year veteran from the Intelligence 
Community, because we are not afraid to take advice. We are 
working right now instituting in the FBI an enterprise-wide 
intelligence program, and of one of the core, basic principles 
that you have to address, and it is critical, is information 
sharing, which is forcing us to look at and where we need to be 
is at a customer driven or customer centric place.
    Now, I have laid out a number of things that the FBI has 
done. Certainly I am a big believer in the reports officers 
function that we have got trained professionals to extract the 
essential elements of information, get it out, intelligence 
reports back to the community, but also we need to put those 
people out in the field so they are also supporting that 
customer at the State and local level.
    And chiefs of police and sheriffs and heads of State police 
departments, they need a global view of the particular threat, 
because if you happen to be the chief of police in San 
Francisco, and there is a global threat that includes bridges 
in New York, you need to know that too. You need to see it. I 
mean, the world has changed. Events that happen in Pakistan and 
Yemen can make a difference to a chief of police in Paducah, 
Texas and also the sheriff. That is just the way it is now.
    So the director is clearly committed to doing that, and 
thankfully with the support of Congress, we have been blessed 
in a situation now to transform our entire information 
technology system, because that is an important part of 
information sharing, finding the information, the critical 
information that has to be shared and also pushing it to the 
community and pushing it to State and locals, leveraging the 
Internet, leveraging the technology that is out there. Post 
that information. Let them have access to it, because they are 
going to put a tremendous center--and I am very impressed with 
the testimony here in this 10-state initiative, and they are 
going to dedicate full-time resources into the intelligence 
process. That is good for the Nation. That is great.
    The FBI has to come through and deliver on feeding their 
requirements in terms of information and us letting them know 
what our requirements are so they can collect information. And, 
again, thank you, Chairman. It is a pleasure to be here.
    Mr. Gibbons. Thank you very much Mr. McCraw.
    [The statement of Mr. McCraw follows:]

                 PREPARED STATEMENT OF STEVEN C. McCRAW

    Good afternoon Chairman Gibbons and members of the Subcommittee. On 
behalf of the Federal Bureau of ITIvestigation (FBI), I would like to 
thank you for affording us the opportunity to speak to you today on 
this very important matter, Information Sharing. First, I would like to 
publicly acknowledge the outstanding support the FBI receives from the 
Department of Homeland Security, the Intelligence Community, and our 
nation's over 17,000 local and state law enforcement agencies. Our 
ability to share information with all of our partners has been and will 
continue to be a key factor in neutralizing many threats through a 
variety of means.
    Mr. Chairman, your Subcommittee is evidence that the threat to our 
homeland is far different than ever before. Worldwide economic, 
political, social, and technological changes have resulted in a more 
dispersed, complex, asymmetric threat to our nation. Terrorists, 
criminals, and foreign intelligence collectors have significantly 
benefitted from these rapid changes, which have permanently shrunk the 
world. Yesterday, the most significant threat to the homeland was from 
nation states that were geographically distant and contained. Today, 
global networks (terrorism, organized crime, drug trafficking and 
foreign intelligence operations) are no longer distinct activities, but 
rather fluid enterprises that pose a significant threat to the security 
of our homeland. 1As you are aware, Director Mueller is reshaping the 
FBI to meet these new threats.
    The FBI has always been a great collector of information; however, 
the sharing of information was primarily case oriented rather than a 
part of an enterprise-wide activity. Prior to 9/11/2001, statutory and 
other legal restrictions limited to some extent the degree of 
information sharing between the FBI and our Intelligence Community 
partners. Thanks to the enactment of the Patriot Act, the FBI now can 
clearly share information much more robustly than ever before. 
Moreover, in today's threat environment, cooperation rather than 
competition must be the guiding principle and the recognition that the 
benefits of sharing information far exceed the risks. We and our 
partners must have transparency in our knowledge of terrorist threats 
to the United States. In fact, it is Director Mueller's view that 
information sharing is the greatest force multiplier in the defense of 
our nation. For example, the globalization of crime and terrorism poses 
unique challenges to local and state law enforcement agencies. Chiefs 
of Police and Sheriffs need access to information far beyond their 
jurisdictional boundaries to protect the citizens of their communities. 
Today, events in Pakistan and Yemen can have a public safety dimension 
in San Antonio, Texas, that the Chief of Police, the Sheriff, and the 
Director of the Texas Department of Public Safety must know about in 
order for them to effectively discharge their responsibilities.
    Since 9/11/2001, the FBI has implemented several information 
sharing initiatives and others are underway. Collectively, when fully 
operational, these initiatives will provide an integrated system to 
quickly deliver information to our law enforcement and Intelligence 
Community partners. All who are involved in the war on terrorism are 
continuing to work through very real problems, without preventing in 
any way the full sharing of terrorism threat-related information. We 
must not only collect and share more, we much collect and share 
smarter. Collecting and sharing vast amounts of information without any 
thought being given to the usefulness of the information collected is 
counterproductive and wastes precious collection resources, while at 
the same time drowning the end user, whether he or she is a Chief of 
Police, Department Head, or Intelligence Community Analyst.
    The Intelligence process when properly executed ensures that the 
information shared is useful and meets the needs of the customer. 
Intelligence has always been a core competency of the FBI and organic 
to the FBI's investigative mission. The Patriot Act has created new 
opportunities to strengthen and expand the FBI's Intelligence 
capability and allowed us to move from thinking about ``intelligence as 
a case'' to finding ``intelligence in the case'' and sharing it widely 
with our Intelligence and Law Enforcement Partners.
    The collection and timely dissemination of the right information to 
the right people as part of an enterprise-wide business process is so 
critically important, the Director has elevated intelligence to program 
status in the FBI and hired a senior intelligence professional from the 
National Security Agency. Under her leadership, the FBI has embarked on 
a 10-week program to develop and implement Concepts of Operations for 
all nine key intelligence functions. We have already completed a 
concept of operations for dissemination that focuses on both the form 
and substance of FBI raw intelligence reports. Our aim is to move from 
individual production processes to a single process that will be 
imbedded throughout the FBI. One of our first improvements to our 
already strong Intelligence Program will be to explicitly link the 
requirements to the raw product and produce metrics to measure our 
performance against the information requirements of local and state law 
enforcement agencies, the Department of Homeland Security, the 
Intelligence Community, and those of DHS officers, our Special Agents, 
and other Intelligence Community officers assigned to the newly 
established Terrorist Threat Integration Center (TTIC), in which we, 
DHS, CIA and others are full partners.
    Before I proceed with the remainder of my testimony, I would like 
to take this opportunity on behalf of every FBI employee to thank you 
Mr. Chairman, members of the subcommittee and your colleagues for the 
support you have provided the FBI that is enabling us to overhaul its 
information technology infrastructure. When completed, every aspect of 
FBI operations including the sharing of information will be 
significantly improved.
    The most productive exchange of information occurs at the people 
level working side by side. Currently, there are 84 Joint Terrorism 
Task Forces throughout the United States with participation from 25 
different Federal gencies and hundreds of local and state law 
enforcement agencies in the 84 Task Force locations. Every JTTF 
Officer, Agent, and Analyst has a Top Secret clearance and unfiltered 
access to all of the information.
    The National Joint Terrorism Task Force located in the Strategic 
Information and Operations Center at FBIHQ is comprised of 
representatives from 35 different Federal agencies. Like the JTTFs, the 
NJTTF benefits from the combination of experience, diversity of mission 
and access to the databases of each member agncy.
    Even prior to 9/11/2001, the FBI benefitted from the assignment of 
Special Agents to the CIA's Counterterrorism Center and the CIA 
assignment of case officers and analysts to the FBI's Counterterrorism 
Division. Since 9/11/2001, the exchange of personnel has dramatically 
increased as has the timely flow of information. The benefits of co-
location cannot be overstated. This is why the Administration made the 
extraordinary decision to co-locate the FBI's Counterterrorism 
Division, the CIA's Counterterrorism Operations and TTIC in the same 
facility next year.
    The TTIC has already had a positive impact on information sharing 
throughout the community. As the Subcommittee is aware, TTIC is an 
interagency joint venture of its partners. The TTIC members include, 
but are not limited to, the Department of Justice/FBI, DHS, CIA, 
National Security Agency, National Imagery and Mapping Agency, Defense 
Intelligence Agency, and the Department of State. Through the input and 
participation of these partners, TTIC integrates and analyzes terrorist 
threat-related information, collected domestically and abroad, in order 
to form the most comprehensive possible threat picture, and disseminate 
such information to appropriate recipients. TTIC, through its 
structure, draws on the particular expertise of its participating 
members, thereby ensuring that the terrorist analytic product takes 
advantage of, and incorporates, the specialized perspectives of 
relevant federal agencies. In addition, TTIC will have access to, and 
will aggressively seek to analyze, information from state and local 
entities, as well as voluntarily provided data from the private sector. 
TTIC will work with appropriate partners to ensure that TTIC's products 
reach not only federal customers, but also state and local, as well as 
private sector, partners. TTIC provides comprehensive, all-source 
terrorist threat analysis and assessments to U.S. national leadership. 
Mr. John Brennan, the Director of the TTIC, and his staff have done a 
tremendous job in quickly standing up this vital center. The FBI is 
proud to be full partners in this effort.
    I would now like to provide you a quick overview of other FBI 
information sharing initiatives.
    In 2002, the FBI established the position of Reports Officer whose 
job is to extract pertinent information from FBI investigations and 
analysis and disseminate it to the widest extent possible. Currently, 
the FBI has 18 Reports Officers that have already disseminated nearly 
2,000 Intelligence Information Reports to the Intelligence Community. 
We are in the process of hiring 120 more Reports Officers 90 of whom 
will be assigned to the field, where they will support both local law 
enforcement and Intelligence Community information needs.
    Since 2002, the FBI has sent to approximately 17,000 law 
enforcement agencies a weekly bulletin concerning terrorism-related 
information. However, the FBI is not yet satisfied with its ability to 
provide our law enforcement partners a comprehensive view of the 
threat. As a result, we are currently establishing an executive 
briefing capability in the field to ensure senior law enforcement 
officials receive more detailed threat briefings tailored to their 
needs.
    In addition, senior law enforcement officials need access to 
classified U.S. Governmnt information and to do so they are required to 
have a security clearance. As you are aware, security clearances are 
both costly and time consuming. Nevertheless, since 9/11/2001, the 
FBI's Security Division has favorably adjudicated over 2,686 security 
clearances for local and state law enforcement personnel and another 
823 are pending approval. This is so important the FBI established an 
entire Unit to focus solely on the security clearances of local and 
state law enforcement executives and JTTF members.
    Prior to the Winter OlYmpics, Director Mueller mandated that all 
domestic and international subjects of FBI terrorism investigations be 
entered into the National Crime Information Center, providing the over 
700,000 police officers in the U.S. query access to the names of known 
and suspected terrorists. This information is also available to Federal 
law enforcement agencies and the Department of State.
    Training must also be considered as an important mechanism for the 
sharing of essential information. The better we educate ourselves and 
our colleagues about the enemy the better we are able to defend against 
them. All JTTF members receive specialized counterterrorism training; 
however, local, state, and Federal officers not in the JTTFs also need 
this type of information including knowledge about the latest trade 
craft employed by terrorists. We have expanded our counterterrorism 
training to include another estimated 27,000 local and state officers 
and are currently evaluating other training initiatives to further 
increase training opportunities.
    An essential component of the FBI's information sharing strategy 
occurs overseas with our law enforcement allies. Only by sharing 
information and working directly with law enforcement abroad will we 
have the opportunity to stop criminal and terrorist threats before they 
reach our shores. The FBI has 46 offices overseas where we have 
established solid cop-to-cop information sharing and working 
relationships, and provided training and forensic support.
    The internet provides a cost-effective means to quickly share 
unclassified information. The FBI's Law Enforcement Online (LEO) 
provides a secure and easily accessible gateway to this information. 
Using individual log on accounts, dual certificate authentication, and 
point to point encryption, LEO will provide a host of information 
services and enable the FBI to push information over the internet in a 
cost-effective manner. To further expand its reach, LEO connects to the 
Regional Information Sharing System (RISS) which is widely used by 
local and state law enforcement agencies. Furthermore, through LEO, 
users will soon have access to OSIS.4
    Certain information must be immediately brought to the attention of 
senior local, state, and federal law enforcement officials. The FBI is 
now implementing a National Alert Notification System which provides us 
the ability to instantly send text page messages throughout the nation 
alerting law enforcement agency heads or their designees through their 
cell phones and two way pagers.
    The Criminal Justice Information Services (CJIS) is working with 
local and state law enforcement to capitalize on pre-existing data 
agreements to address its crime statistics reporting mission while at 
the same time provide a national indices that will enable police 
officers to link subjects and modus operandi throughout the U.S.
    Another information gap is the inability to access wide information 
on suspicious surveillances. The counterterrorism Report System on 
Suspicious Surveillance (CROSS) was developed by Department of Defense 
and is being piloted in the National Capitol Region. CROSS will be 
accessible through LEO and it enables police officers and Agents to 
report hostile surveillance activity in a Web environment and receive 
instant notification on similar activity elsewhere in the U.S.4
    The St. Louis Gateway project was conceived by the local law 
enforcement leadership in the St. Louis area to provide law enforcement 
investigators and analysts easy access to unclassified criminal and 
terrorism investigative reports from multiple agencies. This initiative 
will employ link analysis tools and geo-spacial mapping. During the 
testing phase, previously unknown links between criminal and terrorism 
reports were identified demonstrating the efficacy of this concept. 
When successfully completed, this project will be expanded to other 
parts of the country based upon previously arranged agreements with law 
enforcement leaders in different areas of the country.
    The FBI is also in the process of establishing FBI web pages on Top 
Secret and Secret Intelligence Community and Department of Defense 
systems so that it can ``post'' information on FBI web pages that is 
easily accessible to the entire community. The FBI also has several 
ongoing classified information sharing initiatives with its partners in 
the Intelligence Community that are providing tangible results.
    Finally, it is critically important that the FBI leverage the 
outstanding work that has already been done in the intelligence and 
information sharing arena. Long before 9/11/2001, the International 
Association of Chiefs of Police (IACP) were working on intelligence led 
policing and the information sharing issue. In August 2002, the IACP 
published a report recommending the creation of a national criminal 
intelligence sharing plan. As a result, the Global Intelliqence working 
group comprised of leaders from local, state, and Federal law 
enforcement agencies was formed to address the goals and objectives 
outlined in the IACP report. The FBI is essentially a small but 
determined organization and we recognize that our future success will 
in large part be as a result of our ability to leverage one of our 
nation's greatest assets, the over 700,000 dedicated men and women who 
serve in local and state law enforcement.
    Again, thank you for the opportunity to speak to you today and I 
look forward to any questions you may. have.

    Mr. Gibbons. And we will turn now to Mr. Foresman. 
Commonwealth of Virginia, thank you and the floor is yours.

STATEMENT OF GEORGE W. FORESMAN, ASSISTANT TO THE GOVERNOR FOR 
      COMMONWEALTH PREPAREDNESS, COMMONWEALTH OF VIRGINIA

    Mr. Foresman. Thank you. Mr. Chairman, vice chairman, 
members of the committee, thank you for the opportunity to 
appear today.
    I currently serve as a cabinet ranked State homeland 
security official in Virginia and was responsible for directing 
State-level response and recovery actions to both the Pentagon 
and anthrax attacks that directly impacted the commonwealth in 
2001. I am also completing my fifth year as a member of the 
advisory panel to assess domestic response capabilities for 
terrorism involving weapons of mass destruction, the Gilmore 
Commission, created by the Congress in 1999 to advise both this 
body and the President on strategies to improve America's 
preparedness for terrorism. I also am a former first responder. 
My detailed testimony has been submitted, and I will attempt to 
be brief and within the time constraints.
    Since the attacks of September the 11th, America has made 
great progress in our collective preparedness for emergencies 
and disasters of all kinds, including terrorism. Much work 
remains. There is no more fundamental obligation for government 
than to protect its citizens. Our collective ability to meet 
that obligation to prevent and deter terrorism and if required, 
to rapidly respond and recover requires new and innovative 
thinking coupled with good old fashioned commitment no nowhere 
is this more evident than in the areas of intelligence and 
information sharing.
    We have merged entire or parts of 22 Federal agencies into 
a single organization and now named it the Department of 
Homeland Security. With the goal of improving coordination of 
effort to make America more secure. The Department of Homeland 
Security mission continues to evolve. However, one thing is 
clear. There appears to be ambiguity across the entire Federal 
Government about the DHS role when it comes to the intelligence 
sharing responsibility. This is evidenced in almost the daily 
news articles and my discussions with officials from all levels 
and areas of government, the media and the private sector.
    But this ambiguity about intelligence and information 
sharing frankly is not limited to the Department of Homeland 
Security. It extends across and within a multitude of Federal 
agencies with intelligence responsibilities. It affects how 
effectively they work with each other, equally important it 
affects how well they work with local, State and private sector 
players.
    I would highlight three points in my written submission. 
The problem is not with the people, and clearly the testimony 
today underscored that, and interestingly enough the 
discussions during the break further emphasized that for me.
    Clearly, there is a commitment on the part of individuals 
across the Federal agencies to achieve synchronization of 
effort, but it is clear we are not achieving that as part of a 
national focus. We have no macro strategic view of how our 
intelligence and information sharing needs can and should be 
accomplished with all relevant stakeholders irrespective of the 
level or function of government. This is a government-wide 
strategic-wide issue.
    The confusion among Federal agencies filters to the State 
and local level and into the private sector. This confusion is 
not the fault of any one person, agency or branch of 
government. It comes from years of ad hoc fixes and changes to 
many individual components of the Nation's intelligence 
enterprise without having viewed them as part of a whole.
    The result is unintended, but very real patchwork approach 
that is a threat to the security of the Nation and our ability 
to move information to relevant officials at the local, State, 
Federal level.
    Second, technology, new statutes or even organizations are 
not the end-all answer to the problems we face. We need to 
commit our Nation, that is Federal State and local officials 
and certain private sector elements, to defining what 
intelligence needs to be shared and identify existing and new 
pathways to make it happen.
    In short, we need a set of business rules with supporting 
planning effort. We must then focus on clarifying everyone's 
expectations and focus on achieving improved movement of 
information and intelligence among all levels, branches, 
disciplines, functions, areas of government in key private 
sector entities.
    Third and finally, we must always preserve the democracy 
and our core civil liberties.
    Security at the expense of personal freedoms and rights 
will accomplish exactly what the 19 hijackers intended. From my 
way of thinking, for our way of thinking in Virginia and in 
parting with 49 other States, 6 territories and thousands of 
Federal officials, we cannot allow this to happen.
    I thank you for the opportunity to appear today and I will 
be happy to take your questions.
    Mr. Gibbons. Thank you very much, Mr. Foresman, for your 
enlightened comments. They are very helpful indeed.
    [The statement of Mr. Foresman follows:]

                 PREPARED STATEMENT OF GEORGE FORESMAN

    Mr. Chairman, Madame Ranking Member and Members of the Committee 
thank-you for the opportunity to appear today to discuss the issue 
homeland security related intelligence and information sharing with 
state and local officials.
    Three perspectives inform my comments today. I currently serve as a 
Cabinet-rank state homeland security official in Virginia and was a 
senior state emergency management official at the time of the September 
11, 2001 attacks and subsequent anthrax incidents. I also am completing 
my fifth year as a member of the Advisory Panel to Assess Domestic 
Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction, created by Congress in 1999 to advise this body and the 
President on strategies to improve America's preparedness for 
terrorism. Finally, I should note I am a former first responder.
    We are approaching several milestones in the next several months. 
We will soon commemorate the second anniversary of the tragic events of 
September 11, 2001 and the one-year anniversary of Congress having 
passed legislation to create the Department of Homeland Security. 
Congress has already held joint hearings to examine intelligence issues 
surrounding the attacks and the independent September 11th Commission 
is expected to deliver its final report in May of next year. I remind 
you of these to make the point that in the context of having just 
celebrated our 227th anniversary as a nation, two years is a narrow 
window in time.
    I would like to address three issues to the Committee today.
    First, has the flow of information from the federal government to 
states and communities improved since the creation of the Department of 
Homeland Security.
    Secondly is the quality of information sufficient to support the 
daily efforts of thousands of local and state officials who are on the 
front line of making our nation safe and secure.
    Finally, I want to offer some perspective as to whether we are we 
making progress.

    The great challenge we face in the post September 11th environment 
is achieving common definitions of homeland security and intelligence. 
In response to the extraordinary events of September 11th, we have 
merged entire or parts of 22 federal agencies into a single 
organization called the Department of Homeland Security. Their mission 
continues to evolve reflective of statutory language and the National 
Strategy for Homeland Security. However, there appears to be great 
ambiguity about their roles within the entire federal family, 
especially when it comes to the intelligence sharing responsibilities. 
This is evidenced in the almost daily news articles about competing 
intelligence activities within the federal government.
    Each day states and communities are confronted with a multitude of 
sources of so called intelligence information. This is information that 
may originate at the federal level from within the intelligence, 
defense, law-enforcement or other federal communities. Some methods for 
passing information to communities and states were well established 
prior to the September 11th attacks and worked well, while others are 
less than efficient. Among the cornerstone arguments articulated in 
creating the Department of Homeland Security was to provide ``one stop 
shopping'' for states, communities and the private sector.
    In my opinion we have not achieved the most fundamental agreement 
and education concerning what is ``homeland security'' or 
``intelligence''. Does the term homeland security describe our response 
to the threat of terrorism or is it something more. Today the Federal 
Emergency Management Agency is a core element in the Department of 
Homeland Security Emergency Response and Recovery Directorate. FEMA's 
role in responding to natural disasters and other emergencies is clear. 
However, is disseminating precautionary information in advance of a 
hurricane making landfall a homeland security or an emergency 
management function. Is the data they utilize from the National Weather 
Service intelligence in the context of homeland security. If so what 
``pathways'' should it follow in being disseminated to state and local 
officials. Are the pathways and business rules for moving the data 
sufficiently clear that critical information is being moved in a timely 
fashion. Today there appear to be no clear answers to these questions.
    The same challenge remains true when we discuss those things that 
tend to more accurately fit into the category of intelligence. But 
again, defining intelligence tends to be in the eye of the beholder. 
Each day law enforcement agencies at all levels of government 
investigate crimes amassing volumes of data. Is this data intelligence, 
especially when it may have tangential relationships to the threats we 
face from our enemies. If the information potentially has direct or 
indirect relationships to America's war on terrorism is there a well 
organized structure that provides for the integration, passing and 
analysis of this data by responsible local, state and federal officials 
in a comprehensive fashion. I do not believe that is the case.
    I offer both of these examples to make the point that the creation 
of the Department of Homeland Security and its intelligence 
responsibilities add yet another layer to the communication process 
between federal agencies and with states, communities, the private 
sector and citizens. This new layer, especially if it improves and 
better coordinates the flow of information and intelligence, is not the 
problem. The major obstacle that we face is adding these new 
responsibilities without first de-conflicting them with the long-
standing communication pathways between the federal government and 
states and communities. I believe we have unintentionally added 
confusion because of the ambiguity of the Department of Homeland 
Security's intelligence function as it relates to other federal 
agencies as well as state, local and private sector stakeholders.
    One would hope that among the successes we might obtain from 
lessons learned of the events of September 11th is that we must rethink 
our approach to defining the intelligence enterprise. Between elements 
of our federal intelligence, law enforcement and defense community's 
primary responsibilities for components of our ``national intelligence 
enterprise'' exist. Throughout history the Congress and Administrations 
have made adjustments to pieces and parts, usually in response to real 
and perceived shortcomings, without a seemingly comprehensive analysis 
of how these individual changes impact on the enterprise as a whole. 
The result is a patchwork approach that has created often times 
conflicting responsibilities, ambiguity and further intensified turf 
between responsible organizations at the federal level.
    Furthermore, prior to the events of September 11th, state and local 
agencies were not viewed by federal agencies as part of America's 
``national intelligence enterprise''. In the aftermath of the attacks 
leaders proclaimed the critical importance of police officers, 
firefighters, public health officials and other state and local 
officials being key to our war on terrorism. There have been great 
proclamations about the need to get critical intelligence to those who 
are on the front lines of keeping our communities and states safe. 
These same ideals have not been embraced by the rank and file staff in 
federal agencies. My experience tells me that it is not because of a 
lack of desire, but rather it again comes back to the ambiguity that 
exists within the federal intelligence enterprise as it relates to the 
role of the Department of Homeland Security and what needs to be 
communicated to local and state agencies.
    This is not a criticism of any one federal organization. Rather it 
points to the larger issue of overall federal coordination. There does 
not appear to be any overall federal vision and coherent plan across 
the entire federal government that articulates exactly what we are 
trying to accomplish in terms of information and intelligence fusion, 
analysis and sharing, especially related to the involvement of state 
and local government. My perception is that it does not appear to be 
clear within and between federal headquarters offices as well as with 
field personnel on the front lines of moving critical information and 
to us at the state and local level. In short there is no clear plan and 
direction.
    Let me be clear. These challenges at the federal level are 
replicated at the state and local level. Agencies and entire 
disciplines at the state and local level have managed the flow of 
information and intelligence for years in a manner that best suits 
their purposes. Law enforcement agencies tend to focus on ensuring the 
quality of intelligence more for the purpose of prosecution. Public 
health agencies have a focus that is on preventing the spread of 
disease and protecting patient confidentiality. Other emergency 
response agencies use information and intelligence to ensure rapid 
response to and recovery from emergencies and disasters. Each is 
legitimate within their individual context. However, when viewed as 
part of a larger enterprise these current approaches have the potential 
to create confusion and conflict.
    It is clear that state and local level government has a 
responsibility to effectively integrate information from federal 
intelligence, defense, law enforcement and other federal communities 
for its use. A single pathway is not going to work and is not 
appropriate. Whether it is the threat of terrorist groups, disease 
outbreak or even a severe storm our continuing focus is on the 
maintenance of a well-defined set of business rules at the state and 
local level that outline the pathways for moving information between 
those who will respond. We are seeking to enhance this in Virginia 
through the integration of multiple information sources into a single 
multi-agency center. But our efforts are challenged by the lack of 
clarity at the federal level among other issues.
    My impression is that the Department of Homeland Security is making 
every attempt to capture significant intelligence currently available 
at the federal level and, where needed, putting the material in a 
useable form that can be passed to local, state and private sector 
organizations. My experience tells me that they are inhibited in their 
efforts by being a new organization that is still working through 
start-up, merger and acquisition issues. Furthermore, I get the 
impression that cooperation of other federal agencies is superficial.
    But this misses the larger point of coordination. The Department of 
Homeland Security's most important function may be to bring the 
multitude of federal players together with state and local stakeholders 
are develop a comprehensive approach to defining what is meant by 
information and intelligence sharing. This must be a priority. The 
products are not the answer. A clear set of business rules for 
describing the vertical and horizontal flow of information across the 
national enterprise--local, state, federal and private sector is the 
essential first step. This has not yet to my knowledge been done. 
Technology and methods of protecting classified information can then be 
applied to meet defined objectives for rapid transfer and protection of 
critical national security data.
    When I began my state career nearly 20 years ago doing contingency 
plans for nuclear attack there was a two-page description of how 
information should flow in the aftermath of an attack, taking into 
account the three levels of government and the multitude of 
disciplines. I have not seen a similar plan today. Effectively sharing 
intelligence is less an issue of technology and more good old-fashioned 
planning and commitment.
    The flow of information must be vertical between federal 
headquarters offices, field and or regional offices, states, 
communities and the private sector and of course citizens. It is 
imperative that federal information reflects a coordinated and not 
conflicting approach, less we add to the confusion. When we evaluate 
the flow of federal information we see clear disconnects between that 
received directly from Washington headquarters and what is known by 
field personnel of the various federal agencies. In Virginia's case our 
proximity to the District of Columbia and presence of key federal 
operations necessitates a close working relationship with a wide range 
of agencies and their field personnel. It remains surprising how many 
times data is received from the Department of Homeland Security, or 
other federal headquarters functions, that is unknown to the its 
personnel in the field. This again points to an enterprise wide 
analysis and defining of who needs to get what and how.
    More is not necessarily better. Clearly the flow of information 
increased since the attacks of September 11th. With each passing day 
more information flows from federal agencies into communities and state 
agencies. But the simple flow of more information does not equate to 
better intelligence sharing. I would offer that the almost reactive 
nature of sharing information may be leading to a well intentioned push 
by federal agencies that floods state and local officials with often 
times conflicting data, or so much volume, that reasonable analysis is 
impossible. This type of visceral reactive approach often adds 
confusion rather than clarity to the efforts of state and local 
officials to meet their homeland security responsibilities. Ensuring 
the quality of information, assignment of priority for its movement and 
training and education of those who are to receive it remains critical.
    We have had mixed experiences with the quality of data received. In 
one case critical information being passed to us through the Department 
of Homeland Security was almost immediately attacked by field personnel 
from another federal agency as being ``old news'' and, therefore, 
unreliable having been over taken by events. We were then confronted 
with the challenge of validating through unofficial channels what had 
been provided to us to determine if the disagreement was based in 
``turf'' or substance. In another case, the Department of Homeland 
Security provided us information in advance of Operation Iraqi Freedom 
concerning potential security concerns on selected sites. This 
information was passed to local officials but it was clear from 
discussions with federal field personnel in the affected area that they 
had not been made aware of these same concerns. Again it posed a vexing 
question for us as to its authenticity and quality.
    Most recently, I am pleased to report, that limited knowledge was 
made available to state and local law enforcement officials concerning 
an on-going investigation with alleged terrorism related ties. This 
occurred within the context of one of our Joint Terrorism Task Forces. 
But unfortunately the information was not disseminated within the 
federal agency community and when we inquired with an official at the 
Department of Homeland Security they seemed unaware of the 
investigation. These types of events, while understandable given the 
complexity of the issue, leave significant room for doubt about the 
quality of any intelligence received.
    I would suggest it is to early to make wholesale judgments if the 
quality of information we are receiving is sufficient. Anecdotal 
evidence suggests that we have much more work to do and that we must 
place a premium on ensuring integration between disciplines, 
organizations, levels of government, the private sector. If the 
Department of Homeland Security is to be at the forefront of 
intelligence and information sharing with states and communities 
several actions will be needed.
    First they must continue their efforts to capture and move critical 
federal information and intelligence to communities and states. This 
effort must separate they inevitable general information flow and time 
sensitive intelligence into two distinct categories. Information and 
intelligence that demands immediate attention must not be sent in the 
same manner as ``good to know'' data.
    Secondly, a clear set of business rules must be established that 
defines the movement of information horizontally and vertically across 
all areas and levels of government and with appropriate private sector 
elements. Right now each agency, and in some cases elements within 
agencies, acts very much on their own and there appears to be no 
centralized authority for ensuring the development of a strategic 
approach, that takes into account existing pathways, the multitude of 
disciplines and organizations, the levels of government and the private 
sector. This must be an effort free of the day-to-day crunches of 
moving information and with sufficient authority to make it happen. 
Agencies and organizations need not give up their individual ``turf'' 
but rather all of these components must be deigned to operate in 
harmony. This effort, whether led by the Department of Homeland 
Security or other federal agency must have the active involvement of 
knowledgeable local, state and private sector stakeholders. This, I 
believe, will have profound positive impact on our national 
intelligence structure including local, state and private sector 
entities.
    Finally, we must begin to educate. There is a fine line between our 
intelligence and information sharing needs and our desires. I note with 
interest virtually every day a new technology initiative designed to 
speed and empower the movement of intelligence and information. While 
these efforts may reflect the technological opportunities of today, 
they do not always reflect a comprehensive understanding of the 
significant policy implications of how information and intelligence is 
gathered, stored and used, especially as it relates to ordinary law 
abiding Americans.
    More importantly, we find that federal agencies are operating under 
antiquated assumptions about sharing classified information with state 
and local officials. There has been only minimal progress in obtaining 
security clearances for state and local officials. We seem compelled to 
operate in an environment that seeks to empower restrictions to 
effectively sharing critical intelligence and information rather than 
promoting best practice solutions that get needed information and 
intelligence to those who must act to save lives. Our experience has 
been that when the chips are down and the crisis is at its highest 
point the information will be shared irrespective of clearances. But 
this point is too late. This approach precludes state and local 
officials from having digested the complexity of information and 
developed well-formulated response strategies. Right now the release of 
secure information and intelligence is built upon individuals rather 
than a well-defined process with auditable standards that lay a clear 
framework for sharing sensitive information. If we can quickly share 
sensitive information with our Allies then we can surely find a way to 
share it with state and local officials who are responsible for keeping 
our citizens safe and secure.
    We cannot underestimate the cultural challenges of having thousands 
of officials in differing fields change the mentality about the sharing 
of information and intelligence. But this is essential to our ultimate 
success. The most significant impediment we face in this regard again 
goes back to the lack of a clear national strategic approach, one that 
describes what information needs to be shared and pathways for 
accomplishing its movement. Virtually every official that I have spoken 
to understands that they are part of a larger need, but in an absence 
of a global understanding of the enterprise or their part in it, they 
find it difficult to adjust their thought process. If I were to point 
to a major failing to date in our national reaction to the events of 
September 11th it is that we have not taken the time and energy to 
train and educate everyone from first responders to elected officials 
about the critical importance for effectively sharing information and 
intelligence. We have chosen to think of our enterprise as thousands of 
separate organizations with a similar intelligence and information 
requirements rather than a single enterprise with thousands of 
components. Consequently, each continues to look at its own and not the 
whole.
    I need to underscore that my comments do not mean centralizing all 
responsibilities in a single agency. But there should be clarity 
regarding the coordination of information and intelligence flow and 
better methods for ensuring accountability among federal agencies that 
needed information is being appropriately shared. Core in our national 
belief is the preservation of civil liberties. One could argue that 
current vexing confusion only adds to the dangers we face. Our 
inability to produce a comprehensive set of business rules about what 
information should be shared and how, inhibits our ability for 
appropriate oversight and increases the potential that we may 
unintentionally undermine our core national values in the name of 
security. The zeal of securing our nation must not trample on the 
ideals of living as a democracy with individual rights.
    Thank you for the opportunity to appear today and I will be happy 
to address any questions you may have.

    Mr. Gibbons. And finally, we have gotten to Mr. Daniels who 
has come a long way and has waited patiently for his 
opportunity to speak and all the way from Arizona. We want to 
welcome you to Washington, D.C., and we look forward to your 
testimony. Mr. Daniels, the floor is yours.

STATEMENT OF DARIN DANIELS, PREPAREDNESS PLANNING AND TRAINING 
               MANAGER, MARICOPA COUNTY, ARIZONA

    Mr. Daniels. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I thank you for the opportunity to 
address this committee today. I share the subcommittee's 
concerns about the preparedness of public agencies charged with 
protecting the security of our Nation and our communities and 
offer my comments and insights from the local public health 
perspective.
    The most critical issue in preparedness today relates to 
the need to share information openly and on a timely basis. 
This must be done both vertically and horizontally, vertically 
between governments at the Federal, State and local level and 
horizontally across local public and private agencies. Indeed 
open and timely sharing of information is essential to the 
ability of State and local medical personnel to respond 
effectively as a principle line of defense against a disease 
outbreak, regardless of whether the outbreak is an act of 
nature or an act of terrorism.
    Unfortunately historically, this has not been the case for 
Maricopa County. Prior to the historic events of September 
11th, 2001, communications were, at best, spotty and 
uncoordinated. Thankfully that has changed for the better. Now 
with the assistance of Federal funds, Maricopa County has been 
able to build programs and manpower dedicated to surveillance 
and response to any emergency situation. At Maricopa County 
Department of Public Health, we believe the key to successful 
information sharing is trust, respect and shared goals. These 
elements are the foundation of the partnerships and cooperative 
spirit needed to ensure community preparedness.
    To that end, we have focused on developing strong 
partnerships with a wide variety of Federal, State and local 
agencies, including the fire departments of the cities of 
Phoenix, Glendale, and Mesa, local hospitals, tribal 
governments, the Arizona Department of Health Services and the 
United States Department of Health and Human Services.
    As a result of our efforts, we have achieved a high level 
of interagency cooperation. Examples of this cooperation 
include shared training and table-top and field exercises. 
Examples which were the statewide strategic national stockpile 
exercise, a full-scale chemical and biological table top 
exercise.
    This was made possible through the full cooperation of the 
four metropolitan medical response system cities in Arizona. 
These joint exercises have resulted in open lines of 
communication and more responsive decision making.
    At public health, we understand the agencies must work 
together on an organized regular basis to create and maintain 
the communication links needed to share information. The 
Federal MMRS program has enhanced the relationship-building 
process by bringing together various agencies within the region 
and fostering their cooperation in creating a sense of 
inclusiveness among our partners.
    These relationships enhance the 24-7 response capabilities 
locally by allowing leaders and decision makers to know who 
their partners are prior to any event. Public health has 
benefitted directly from Arizona's statewide communication 
system that has been developed to send information through 
secure and unsecured channels. The secured Internet-based 
communications network allows sharing of information among 
local governments and health care facilities. We have focused 
on changing the dynamics of information sharing.
    An example is the sharing of epidemiological disease 
surveillance information. During the past few months, the 
public has lived with the threat of sudden acute respiratory 
syndrome, monkey pox, West Nile virus and the potential threat 
of smallpox.
    Combatting these diseases requires an effective disease 
surveillance program and the sharing of the results through all 
vertical and horizontal channels.
    The electronic disease surveillance system being developed 
in cooperation with the State and CDC will be integrated into 
the statewide health alert network system. This system relies 
on the cooperation of agencies at State and local level, 
including county public health departments, hospitals and 
infection control practitioners.
    When this system is fully operational, surveillance data 
will be collected from these multiple sources, permitting early 
identification of potential public health threats and 
coordination of an effective response for disease control.
    In conclusion, Maricopa County Department of Public Health 
is committed to building and maintaining the partnerships and 
the vertical and horizontal communication links needed to 
ensure open and timely sharing of information. The funds we 
have received from the Centers for Disease Control and 
Prevention through the State of Arizona have improved 
communications. More importantly, the funding has allowed us to 
rebuild an infrastructure that has been allowed to deteriorate 
and to respond more effectively to public health emergencies.
    Mr. Chairman, this completes my prepared statement. I thank 
you for the privilege of addressing the subcommittee, and would 
be happy to respond at this time to any questions you or any 
other members have.
    Mr. Gibbons. Mr. Daniels, thank you very much for your 
testimony as well. Bringing in a perspective from your point of 
view is just critically important for how this committee learns 
more and understands more about information sharing.
    [The statement of Mr. Daniels follows:]

                  PREPARED STATEMENT OF DARIN DANIELS

    Mr. Chairman and Members of the Subcommittee:
    It is an honor and a privilege to address this Subcommittee. My 
name is Darin Daniels. I am the Preparedness Planning and Training 
Manager for the BioDefense Preparedness and Response Division of the 
Maricopa County Department of Public Health, in Phoenix, Arizona. I 
share your concerns about the preparedness of public agencies charged 
with protecting the security of our communities and our nation and 
offer my comments and insight on this matter from the local public 
health perspective.
    The most critical issue in preparedness today relates to the need 
to share information openly and on a timely basis. This must be done 
vertically and horizontally--vertically between governments at the 
federal, state, and local level and horizontally across local public 
and private agencies. Indeed, open and timely sharing of information is 
essential to the ability of state and local medical personnel to 
respond effectively as a principal line of defense against a disease 
outbreak, regardless of whether the outbreak is an act of nature or an 
act of terrorism.
    The state of Arizona has 5.6 million people, most of whom reside in 
either Maricopa or Pima County. Maricopa County, located in the central 
part of the state, has 3.3 million people or about 60 percent of the 
state's population. The majority of the county lives in the Phoenix 
metropolitan area which is the state's population, economic, and 
political center. Pima County, located in the southern part of the 
state, has about 1 million people, the majority living in the Tucson 
metropolitan area.
    Arizona has the distinction of having four cities that are part of 
the Metropolitan Medical Response System (MMRS), which was created in 
1996. These cities are Mesa, Glendale, Phoenix, and Tucson. Maricopa 
County Department of Public Health, which established its BioDefense 
Preparedness and Response Division one year ago, is active partner with 
these MMRS cities and other public and private agencies in building a 
high quality emergency medical response system.
    Unfortunately, however, partnerships and good communication have 
not always been the case in Maricopa County. Prior to the historic 
events of September 11, 2001, communications were at best spotty and 
uncoordinated. An incident occurred in late 1997 that demonstrates this 
point. An aircraft returning from Mexico arrived at Sky Harbor Airport 
with 28 very sick passengers. The airport emergency medical staff 
responded properly, and all the ill passengers were triaged and 
transported to local hospitals. There was a large failure in 
communications as no call was placed to Public Health. Without 
notifying Public Health and properly screening passengers on that 
flight, a very infectious and contagious disease could have been 
transmitted to the next city by that aircraft and its unknowing 
passengers. Thankfully, that has changed for the better. Now, with the 
assistance of federal funds, Maricopa County has been able to build 
programs and manpower dedicated to surveillance and response to any 
emergency situation.
    At Maricopa County Department of Public Health, we believe 
information sharing--vertically between governments and horizontally 
across local public and private agencies--requires three things:
<bullet> Trust that information will be shared appropriately and 
without impediments;
<bullet> Mutual respect between individuals and the organizations they 
represent; and
<bullet> Shared commitment to the goals of preparedness and protecting 
the public.
    These three elements are the foundation of the partnerships and 
cooperative spirit needed to ensure community preparedness. To that 
end, we have focused on building and maintaining strong partnerships 
with a wide variety of federal, state, and local agencies--including 
the fire departments of the cities of Mesa, Glendale, and Phoenix, 
local hospitals, tribal governments, Arizona Department of Health 
Services, and the U.S. Department of Health and Human Services.
    As a result of our efforts, we have achieved a high level of 
interagency cooperation, reinforcing the fundamental concepts of 
emergency response and incident and consequence management. Examples of 
cooperation include shared training, tabletop drills, and field 
exercises; these are illustrated by the following:
<bullet> Joint incident management systems training is provided 
regularly to Maricopa County Department of Public Health, MMRS cities, 
law enforcement, fire departments, emergency medical response, 
emergency management, hospitals, and public schools. Since many 
agencies function as secondary responders, the MMRS cities have brought 
valuable information to the table, expanding the understanding of the 
secondary responder agencies.
<bullet> A statewide Strategic National Stockpile exercise was held in 
November 2002. This event incorporated training, tabletop drills, and 
field activities and provided an opportunity for the different levels 
of government to interact and coordinate vertically and horizontally. 
The exercise involved the state's two largest counties (Maricopa and 
Pima), and included Maricopa County Department of Public Health, Pima 
County Health Department, Arizona Department of Health Services, 
Arizona Department of Emergency Management, the Tucson MMRS, the Mesa 
MMRS, the Mesa public school system, the Red Cross, and other private 
and volunteer agencies. This exercise provided the participating 
agencies with a hands-on experience in a real-time multi-agency 
emergency response situation.
<bullet> The city of Glendale sponsored a full-scale chemical exercise 
to replicate the interagency response capabilities that would be needed 
in the event of a deliberate release of sarin with an explosive device. 
Communication between the hospitals and the Department of Public Health 
was evident at the outset of the exercise; information sharing from the 
infection control practitioners and the Department of Public Health 
reinforced the routine communications that occur regularly.
<bullet> The city of Glendale also sponsored a biological tabletop 
drill with the Maricopa County Department of Public Health to test 
leadership actions and the responses to the decision-making process. . 
The benefits of this joint exercise were opened lines of communication 
and more responsive decision-making.
    With all exercises, we learned many lessons and our systems were 
tested on many levels. The most important lesson learned from these 
exercises is that some agencies communicated well with one another, but 
others did not--either they did not receive needed information or did 
not know where to send it. As a result, Maricopa County Department of 
Public Health and its partner agencies now have a better understanding 
of the role of various agencies in incident management and what 
information must be communicated. This understanding is key to the 
information sharing and relationship building that is now on-going in 
Maricopa County and throughout the state.
    Maricopa County Department of Public health has also benefited 
directly from Arizona's statewide redundant communication system that 
has been developed to send information through secure and unsecured 
channels. The secured Internet-based communications network, developed 
by Arizona Department of Health Services as part of the Health Alert 
Network, enhances the notification and information sharing process used 
by local agencies and healthcare facilities. This system will provide 
security, secure messaging, a public health directory, and some data 
translation while serving as the gateway for a statewide system with 
direct access by local health departments. In addition, the MMRS 
notification network is a system that provides immediate notification 
of events to the necessary agencies at a moment's notice. This system 
has the capability to provide critical information and directives for a 
collaborative and coordinated response regardless of the event.
    The technical side of communication would not be effective without 
a strong connection between the users of the system, and the federal 
MMRS program has enhanced that connection. Advisory committees, 
subcommittees, task forces, and planning groups have served to build a 
response network and good relationships among public and private 
agencies by creating a sense of inclusiveness. These networks enhance 
the local 24/7 response capabilities by allowing leaders and decision-
makers to know who their partners are prior to an event. These systems, 
alone or combined, allow for the exchange of information vertically and 
horizontally.
    In partnership with the state, we have worked aggressively to 
change the dynamics of information sharing, based in part on a new 
understanding and respect for roles and responsibilities. An example is 
the sharing of epidemiological disease surveillance information.. 
Epidemiological investigations and disease surveillance conducted by 
the Maricopa County Department of Public Health have only recently 
received the attention they deserve. A prior lack of understanding of 
the critical nature of this work resulted in diminished resources and 
reduced capacity within the public health system. As the role of 
surveillance has become better understood, public and private agencies 
have better acknowledged how this everyday function protects the public 
from the silent invasion of diseases. This is evidenced in new support 
for epidemiology and surveillance.
    Recent events have shown the importance of open and timely 
information sharing between agencies. During the past few months, the 
public has lived with the threat of Sudden Acute Respiratory Syndrome 
(SARS), monkeypox, West Nile virus, and the potential threat of 
smallpox. Combating these diseases requires an effective disease 
surveillance program and the sharing of results through vertical and 
horizontal channels. The electronic disease surveillance system being 
developed in cooperation with the state and CDC will be integrated into 
the statewide Health Alert Network system. This system relies on the 
cooperation of agencies at the state and local level, including county 
public health departments, hospitals, and infection control 
practitioners. When this system is fully operational, surveillance data 
will be collected from these multiple sources permitting early 
identification of potential public health threats and coordination of 
an effective response for disease control.
    In conclusion, preparedness for a terrorism event requires solid 
partnerships and open, timely communication. Maricopa County Department 
of Public Health is committed to building and maintaining the 
communication links needed vertically between federal, state, and local 
government and horizontally across public and private agencies. The 
funds we have received from the Centers for Disease Control and 
Prevention through the state of Arizona have improved communications. 
More importantly, the funding has allowed us to rebuild an 
infrastructure that had been allowed to deteriorate and to respond more 
effectively to public health emergencies.

    Mr. Gibbons. What I am going to do now is turn to the 
members of the committee for 5 minutes each for questioning and 
I will do so in the order of their arrival with one exception. 
I am going to turn now to the chairman of the full committee 
and yield my 5 minutes to Chairman Cox so that he may have the 
first round of questioning. Mr. Cox.
    Mr. Cox. Thank you very much, Mr. Chairman. Welcome again 
to our witnesses. Thank you very much for your participation on 
this panel. Mr. Parrish, thank you again for coming twice this 
week. I would like to begin with Mr. Foresman and Mr. Daniels, 
because I think you might be able to help us with questions we 
have about how the Washington system is working in 
disseminating information. When you get threat information, 
this question is for both of you, for example, concerning 
change in the threat level, where exactly does that come from 
in each of your cases?
    Mr. Foresman. Mr. Cox, I would like to be able to say that 
it has been the same every time it has happened, but even as 
recently as in the last 24 hours we had yet a new process which 
was used to communicate information to us. Typically we find 
our best notification coming directly through the Department of 
Homeland Security into the Governor's office into the Homeland 
Security function.
    Mr. Cox. How does that work? Who is contacting you from--.
    Mr. Foresman. Typically what is happening is the watch 
center is making notification to us of a conference call in the 
case of something that is a nationwide alert and we are doing 
it in conference call fashion. In the case of specific 
intelligence relating to the Commonwealth of Virginia we 
typically will receive a call from the Secret Service and they 
will then be the relayer of critical intelligence from the 
Department of Homeland Security to our office which creates a 
little bit of a conundrum because frequently we get that 
information prior to the Joint Terrorism Task Forces having it 
over at the FBI.
    Mr. Cox. Do you have any contact with the Under Secretary 
for Information Analysis, or with the Directorate for 
Information Analysis and Infrastructure Protection?
    Mr. Foresman. No, sir. Typically the direct relationship 
has been through the Office of State and Local Coordination up 
to this point.
    Mr. Cox. Okay. Mr. Daniels.
    Mr. Daniels. Mr. Cox, the information that we receive in 
Maricopa County comes directly from the Arizona Department of 
Health Services and we actually have a very good relationship 
with our State partners as well as our local Federal 
representatives.
    Mr. Cox. So you don't have any contact directly with the 
Federal Government when it comes to threat advisories?
    Mr. Daniels. We have limited contact with the Federal 
Government.
    Mr. Cox. I ask these questions because the Homeland 
Security Act gives the Department of Homeland Security Under 
Secretary for IAIP primary responsibility for public advisories 
related to threats to homeland security, and it requires that 
he provide specific warning information and advice to State and 
local government agencies and authorities as well as the 
private sector and the public. And, Mr. Parrish, I wonder if 
you could explain why that isn't happening exactly that way.
    Mr. Parrish. Sir, if I may, let me just explain a little 
bit about the organizational structure. Certainly the State and 
local advisor to the Secretary is a separate position. Within 
the Operation Center of Homeland Security there is a desk which 
is part of the operation center that is titled State and Local. 
The operations center belongs to the Under Secretary for 
Information Analysis and Infrastructure Protection. The 
message, the report, the information that is received by the 
Commonwealth of Virginia is coming from the operation center in 
the form of a document that is prepared in the Information 
Analysis and Infrastructure Protection Directorate, so I think 
it is a little bit of just an organizational understanding of 
how the process works.
    Mr. Cox. I want to jump to something that is very topical. 
It is in the news today. I am not going to rely on this open 
hearing for purpose of the questioning on an Associated Press 
and New York Times account of the 9/11 report that you are all 
aware is now released. One of the things we have learned in 
this report is that NSA intercepts that were in hindsight 
relevant to what happened on September 11 were not translated, 
not only were they not disseminated but they weren't 
translated, and I wonder, Mr. Lago, if you can address that 
question. I know you are not here to represent NSA. But this is 
not the first time this has been a problem. In another capacity 
at another select committee chairmanship I ran into this 
problem of untranslated intercepts that were materially 
relevant to things that we cared about, and part of it was we 
didn't have the trained linguists, we didn't have the 
translators. Is this still a problem?
    Mr. Lago. Sir, there is always going to be a problem for 
that skill set. There is a finite number of people who can 
perform that service and there is a large body of us trying to 
go after these individuals. We have a number of programs in 
place. We are better than we were then. To get into more detail 
we would have to take this for the record and get back to you 
in another session, and we would be happy to do that.
    Mr. Cox. And let's quickly switch to dissemination. This 
stark example that for that reason made the news was an 
illustration of both failure to translate and failure to 
disseminate. But let's assume that it had been translated and 
now the only remaining problem is that we didn't disseminate 
it, and that of course is one of the reasons we formed the 
Homeland Security Department. We want to make sure that we have 
shared all of this information. At CIA, at FBI, how far along 
are we to building IT systems that will permit the Department 
of Homeland Security to have access to what you have got and 
how much are we reliant today still on people flagging 
information that DHS might be interested in? We have a 
statutory system that contemplates that it is all shared. We 
have real life and we are getting there in real life, but how 
far along are we?
    Mr. Lago. Yes, sir. First of all, if it wasn't translated 
it would not be disseminated. I mean that is just a given.
    Mr. Cox. I didn't ask that question but I am not sure that 
needs to be the case. We have a lot of resources in the Federal 
Government and, you know, to the extent that for years now, and 
at least in my oversight experience it has been years, we keep 
bumping into the same problem. I wouldn't want to foreclose an 
agency giving up ownership of something that it doesn't have 
the resources to translate. But that is not the question I 
asked you.
    Mr. Lago. Yes, sir. We have developed a couple of parallel 
processes to share information with the Department of Homeland 
Security. One, if you will, is a push process where the 
information is in mass pushed over to the Department and they 
hold their hands out with a system try to catch it and put it 
in the proper bins. The second, which is probably going to be 
more beneficial in the long run, is the pull capability where 
the analysts and the Department can pull the information. We 
have given--we are giving analysts in Homeland Security access 
to CIA source, a database that they can pull from. They have 
the same user profile capability as the CIA analysts and they 
can go in and pull information, it is a more manageable 
process. They are both up and running as we are defining the 
profiles and we are providing the clearances for the analysts. 
They will have the same access that the CIA analysts have who 
work in the Directorate of Intelligence.
    Mr. Cox. Mr. McCraw.
    Mr. McCraw. Yes, sir. From--I can't give you the exact date 
when Trilogy will be fully implemented, because I am new on the 
design, and one of the exciting things about the design is the 
investigative data warehouse of XML tagging of data, and the 
normalization of data. We can actually take all the information 
that is legally allowable and, with the protocols that Mr. Lago 
pointed out, push that information not just to the CIA, but 
also the Department of Homeland, because sometimes they don't 
know what information it is that they want, but actually 
provide them investigative data, investigative reports, 302s, 
things that can go back, all of that stuff we are allowed to 
and push it to it. Moreover, you know, often it is the FISA 
take or it is the stuff that has been translated and sometimes 
not been translated and be able to get multi-media and to be 
able to allow, you know, them access to that as well is also 
part of the Trilogy buildout, and of course it is exciting for 
anybody that has been in the FBI as long as I have and having 
to do without and to be able to have that capability and then 
maximize, to actually pushing information, giving information 
out is also exciting because it certainly does--what we are 
moving to is a more customer concentric type of model where we 
are actually, you know, putting performance metrics on how well 
we are doing and pushing information out.
    Mr. Cox. I thank you, Mr. Chairman. These are important 
questions, but as much as I would like to pursue them beyond 
the time allotted I think I should yield in favor of the other 
members and seek possible questions on a second round. I think 
that is as long as I can talk before getting the chairman's 
attention.
    Mr. Gibbons. Thank you very much, Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman.
    Mr. Gibbons. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and, gentlemen, I 
want to thank you for being here today for your testimony. If I 
could, I would like to start with Mr. Parrish.
    And just so you know, one of my very first meetings with 
Secretary Ridge I had the opportunity to introduce him to a 
regional information sharing network that is used in Rhode 
Island and surrounding States known as RISSNET, and it is 
ostensibly a tool that law enforcement uses to securely share 
information about criminal activity. Information that is going 
to be on RISSNET doesn't rise to the level of the information 
that would be on, for example, BCI or NCIC records, but it 
ostensibly is an intelligence sharing network among law 
enforcement. And I provided the Secretary with a pretty 
detailed memo on what the system is, and I also provided a copy 
to Chairman Gibbons and I note that he has had an opportunity 
to review it.
    I guess if I could, Mr. Parrish, I would just ask you, I 
would like to know--actually I do know that you briefly 
mentioned the RISSNET system during Tuesday's hearing in 
response to a question from Mr. Etheridge about the 
Department's efforts to provide information to and gather 
information from State and local first responders, and I have 
to say that I am a very big fan of RISSNET and I am excited 
about the demonstration project that is going on between 
RISSNET and the Department of Homeland Security. And I guess if 
you could provide my colleagues with a description as you 
understand RISSNET to be and the ways in which DHS is working 
with the network, I would be interested to hear about what has 
been learned from the partnership thus far because I believe 
that RISSNET could be an excellent model for regional 
cooperation across the country. And I would just like to hear 
your thoughts on that.
    Mr. Parrish. Congressman, I am indebted to you then for 
bringing that to the Secretary's attention. I think the RISKNET 
program does offer a capability that we are excited about in 
the pilot program. In April of this year the Global 
Intelligence Working Group met here in Virginia, in Alexandria 
I believe, and my predecessor Paul Redmond spoke to that group. 
That is comprised of numerous organizations throughout the law 
enforcement community, International Association of Chiefs of 
Police, Sheriffs Association, major city police chiefs, a wide 
audience of the law enforcement community across the country. 
One of the things we discussed in that, I should say that Paul 
Redmond discussed along with the FBIs in attendance was the 
RISSNET program, and as we got into that, looking at could we 
develop a pilot program that might enhance the information both 
from the Department of Homeland Security as well as getting the 
information back, as Mr. Kallstrom said earlier, the listening 
posts, the eyes and the ears that are out there 24/7 across 
this great country.
    So we have a pilot program beginning and we are going to 
start with--any time you do a pilot we want to start a little 
small and not get too large. But essentially we are going to 
connect with the nuclear power facilities in six States. What 
we will get from that then is a potential surveillance 
operation that may come in and, as you indicated, RISSNET 
provides--it is not a classified system but it is a secure 
Internet program. It also has a great backbone that we look 
upon possibly building a Web-based site which would be password 
protected of which now IAIP could then put out its daily 
intelligence bulletin that would go across the country to all 
of its subscribers. I think the significance about RISSNET is 
that it reaches out in addition to your major metropolitan 
areas, but more critically to your small rural areas, areas 
that sometimes are overlooked when we get into some of these 
big programs. So your small police departments that may not be 
on a system would be able to get this critical information.
    So again, sir, we appreciate you bringing that to our 
attention and we look forward to this pilot program. We hope to 
turn a switch August 15. I am not big on long, elaborated 
tests. I want to see quick results and then let's move on with 
this and hoping we will have that program, the pilot over with 
by the first of October, to press on. And again, sir, we thank 
you for your bringing that to our attention.
    Mr. Langevin. Thank you. I appreciate your comments and I 
look forward to monitoring the program to see how it 
progresses. I know that our first responders across the country 
are hungry, are anxious to be as connected with the Department 
of Homeland Security and both share and receive as much 
information as possible, and it is obviously going to be 
critical to the success of the Department of Homeland Security 
and ultimately our ability to protect the country from 
terrorists. So thank you for the work that you are doing and I 
look forward to working with you.
    Mr. Parrish. Thank you, sir. We will certainly get back to 
you and keep you informed on the pilot program.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you, Mr. Langevin. Turn now to Mr. 
Sweeney of New York.
    Mr. Sweeney. Thank you, Mr. Chairman, and let me note that 
Mr. Kallstrom is staying here for as long as he can, running 
the risk of not being able to get back home because of flight 
pattern problems. Jim, if you need a place to stay tonight you 
are always welcome at my place. And I will get the questions to 
you as quickly as I can.
    We have had a lot of discussion, in particular leading up 
to this hearing, about the horizontal system. It is a great 
challenge. I salute you folks for all of your work. It is what 
the President talked about when he talked about the need for 
America to remain vigilant, and I think some of the work that 
you have done is the best example of the successes we have had. 
I want to talk a little bit more about the vertical system, and 
therefore I will start with my friend Mr. Kallstrom. And as it 
relates to your idea about the Northeast Regional Consortium, 
it sounds to me to be a very solid proposition that offers us 
great opportunity on this dual track to really try to expedite 
the kind of dissemination and a two-way process. I am wondering 
if you have ever asked Secretary Ridge to obtain DOD authority 
to let individuals who have DOD clearances use them once a 
State has given individuals a formal need to know authorization 
for the purposes of homeland and maybe just very quickly tell 
us what the status--what the response you are getting from DHS 
on the idea.
    Mr. Kallstrom. Well, yes, sir, we have. First off let me 
say our number one priority is the same as everyone else here, 
and that is to stop the next event. Clearly it is important to 
clean it up if it happens. And that has to all happen. But I 
believe that we could, together, have a much higher percentage 
of chance of stopping the next event. We have worked greatly 
with Governor Ridge when he was the adviser to the President 
and now that he is the Security Secretary. I can't--we have had 
hundreds of meetings on this issue. He has been very 
supportive. But like this big aircraft carrier we are trying to 
turn around in this country, now that we are all pretty much 
awake as to what we have to do, it is going to take some time. 
We have got a lot of this put together. What hasn't been put 
together in fact, the recess you took to vote I think was 
incredibly important, because we solved about 90 percent of our 
problems right here while you were voting, at least at his 
level.
    Mr. Sweeney. We might keep you here a little longer.
    Mr. Kallstrom. But there has been great cooperation. The 
Department has only been stood up for what, two or 3 months or 
whatever it is. So I think now we are in the position to 
connect the pipes to the States in the test bed or in a 
regional or however we want to do it. I can tell you the cops 
are ready to play a role, and a focused role, a role that is 
sensitive to our privacy, the privacy that we fight and die for 
in this country. But they are ready to play an important role 
and we have the hooks and the wires hooked up in New York State 
to do that. And what we really need to do now is have that pipe 
and have that ability to pick up the phone and talk to people 
that are in the know about actions that we are seeing in front 
of our eyes and some training that we can give. And I think, 
you know, in the next few months if we can put this together we 
will add another whole layer of protection for our society.
    Mr. Sweeney. Is there interest among the other States? Has 
there been an exchange of ideas among States?
    Mr. Kallstrom. Well, the 10-State consortium is just 
totally, totally interested in doing this. We sent a letter to 
Governor Ridge signed by all 10 States, and I would guess if we 
talked to 50 States, the 50 States would all be interested in 
having, you know, a better hookup, a better arrangement so that 
we can vet and train and be better eyes and ears.
    Mr. Sweeney. Mr. Foresman, I was interested in something 
you said just a second ago that typically primarily that the 
information on threats comes from DHS and that was actually 
good news, I think, for those of us here. And I am wondering, 
Mr. Parrish, Mr. Lago and Mr. McCraw, and maybe Mr. McCraw the 
most, by virtue of sort of the interaction with general law 
enforcement and such, have you developed similar kinds of 
models, or are you in the process of developing models that, 
you know, relate to that issue of the vertical transference and 
I am interested in your response and your thoughts on the 
Northeast Consortium.
    Mr. McCraw. Well, first of all, my thoughts. I think it is 
outstanding. In fact the more of groups that set up 
intelligence components in those types of arrangements, 
fantastic. The Bureau's job has been strictly to address local 
and State law enforcement and feed them intelligence and we 
have done it in a number of ways. We are not satisfied that we 
have met our obligation to provide them the type of information 
that they need to do their jobs, and we have got a number of 
initiatives that I detailed in my testimony. But I am convinced 
that when we take this as the whole and look at it from an 
integrated standpoint it will do the job.
    Now we have to, you know, we have to make it--you know 
obviously not treat it as just a by-product of what we do, but 
actually make it a core function and have performance metrics 
and talk to the customer and treat, you know, individuals like 
Mr. Kallstrom and treat others that are involved in the State 
and local law enforcement as customers, whether it is a 
briefing program, whether we are pushing information, whether 
it is LEO, whether it is RiskNet, which finally surprisingly we 
have actually for good government's sake combined or provided 
connectivity between LEO and RiskNet so that customer on 
RiskNet has access to the same information, and I can assure 
you in week seven of our concept of operations it will become 
an enterprisewide activity.
    Mr. Sweeney. Let me thank you. I have to go preside over 
the House. Let me say I am glad we were productive, at least 
bringing you together. I look toward to working with each of 
you and all of you and I thank you for your service. I thank 
the chairman.
    Mr. Gibbons. Thank you, Mr. Sweeney. And Ms. Lowey.
    Mrs. Lowey. I am delighted to welcome the panel, and I 
guess Mr. Kallstrom is the man of the hour. We are two New 
Yorkers here today and thank you so much for appearing before 
us. And I apologize, we are all running from one hearing to 
another. But I would like to pick up on where our Chair Chris 
Cox left off and I think because I have 5 minutes, and I know 
you are a quick study, I am going to just go through a series 
of questions and then if you can respond to the whole issue I 
would be most appreciative, Jim. That would be great.
    One of the questions was, number one, who provides you with 
information about terrorist threats? The Department of Homeland 
Security, the FBI, another agency? And if you receive the 
information from both, can you determine what types of 
information are being channeled through DHS or the FBI? And is 
it a problem to receive--I don't want you to take notes, but I 
think you can kind of get it as I am going down. Is it a 
problem to receive terrorism information from the Federal 
Government through more than one channel?
    Following up on that--.
    Mr. Kallstrom. No, it is not.
    Mrs. Lowey. Then we can go back to the other, and if you 
can compare as you are talking about this. Can you compare the 
status of information sharing prior to the passage of the 
Homeland Security Act to the present situation? Has anything 
changed? Do you have a sense that the information you receive 
from the Federal Government is coordinated? Do you ever receive 
conflicting information from different Federal agencies? If you 
care to provide some examples, you certainly can. And how do 
you do deal with it, and has the Information Analysis Office 
ever contacted you to coordinate training for your employees 
regarding information sharing? Has another Federal agency 
provided such training?
    Maybe I will stop at that point. You get what I am trying 
to say.
    Mr. Kallstrom. We work a lot together so>
    Mrs. Lowey. Well, I appreciate it.
    Mr. Kallstrom. We love getting information from multiple 
sources. We would like it by the wheelbarrow full. I have to 
congratulate the Federal Government and maybe it is a function 
of the fact that I spent my whole life in the FBI and have 
personal relationships and have maintained a security 
clearance. But the CIA, for instance, has been incredibly 
responsive.
    George Tenet sent someone to New York--maybe I shouldn't 
say that--but for the sole purpose of sharing information with 
us, and it couldn't be better.
    Mrs. Lowey. On a regular basis?
    Mr. Kallstrom. On a regular basis. Of course it doesn't 
solve the bigger problem, but the cooperation has been great. 
The people trying to, you know, hook up the wires in a system 
that isn't quite organized yet the way it needs to be. Everyone 
is interested in doing that. The three FBI task forces in New 
York State have been great in sharing information about their 
investigations although they don't have, in my view, the bigger 
picture that they need. So we have had those great 
relationships. What I--and Homeland Security has been great. I 
mean since they have been stood up, since Bill Parrish has been 
over there, Frank Libutti is a 20-year friend of mine back from 
the Marine Corps, we talk almost every day. And we talk about 
the issues, the priorities that were faced. So I think the 
intent, the human heart throb intent emotion to fix this thing 
is there. What we have to do now with the help of Congress is 
figure out a way of more systematically and routinely and real 
time--I mean, yes, there is a need to go to a Web site and look 
at stuff and that is all part of training. But I need a cop on 
the Taconic Parkway tonight that has got a car pulled over with 
a potential terrorist in it. We don't know. But for whatever 
reason his suspicion has been raised as we trained him to be a 
more observant person. I want that person to call a center in 
New York State, or if he is in Boston to call a center, you 
know, in Massachusetts or whatever State, and to put that 
information into the center which is connected to Washington, 
all these guys and others that aren't here, and get some real 
information in the center about the, you know, how important it 
is that we have this guy on the side of the road. Do we let him 
go, do we bring him in, do we do something else because of the 
information that we have so we can make better decisions. And 
then the flip side of that is in New York State we have got 
75,000 cops, and you know a lot of them. They talk to you all 
the time in Westchester.
    Mrs. Lowey. I was going to let you finish the sentence 
because if you could expand on that, because I hear that over 
and over again.
    Mr. Kallstrom. Right. And there is about less than 1 
percent of them that are part of the three terrorist task 
forces and that is through no fault--I mean that's the amount 
of local police, State police, local police we have on the task 
forces. I ran the one in New York City for 4 years, and it is a 
very effective, it is a fabulous thing to do. The problem is 
the other 74,750 that are on the streets were not effectively 
using their eyes and ears.
    So we need to train them. We need to enable them. We need a 
system so we can communicate, you know, right from the street 
down to Washington and from Washington back again in the 
counterterrorism business only. You know we are not looking to 
make cops a new band of intelligence gatherers at political 
events or any of that stuff. I am talking about countering 
terrorism. And we can do this. They are ready to do it. In New 
York State we have hooked up all the cops. We have secure 
communications with every police chief, every sheriff in the 
State, and so we are ready. We have got the pipe. And now we 
want Washington to organize themselves so we can talk to them 
and, yes, we need archived information. Yes, we need stuff that 
we can go to Web sites and find stuff. But we also need to pick 
up the phone and talk to someone that has access to all this 
information so we can make better decisions.
    I see the State center as being sort of a tangent to 
Washington, sort of their guys in the State that are trained, 
have the right security clearances, understand the 
sensitivities of this information, understand the legal rules 
of how we store information, how it is retrievable and we can 
let cops without top secret clearances, without secret 
clearances communicate with us with real time information. And 
guess what? We can all be safer because we have got 700,000 
more pairs of eyes and ears out there that are being more 
effective to protect us against the next act.
    So, you know, I don't know if I answered your question.
    Mrs. Lowey. You sure did, Jim.
    Mr. Kallstrom. But that is what we are trying to do.
    Mrs. Lowey. You sure did. And rather than my going through 
more questions I really want to pursue that for a minute, 
because you know I have been meeting with the police, the 
firefighters, everybody. Now, I heard that a year ago. I heard 
it 6 months ago. I am hearing it now. We just appropriated on 
our committee, on which Sweeney and I--well, we all, many of us 
serve, $39 billion for Homeland Security. The gentleman--I 
forgot his name--who appeared before us was telling me on the 
interoperability issue, which is a little different from the 
issue you are presenting, that they are going out with an RFP 
within a year. We will get the equipment so everyone can talk 
to each other. And I said great. Are you going to have a 
buyback program because my guys aren't waiting for you to go 
out with the RFP 6 months from now, a year from now. You will 
get back the information. How--.
    Mr. Kallstrom. Just give us some secure phones.
    Mrs. Lowey. Well, how can we be of help to, I mean, the 
problem--you and I have talked. This is an issue we have been 
hearing a long time. Charlie Cole in Yonkers is still 
complaining about this. How can we help you?
    Mr. Kallstrom. Congresswoman, I think we are on the verge 
of making this happen. I think, you know, the Homeland Security 
Act I think that the House Intelligence Appropriations Act of 
2004, with some work, it needs a little bit of work, is a good 
vehicle for authorizing this type of exchange if we need 
authorization. I don't see any legal impediments to doing this. 
I just think we need to get everyone down here to hook this 
thing up. And if we start off at, you know, if our engine can 
go 10,000 RPM and we start off at 2000 RPM, that is okay. We 
can make this thing work and we can develop it along the way. 
And I think we are ready to go. I really do.
    Now, are all the States, have they done what New York state 
has? I don't know. But I mean we are willing in our 10-State 
consortium--I don't know if you were here when I talked about 
that. We got all the New England States and New Jersey, 
Pennsylvania, Delaware and New York, that have formed a group 
just to share information. They are ready to go and they are 
ready to use a regional center for this very reason. So I think 
this is not that hard to do. I think we just have to get 
everybody in the same room and do it.
    Mrs. Lowey. I am probably out of time, but I just--I see 
the red light. I just wanted to thank you very much and thank 
you all and hope with the efforts of all you good people you 
can push us and help us move this forward so a year from now we 
are not still talking about how we can get it through.
    Mr. Kallstrom. Yeah, and money would be helpful at some 
point.
    Mr. Gibbons. Thank you very much, Ms. Lowey.
    Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. Like I started out in 
the opening statement, I am glad to be here today because I 
have been wearing many hats over there the last couple of years 
in Florida. We followed New York as relates to passing Homeland 
Security legislation in the legislature there. Also, in my past 
I have been a first responder, and now I have had an 
opportunity to serve with these very fine men and women in the 
Congress. I have been in a lot of circles where folks are 
saying that they are sharing information and we are all getting 
along and we are all hugging and carrying on and saying good 
things about one another.
    But I think, like I said at the beginning, of some of the 
events that have recently taken place in the area of 
intelligence. Is it good or is it bad? Who is sharing it with 
what and who said what? I watched Director Tenet's body taken 
from the Senate intelligence chairman over in the Senate, 
thrown from the train as it relates to who gave what bad. 
Neither here or there, no one will ever know the prevention 
that all of you provide every day of being able to seek and 
find out and inform law enforcement agencies on what they need 
to know as it relates to potential terrorists in this country. 
But also I want to direct my question towards the fact that 
what are we doing as it relates to individuals, especially as 
it relates to State and local law enforcement and even the FBI 
who--what I may call home grown terrorists those individuals 
that are in the heartland and in Miami and in Chicago and these 
individuals that prey upon us not being prepared? I don't know 
how they play into this bigger role. Many Americans feel that 
our counterterrorism efforts are targeted towards individuals 
from the Middle East or targeted from individuals that may be 
from a country or a state outside of our homeland here that may 
bring about a threat to our country. And I think that it is 
important because when it comes down to homeland security, 
unfortunately, and folks from New York here, I want to 
apologize for the events that took place in the city yesterday, 
but automatically the thought that it was a terrorist attack. 
So I want to find out how does that play into the role of some 
of you that are sitting at the table, number one. Number two, 
as it relates to the front line guy or gal that is in the 
patrol car like the Oklahoma situation, it was an officer 
pulling an individual over. How are they getting that 
information because I guarantee you this committee room may not 
be full today, but let something happen and someone knew 
something and someone else didn't know it, and I guarantee you 
could get members who don't even serve on this committee trying 
to get into this room because they are looking at who is going 
to be at the lynching at high noon the next day because they 
don't want the burden to be on them.
    So I am saying a lot, but I want to make sure that we are 
actually talking. I take some comfort in the fact that y'all 
were able to complete some business while we were on the floor 
voting, but I want to know outside, and the people that serve 
under you, is there real communications, you feel comfortable 
with those communications? Because I don't believe that is 
something that we can legislate, to be honest with you. We can 
try, but I don't believe that is something that we can 
legislate. Historically in law enforcement or any sense of 
power or even here in the Congress, there is some information 
that even we don't share with one another, but in this case it 
is imperative.
    Mr. Parrish. Let me if I could just open up because in your 
opening remarks you made a very relevant and germane statement 
when you said that the information that is provided to the 
State and local authorities must be relevant. One of the things 
that we do in the Information Analysis Directorate is we take 
in volumes of intelligence at the very sensitive level. In 
reviewing that with our counterparts at the CIA, at the 
Terrorist Threat Interrogation Center or the FBI, what we are 
looking for is getting something that is relevant in the hands 
of a police officer on the street and working with the FBI to 
get that information to him, something that is relevant to a 
private sector to enhance their security posture at either a 
chemical facility or a shopping mall. The intelligence that we 
get sometimes is very general in nature. What we try to do is 
to take a look at it and pull out what can be actionable 
intelligence to get out there to the people to look at.
    One of the initiatives I have now is to draw upon the 
successes of our country's great Americans wearing a uniform 
serving in the military and the captured individuals involved 
with terrorist organizations from Afghanistan. Also the FBI has 
made numerous arrests and the CIA has seized many. Our allies 
in some other countries have picked up significant members of 
the al Qaeda leadership organization. What the IA is doing 
right now is reaching out to the CIA, to the FBI and coming 
together to sit down and analyze the intelligence that is being 
pulled from these individuals. What I want to be able to do is 
to assess the capabilities of the threat that they say they 
have to take down a bridge, to take down a tall building. What 
were the skill sets taught in the training camps? Did they in 
fact really have that capability? Did they really analyze and 
take a look at the amount of resources required to do that? 
Those to me are the nuggets of information that we can get out 
to our State, local, and private sector when we put out a 
threat against a bridge, against a tall building, against an 
apartment complex. Help them prioritize the expenditure of 
their minimum resources they have in a prioritization of how to 
expend that. Working with the FBI, again, their information is 
getting out to the State and local law enforcement entities. 
Our customer base is a little bit different, but yet it is 
important we get that information out there.
    So we are taking a very close look at this very sensitive, 
classified information. We must realize we have to protect 
sources and we are sensitive to that. But we want to get that 
down to the level that a police officer on the street, a 
Wackenhut security guard actually understands what this means 
to him or her in the performance of their duties. And I think 
probably, Steve, I would turn it to you.
    Mr. McCraw. Yeah. I think that is a very astute 
observation. We must be mindful, you know, prior to 9/11 that 
Oklahoma City took more lives on American soil than any other 
international terrorist act and that Eric Robert Rudolph was 
caught by a State and local officer, a local officer in 
Andrews, or in fact Murphy, North Carolina and not by the 
Federal Government. You know, point in case why you want to 
leverage those opportunities. The FBI still has domestic 
terrorism. The JTTF still works domestic terrorism. We still 
are focused on the Phineas Priesthood, the Aryan Brotherhood, 
the ALF, ELF and the myriad of other domestic terrorist 
organizations that have been documented that are out there that 
are active and in conducting day-to-day investigations on 
those. And it has to be done that way and we have to be mindful 
and we have to infiltrate them as well to prevent the next act 
of terrorism.
    So I think that is an outstanding point. And again you do 
it the same way, you know, working relationships, cop to cops, 
and what is good for international terrorism in terms of 
information sharing that the FBI is doing and adopting is also 
the same for domestic terrorism. It has to be shared to the 
widest extent possible. And thank you.
    Mr. Meek. Mr. Chairman, just a closing comment. I know that 
I am out of time, but I just want to say I think we have two 
choices here, one, to work together in times of prevention and 
when the waters are calm, and to work together but somewhat be 
suspicious of one another in a time of crisis. And after 9/11 a 
lot happened. This Congress moved in an unprecedented way in 
passing legislation, authorizing dollars, flying and having 
special meetings and joint sessions. And I think it is 
important that we do everything we can do and while the waters 
are calm to get--pay justice to that individual out in the 
patrol car, at the same time pay justice to those individuals 
in State agencies that are trying to do the best they can do to 
be able to make things happen. And I know that the FBI, CIA, 
you know, after the joint commission and the 9/11 report and 
all of that from out of this Congress, from Mr. Porter Goss' 
committee, that you are now working together. We are all better 
now. We want to make sure that we get better.
    One of you made the comment--I am sorry I had to step out 
for a minute--of the fact that we are better now than we were 6 
months ago and hopefully we will be better as we move along. We 
hope that that is the case. Please let us know if there is 
anything that we can do to make sure that the line of 
communications are there. But I think only the people in the 
law enforcement and prevention agencies that are out there, 
even within the Department, can even move better than we can 
because we can't legislate that. That is something that just 
has to come together on behalf of our country.
    Thank you, Mr. Chairman.
    Mr. Cox. [Presiding.] I thank the gentleman. Chairman 
recognizes himself for 5 minutes. I want to talk about 
clearances.
    Mr. Foresman, Mr. Daniels, are you finding that the people 
at the local level are able to get clearances in a timely 
fashion?
    Mr. Foresman. No, sir.
    Mr. Cox. What has been your direct experience?
    Mr. Foresman. We have had a multitude of direct experiences 
and, Mr. Chairman, I would also like to say I don't think 
clearances are as much the issue as developing an auditable 
process to share information much the same way we do with our 
allies on a day-to-day basis because we don't clear our allies 
to get classified information but we do have an auditable 
process that allows us to share it with them. But having said 
that, I think the big challenge that we run into is just the 
length of time that it takes to clear individuals. We happen to 
have one-term governors in the Commonwealth of Virginia. We 
started this process, I had a clearance previous to coming into 
this Cabinet position. Others who are in this office did not. 
We are just now getting the first of what are supposed to be 
seven or eight clearances. We have not cleared our Chief of 
Staff. We do have a clearance for the Governor. We are doing 
the Governors much the same way that we do Members of Congress.
    Mr. Cox. How long did it take the Governor to get cleared?
    Mr. Foresman. Interestingly enough, Mr. Chairman, we 
suggested at a hearing up here on the Hill, and this is a prime 
example of where Congress stepped up to the plate, that if you 
as Members of Congress could receive classified information by 
signing a nondisclosure agreement certainly Governors could as 
well, and DHS moved rapidly to get the Governors to sign 
nondisclosure agreements.
    Mr. Cox. And that was all it took?
    Mr. Foresman. That was all it took.
    Mr. Cox. But, now, with respect to the seven or eight 
clearances that are coming to the floor as we speak, how long 
has that process taken?
    Mr. Foresman. We have been in the process for over a year, 
Mr. Chairman. And again, the issue is if you look across the 
universe of people who have a need to know information in 
Virginia, it is in the hundreds if not thousands. And the 
simple fact is developing a process to clear all of those 
individuals may not be as important as developing a process to 
sanitize information as appropriate and to rapidly get it into 
their hands in a form and fashion that they can act on it 
quickly. Because with even the simple turnover, if it is taking 
a year or 18 months to clear an individual, we could 
theoretically start a state police superintendent today and in 
18 months have to start over again because he or she has left 
the job.
    Mr. Cox. Now, when Secretary Ridge was in California we had 
a discussion with the California law enforcement officials in 
Los Angeles. It was suggested, and nobody objected to the 
notion, that we could democratize the process a bit, share the 
workload. Obviously it is a Federal function to clear people, 
but there isn't any reason in the world that we cannot rely on 
the manpower in the States to do some of this work. If you have 
got requirements, if not in the hundreds then possibly over a 
thousand people that have a need to know in Virginia, need to 
know something, and it would be useful to have access to 
information at those levels, then surely the Virginia State 
police or Virginia law enforcement can do some of the knocking 
on doors and interviewing and so on that comprises a large part 
of this burden. Has anybody suggested to you that we have a 
joint Federal-State arrangement for clearances?
    Mr. Foresman. Mr. Chairman, we have actually suggested that 
on a number of occasions, but I think what we are finding now 
is that the background can be done quickly, whether we are 
using retired FBI agents or other Federal law enforcement 
personnel, State law enforcement personnel. But then we have to 
adjudicate the clearances once the background information has 
been done by the Federal agencies. But this points to a larger 
issue, Mr. Chairman, that if I get a clearance through the 
Department of Defense, is it going to be recognized through the 
Federal Bureau of Investigation and is it going to be 
recognized by the CIA and is it going to be recognized by the 
Department of Homeland Security, and I will tell you the simple 
answer is today still no.
    Mr. Cox. And so the seven clearances that you have gotten 
or about to get are valid where and invalid where?
    Mr. Foresman. It depends. It is in the eye of the beholder, 
Mr. Chairman. And again that is not an indictment of the fact 
that we have got a very diffused enterprise across the Federal 
Government in how we manage the clearance process in much the 
same way that we have a very diffused enterprise in terms of 
how we manage the flow and the movement of intelligence and 
information horizontally or vertically.
    Mr. Cox. For your purposes and for purposes of the 
clearances that we are using as examples in this question, who 
is the Federal agency with which you are dealing?
    Mr. Foresman. It has transformed over a period of time 
because in one case, and this is actually a little bit 
interesting, DHS is on the front of seven of them. For a period 
of time before the merger and acquisition went through it was 
the Federal Emergency Management Agency. Those individuals who 
were associated with our Joint Terrorism Task Forces it is 
being done through the Federal Bureau of Investigation. Those 
individuals with--that have to work closely on DOD 
installations across the Commonwealth on response issues, it is 
being done by DOD. And the most recent is the U.S. department 
of Transportation Office of Pipeline Safety is currently in the 
process of doing some folks.
    Mr. Cox. Mr. Parrish, let me ask you that. You may not know 
or you may know precisely the answer to this question. But does 
the Secretary or his delegate within the Department have the 
authority to grant clearances to State and local officials?
    Mr. Parrish. Sir, I will get you a definite answer back to 
you. We do work the process with Secret Service to coordinate 
the issuances of clearances. We are looking at that. With 
regard to Mr. Foresman's comments of different Federal agencies 
granting clearances, my experience holding a Top Secret/SCI for 
as long as I can remember, when I was in the military, I worked 
in the counter drug business with the FBI and DEA. All of that 
was honored as well as with the CIA, so that is one I think we 
need to get back to Mr. Foresman and the Commonwealth on, and 
we will follow up on that.
    I would like to say if I could, I think Mr. Foresman is 
exactly right. It is the process of information sharing that 
goes back to what I commented to Congressman Meek, is one of 
the things that IA is doing right now, is taking a look at this 
sensitive information to see what is relevant, what really 
could a State and local authority do with this piece of 
information when it is analyzed and assessed. Some of this 
intelligence at the very sensitive level is so general that it 
is really when they get it they say what does this mean to me, 
Patrolman Smith, in Topeka, Kansas. One the things we have in 
IA's initiative as we are following up is to get a training 
program to train the intelligence analysts within State and 
local communities so that when they do get this intelligence 
they know what the method of looking at it as well as following 
up and going back and asking for what we call RFIs, requests 
for information, additional requirements that they may have 
germane to their mission. The other piece we are looking at is 
a fellowship program within our, Fusion cell. It will probably 
become the information fusion cell within IA where we will have 
DHS law enforcement personnel from the Customs and Border 
Patrol, Immigration and Customs enforcement, but also a 
fellowship to bring in analysis from Stat/Local Agencies from 
around the country to spend perhaps 2 weeks in our operations, 
than having just rather the fusion cell looking at this 
intelligence at the classified secret level. We would get them 
interim secret clearances to come in there to be able to 
understand our operations. Part of the problem when we deal 
with this information is analysts have to understand when they 
look at a report ``they must ask themselves what is it that I 
know and who needs to know it.'' And that is the essence of 
information sharing, is getting people trained to understand 
what it is they are looking at, understand who needs to get 
this information.
    Mr. Cox. I want to take us back, although I certainly think 
that your point about information sharing as against clearances 
is a transcendent one, is the purpose of today's hearing fact 
in fact. I want to take us back to this clearance question, 
because the question that I asked, I don't know the answer to 
either, a moment ago, about whether the Secretary or his 
delegate has the authority to grant clearances to the State and 
local officials. The reason I don't know the answer is that the 
best we have been able to come up with on the committee is the 
President's executive order of January 23 of this year, which 
gives to you, gives to the Secretary--I will read the 
categories of people: The Secretary of Homeland Security, the 
Deputy Secretary of Homeland Security, the Under Secretary for 
Information Analysis Information Protection and the Assistant 
Secretary for Information Analysis, Department of Homeland 
Security, each shall be considered a senior official of the 
Intelligence Community for purposes of Executive Order 12-333, 
and then you know, on and on. And then it goes on to say that 
specifically you have the authority to recognize and give 
effect to and make clearance and access determinations pursuant 
to Executive Order 12-968 back in 1995 with respect to all 
employees of the Department of Homeland Security, all 
applicants for employment at the Department of Homeland 
Security and all people in the private sector. It doesn't say 
anything about State and local governments. Now this is an EO 
and it is not perfect, obviously, but I don't know whether that 
loophole or that gap is filled somewhere else, whether you 
think you have the statutory or executive authority to do this. 
But surely we would like the Department of Homeland Security to 
be able to address the problem of clearances among State and 
local law enforcement, public health officials, and the 
harmonization of those clearances for Federal purposes because 
we are trying to share here. That is the main purpose of 
Homeland Security, and it remains a puzzlement to you as you 
sit here at this hearing and to me as chairman and to our 
staff, and so it probably requires a little bit of work.
    Mr. McCraw.
    Mr. McCraw. Mr. Chairman, if you don't mind, from the local 
and State law enforcement standpoint the FBI has taken on that 
responsibility. In fact, if it is not working well, I mean we 
are the ones that need to be held accountable as it relates to 
local and State law enforcement specifically and we--I know we 
have made a number of gains under Assistant Director Senser's 
leadership. We stood up a unit just specifically to address 
State and local law enforcement clearances, and I know close to 
3,000 have been cleared and another 800 are in background right 
now. We see for a secret clearance we can make it as quick 
right now, in terms of setup, 60 days for a secret clearance. 
And as most of the gentlemen know at this table, the secret 
clearance will get you to where you need to be most of the time 
and top secret takes much longer obviously for the JTTFs.
    Mr. Cox. Would the support of State and local law 
enforcement assets and resources help speed up the FBI process?
    Mr. McCraw. I think we are in good shape right now. There 
are some things that can't go any faster. You can't force it 
through even with more people, Chairman. However, when we can 
make that 60-day to 90-day window for the secret clearance for 
State and locals and the chiefs of police, that works real 
well. And they have been very vocal. The chiefs of police are 
not very shy about letting us know when we are falling down on 
that, on getting their clearances through. And so the good news 
is it is one clearance for all. I mean whether you are in the 
Homeland Security, the agency, the military or if you are a 
Governor given a clearance, that counts across the board. It 
doesn't matter who got it for you.
    Mr. Cox. Mr.Markey.
    Mr. Markey. Thank you, Mr. Chairman. Mr. Lago, the now 
declassified National Intelligence Estimate said that if we 
didn't attack Saddam then it is unlikely that he would use 
biological, chemical, nuclear materials, but if we did attack 
and we destabilized the government that there would be a 
significant increase in the likelihood that he would align with 
al Qaeda, he would align with other terrorist groups. In view 
of the fact that we have yet to find the chemical, biological, 
nuclear materials that were reported to be there before our 
attack upon that country and that the scenario which the 
National Intelligence Estimate is most concerned about is now 
in place; that is, that he is not in government, is he telling 
you, you are not authorized to this question that--have you 
changed now your recommendation, for example, Mr. Daniels, over 
here? Have you told him to be on the alert for biological, 
chemical, and nuclear materials that might be in the hands of 
al Qaeda?
    Mr. Lago. Congressman, we should be on the alert today 
regardless of the information--.
    Mr. Markey. Have you notified Mr. Daniels that he should be 
on higher alert because the scenario in the national 
intelligence estimate has now unfolded?
    Mr. Lago. No, sir.
    Mr. Markey. You have not. Why is that?
    Mr. Lago. Congressman, again, we should be on the alert for 
those attacks today. We have no specific information, no 
specific actionable information--.
    Mr. Markey. The national intelligence estimate said that 
there would be a significant increase in the threat if we went 
in and we did--.
    Mr. Lago. Sir, I understand that. We have no specific 
actionable information to pass on to Mr. Daniels today.
    Mr. Markey. You do not. So has there been a change in the 
national intelligence estimate now in terms of what the threat 
is that is posed to our country? Was that wrong? Was the 
information prior to the war wrong?
    Mr. Lago. Sir, I--.
    Mr. Markey. You can answer.
    Mr. Lago. I am not an expert in this field. I will take 
that back for the record and we can get back to you.
    Mr. Markey. I think America has a right to know whether or 
not the national intelligence estimate on that subject was 
correct; and if it wasn't, then they probably should say that 
the Intelligence Community has changed its mind, that there is 
no heightened risk now that the uranium, the biological and 
chemical materials are not accounted for.
    Mr. Lago. Sir, as I said, I will take that back for the 
record.
    Mr. Markey. Because it seems to me that was the major 
justification for the war.
    Colonel Parrish, I am interested in finding out the process 
by which the Homeland Security Department's information 
analysis and infrastructure protection unit operates under 
various scenarios. As you know, 22 percent of all cargo is 
transported on passenger planes and isn't physically screened 
at all. In fact, packages and mail weighing less than 16 ounces 
aren't even subject to the Bush administration's flawed known 
shipper program which relies on the shipper's paperwork as a 
guarantee that the cargo was safe. It just goes right on the 
passenger plane unscreened.
    As you know, Pan Am Flight 103, which exploded over 
Lockerbie, was brought down with a small quantity of plastic 
explosives in an unscreened bag. Richard Reid had 10 ounces of 
plastic explosives.
    So let me ask you these questions, if I may, Mr. Parrish. 
If IAIP received intelligence indicating that there was a 
credible threat that the terrorist was planning to use the 
security holes in the cargo screening program to use plastic 
explosives to blow up a passenger plane, who would IAIP inform?
    Mr. Parrish. Sir, for intelligence received on that 
information, we work very closely with the Transportation 
Security Administration with that regard. At the same time, if 
there is indication of potential smuggling operations to move 
those materials in across the borders of our country, this 
information is conveyed to the Customs and Border Protection.
    Mr. Markey. So would you inform FBI?
    Mr. Parrish. Sir, that would be done in coordination with 
the FBI. Again, the FBI is represented within IAIP at our 
headquarters.
    Mr. Markey. If the CIA receives intelligence about a 
terrorist threat against a commercial airline using an 
explosive device in the cargo, who would you inform, Mr. Lago?
    Mr. Lago. Sir, we would use the same mechanism that is set 
up to inform all members of the community to pass information 
to the Bureau, to pass information to the Department so they 
can pass information to the channels that have been established 
for the necessary individuals to be notified.
    Mr. Markey. Would you pass it directly to homeland security 
automatically?
    Mr. Lago. Absolutely.
    Mr. Markey. If you were instructed by your CIA supervisors 
not to share that information, what would you do?
    Mr. Lago. Sir, that is a hypothetical. I have never been 
asked not to share information like that. I imagine if I was, I 
would share it.
    Mr. Markey. Mr. McCraw, if the FBI received intelligence 
about an explosive threat against a commercial airline using an 
explosive device in the cargo, who would you inform?
    Mr. McCraw. All involved parties, including homeland 
security, the Agency, the entire Intelligence Community, and 
certainly the local and State law enforcement officials in that 
area that have a vested interest in that geography.
    Mr. Markey. So you automatically, under the law, have to 
deliver it directly to Homeland Security?
    Mr. McCraw. Well, I don't know the law, but from the FBI's 
standpoint, we are going to, whether the law says we are going 
to or not. We are absolutely going to. In fact, the example 
used in such specificity, I can absolutely guarantee you that 
that information would get out to all those individuals, and 
under that scenario, probably the head of the airline company 
as well.
    Mr. Markey. If IAIP received intelligence about an Al Qaeda 
potential attack against U.S. nuclear facilities, who would 
IAIP give that information to?
    Mr. Parrish. That piece of intelligence that comes in would 
go to the Nuclear Regulatory Commission, which is responsible 
for the security of the nuclear facilities. At the same time, 
sir, we would reach out to the private sector within that 
geographic region. Certainly at the same time all of those 
communities, if we could narrow down the location, reach out to 
the governors and the State and local authorities within that 
region. First would be the Nuclear Regulatory Commission 
responsible for the security of the nuclear facility to enhance 
their security posture.
    Mr. Markey. Would you give it to TTIC as well 
simultaneously?
    Mr. Parrish. Yes, sir. That information--and that scenario 
you present would be coming in simultaneously to all those 
organizations. They would be assessing it at the same time as 
IA.
    Mr. Markey. So there would be no additional screening of 
the information after you were passing it on to the NRC? If the 
NRC asks you not to pass it on to others until they had time to 
investigate, would you wait or would you automatically give it 
to TTIC and to the FBI and to others?
    Mr. Parrish. No, sir. That would be automatic.
    Mr. Markey. You would give it to the governors 
automatically even if the NRC said wait?
    Mr. Parrish. No, sir. That would go out to the State and 
local authorities as well in a timely fashion. The relationship 
we have with the NRC, I do not see that as a realistic 
scenario.
    Mr. Markey. And finally, if I may, on the question of 
staffers, Mr. McCraw, how many FBI staffers are qualified to 
administer polygraph tests in Arabic?
    Mr. McCraw. I don't have that answer for you, but I will 
find out. Not nearly enough.
    Mr. Markey. Are we talking about ten or 100?
    Mr. McCraw. I don't know. I know it is not 100.
    Mr. Markey. You really don't know the answer to that?
    Mr. McCraw. I absolutely don't know it.
    Mr. Markey. How about you, Mr. Lago? How many are trained 
to conduct those kinds of polygraph tests in Arabic?
    Mr. Lago. Sir, I don't know the answer to that question. We 
will take it for the record and get back to you.
    Mr. Markey. And has there been a damage assessment done to 
determine how costly our failure to collect information from 
walk-ins and other sources pre9-11 from Arab sources was in 
protecting Americans from terrorist attacks? Either one of you. 
Have you guys done an assessment of that, going through the 
volume of information. I know that a lot of information was 
never actually translated, and I am just wondering have you 
done an assessment now in retrospect of how serious that was as 
a whole in our intelligence gathering that all of that 
information remained untranslated?
    Mr. Lago. Sir, we will take that for the record.
    Mr. Markey. Mr. McCraw?
    Mr. McCraw. Obviously we didn't have enough sources to 
prevent the act, which clearly that is the basis we do all 
damage now is prevention of the act, not in terms of what we 
figured it out after the fact, Mr. Markey.
    Mr. Markey. You haven't determined after the fact that you 
actually didn't have enough people who can actually speak 
Arabic in order to actually read all of the translations or to 
translate all of the information that was being gathered?
    Mr. McCraw. As it relates to the translations, that has 
occurred on that. I thought you meant, more importantly, the 
walk-ins, whether we had source coverage, whether we have 
infiltrated the particular cells, and the answer is clearly we 
know right now we did not.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr.  Cox. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. One of the things that 
has been always puzzling to me is why we have had such a 
difficulty coming up with a single consolidated watchlist. I 
know the General Accounting Office recently issued a report, 
and they say we have 12 different terrorist watchlists 
maintained by nine different Federal agencies. If any of you 
disagree, please advise me, but I think everyone agrees that we 
should work from one watchlist. But it appears that there is 
some confusion about who is supposed to be creating this 
consolidated, single watchlist.
    I noted that in July of 2002, the President's national 
strategy for homeland security stated that the FBI would 
establish a consolidated terrorist watchlist. Then in February 
of 2003, the White House issued the fact sheet on the Terrorist 
Threat Integration Center, and it stated that the center would 
maintain a database of known and suspected terrorists. And 
finally, in April of this year, the General Accounting Office 
report indicated that the Department of Homeland Security had 
taken the responsibility for creating the consolidated 
watchlist.
    Who among you can tell me who is supposed to create the 
consolidated watchlist, whose responsibility is it: the FBI, 
the Terrorist Threat Integration Center, or the Department of 
Homeland Security? It seems totally unacceptable that we can't 
solve what would appear to be a simple problem.
    Mr. Parrish, do you want to start?
    Mr. Parrish. Yes, sir. First, there is the term 
``watchlist,'' and then the term ``database.'' The multiple 
databases that existed by the independent agencies--they had 
those databases based on their mission of their organization. 
From these databases, then you could produce the watchlists of 
the names of the individuals that you were looking for or to be 
aware of.
    The Terrorist Threat Integration Center is in the process 
now of developing the identities tracking database, which will 
be, if I could I guess, describe as the mother of all databases 
as we talked about over at TTIC, of integrating all of these 
databases of the Federal agencies into a single database.
    Obviously that is resource-intensive. When you start 
integrating this to maintain this database, one of the things 
we learned is that people's names got on lists early on, and 
there needs to be a mechanism to get their names off once it is 
proven that individuals are not associated with the terrorist 
nexus.
    But when you take a look at the resources that are out 
there to bring these databases together, and once that is done, 
then the concept of a national watchlist center, which is 
really kind of the switchboard that people would call into to 
be able to determine if an individual they have in front of 
them is someone that they need to be concerned about. This will 
really fall into alignment with the discussion that Mr. 
Kallstrom is talking about in these regional operation centers 
that we are talking about.
    Using that scenario, when this process is in effect, when 
that patrolman out there in Lackawanna pulls someone over and 
calls back into that regional operations center of New York and 
says, I have in front of me a certain individual by the 
following name, that center calls into the National Watchlist 
Center--which currently is under review right now regarding 
should it reside in the Department of Homeland Security under 
our umbrella, or is it more appropriate in the FBI, we hope to 
come to a rapid decision on that in working with the White 
House. But under that scenario, then this National Watchlist 
Center would pull that name from this integrated tracking 
database to say here is the background on this individual.
    Now, what that does then is give that patrolman on the 
street a little bit more information of what he should be 
looking for. Again, to be consistent with the privacy laws, but 
he may now be able to take a look and gain a little bit more 
information about this individual that allows us to take a look 
at connecting the dots.
    So the database, you are right, sir, it requires the 
integration. We are looking at databases from State Department 
and TOPOFF. We are looking at Treasury Enforcement 
Communication Systems and their database and the FBI database. 
You are exactly right, but I think there is a process in place, 
and we are moving fast on this to be able to get this up and 
running.
    Mr. Turner. It just seems to me that in the short term, 
untilthere is a National Watchlist Center, set up in the manner 
that you suggested, that there should be some entity that you 
create that everybody goes to. We should be capable of at least 
having having the same terrorists on all the watchlists. And 
apparently we don't do that. So I am not sure when you talk 
about the local patrolman on the beat; I guess he goes to the 
FBI watchlist. I guess that is where he turns, I would assume. 
I don't know.
    Mr. Parrish. His initial entry point would be--and I will 
let Mr. McCraw talk about that, but as he goes in, it would be 
through the national criminal index computer system. You are 
right.
    If I could, even though it seems there is a disparity here 
with the databases, there are success stories. You all may 
recall reading in the paper of an individual by the name of 
Omar Shishani in Detroit, and I will quickly tell you in 
January of 2002, when the FBI called me from one of the 
document exploitation centers and said I have a roster here of 
about 150 names that was found in the terrorist training camp 
in Kabul, would you be interested in it? And I said, sure. 
Bring it over.
    As we looked at it, very generic names, Al Hindi the 
Indian, Mohammed the Egyptian, Omar Shishani, the Chechnyan. I 
said, let's put it in the TECS computer system, the Treasury 
Enforcement Computer System, with a footnote on the bottom that 
says, ``name associated with terrorist training camp,'' and as 
you know how that system works, we then do our advanced 
passenger information system sweeps on all international 
flights coming into the United States.
    In July of 2000, a flight coming in from Tokyo to Detroit 
ran through that sweep, and on it appeared Omar Shishani. No 
date of birth, no passport number, but on the bottom was ``name 
associated with terrorist training camp.'' An astute Customs 
inspector pulled him aside in a secondary and opened his 
suitcase, and we found $12 million of counterfeit checks with 
an individual who has a long history of association with the 
Russian Mafia and some of the terrorist activities in Chechnya.
    So there are systems that are working in place. You are 
right, sir, we need to integrate these databases to become more 
efficient, and I think the plan is in place to make this 
happen.
    Mr. Turner. I think that is an excellent example of why we 
need watchlists. You mention Omar Shishani and how putting him 
on the list resulted in something positive occurring. But, my 
question would be was Omar Shishani on everybody's watchlist, 
the 12 different watchlists that are maintained by apparently 
nine different agencies?
    Mr. McCraw. Congressman, I can go ahead and try to answer 
your question. First of all, as important it is to improve it--
and there is a plan in place and TTIC is going to play an 
important part of that plan, the situation is not as bad as it 
appears on the face. First of all, there is really two actual 
lists, and everything else are extracts thereof. The no-fly 
list is an extract of information provided either by the FBI or 
the intel community that is either maintained in tipoff or 
vigtoff, which is a file system within NCIC. Is that perfect? 
No. Clearly there needs to be and they are working towards it, 
and Mr. Parrish talked about the plans in place for a watchlist 
center, and I think appropriately briefed you in terms of where 
we are going.
    Tipoff right now will be incorporated into TTIC, and they 
will take over that particular responsibility. And all of that 
information will go into that particular place, and one of the 
plans in which needs to happen--although the FBI subjects now 
appear in NCIC for access to over 600,000 state police 
officers, that information in tipoff is under review that will 
also be included so that that state police officer has access 
not just in terms of the FBI subjects, but in terms of the 
collective wisdom or about bad guys involved in terrorism by 
the Intelligence Community and the FBI.
    Mr. Turner. Mr. Foresman, you might want to weigh in on 
this. You are down there at the local level. Where would you 
call if you were trying to identify someone and wanted to look 
at a watchlist? Where do you go?
    Mr. Foresman. Congressman, this is probably a bad day to 
ask me this question, because we just spent the last week 
trying to get someone off of a watchlist only to find out it 
wasn't an FBI watchlist but someone else's watchlist that 
really wasn't a watchlist, and I think that part of the issue 
here is definitional in nature and centralizing in nature.
    Right now we would probably go to the Joint Terrorism Task 
Force through the Bureau as the basis for doing that, but I 
think what is more important is if I have a trooper who is 
sitting on the Capital Beltway around Washington who stops a 
vehicle, he has no way to query the system today, and I think 
when we critically talk about the 700,000 law enforcement 
personnel, those at the local level, those at the State level, 
Federal law enforcement personnel, the bottom line is the beat 
cop on the street is not having access to the information to be 
able to do a rapid check against it.
    And while I understand that we are certainly making 
progress towards planning for integration, I remain 
fundamentally concerned we don't understand what we are 
designing, because we haven't really mapped out the larger 
strategic picture as of yet.
    Mr. Turner. Thank you. Thank you, Mr. Chairman.
    Mr.  Cox. Ms. McCarthy.
    Ms. McCarthy. Thank you very much, Mr. Chairman. Thank you 
very much, panelists, for sharing your thoughts with us once 
again today.
    Mr. Cox. Would you yield for just a moment?
    Ms. McCarthy. Of course.
    Mr.  Cox. I would like to ask unanimous consent to include 
my opening statement in the record, and I believe you wanted to 
make a similar request.
    Ms. McCarthy. I would like to make that request, Mr. 
Chairman, that my opening remarks be placed in the record as 
well.
    Mr. Cox. Does any other member wish to make a similar 
request?
    Mr. Turner. I will make a similar request, Mr. Chairman.
    Mr. Cox. Without objection, the opening statements of all 
members shall be included in the record. Thank you for 
yielding.
    Ms. McCarthy. Thank you, Mr. Chairman.
    Mr. Foresman, I very much appreciate your experience at the 
local and State level, and I testify there is confusion in the 
movement of information from the Federal Government to the 
State and the local level, and I wondered if you could share 
some examples with us and ideas on what needs to be done to 
clear that up. I know from my own experience with local 
responders, they are experiencing that in Missouri as well. And 
I know, Mr. Parrish, based on your testimony and your comments 
yesterday, and today that you are very sensitive to this need, 
but the sources aren't quite there yet to enable the training 
and other things that need to go on.
    But Mr. Foresman, if you would speak to that. I know in 
your testimony you indicated there does not appear to be any 
overall Federal vision and coherent plan across the entire 
Federal Government that articulates exactly what we are trying 
to accomplish in terms of information and intelligence fusion, 
analysis and sharing, especially related to the involvement of 
State and local governments.
    How should the Department of Homeland Security and TTIC and 
any other agency optimize information sharing? Because I am 
quite concerned and agree with all of you that the people who 
are going to carry this out are at the State and local level. 
The knowledge is here in Washington, but the people on the 
front lines, those homeland security police and fire and 
ambulance drivers and others are out there all over America. 
And how best do we get the information to them that they need 
so they can do the job when called upon?
    Mr. Foresman. Well, I will come back and do the two 
examples last and maybe address the latter part of your 
question first with your indulgence.
    I think this is very much an issue of empowering the 
Department of Homeland Security with clear authority and 
responsibility for bringing all the relevant stakeholders to 
the table in crafting a national vision, one that includes all 
those Federal agencies with component pieces in the 
intelligence enterprise as well as the local stakeholders and 
the relevant private sector partners.
    There have been a plethora of efforts, both through the 
Bureau, through the Central Intelligence Agency and through the 
Department of Homeland Security, but they still lack that 
overarching strategic national focus, and I think very much so 
that whether it is the Department of Homeland Security or any 
other Federal agency, we very much need to lock ourselves in 
the room and actually as we talked about earlier, about another 
3 hours' worth of break and we may have solved about everything 
here today.
    But I think it is critically important that we sit in the 
room and define expectations, do the education, define the 
business rules for sharing information that allows the Bureau 
to protect that information that it feels like it needs to 
protect, the Agency, State and local governments. There is 
certain information that State and local governments have that 
should, because of the provisions of Congress, not be 
warehouseable at the Federal level. And we all recognize all 
those things, but we have not sat everybody down and created 
that vertical and horizontal picture in the most macro of 
sense.
    The specific examples I would cite, I would like to go back 
to the fact that we are very much early in this process of this 
post September 11th environment, but I still--and the 
challenge--I have a great deal of faith in the people sitting 
at this table, whether it is my counterparts in Arizona or New 
York or the Federal agencies that we work with, but remember, I 
am just one person and I have to work with a plethora of local 
officials, whether they are law enforcement, public health, I 
have to work with elected officials.
    The two examples that come to mind is the Department of 
Homeland Security in advance of operation Iraqi Freedom was 
quite active in providing threat information to all of the 
States and specific threat information to the Commonwealth of 
Virginia. They provided that information in rapid fashion and 
form, and when we attempted to do that level of local level 
collaboration as we brought our local stakeholders to the 
table, I will tell you that the level of zeal of security of 
certain sites was not necessarily represented in the field 
agents of the various Federal agencies in the affected area, 
and so we were faced with the conundrum and a legitimate 
conundrum of a police chief saying what do they know in 
Richmond that the field offices don't know, or what do they 
know in Washington and so what is the quality of the 
intelligence.
    A second example actually goes back prior to that when we 
had some credible information that we were dealing with with 
regard to the Commonwealth of Virginia and to DHS's credit, 
they went to great pains to get that information to us rapidly 
and succinctly. They were good about making sure that all those 
folks that need to be briefed were briefed.
    The problem end is again that there was good agreement 
between the principals, i.e., those folks who now make up the 
TTIC, the Bureau, headquarters in DHS, headquarters offices 
about the information; but, again, when it went down to the 
field, the response that we got from the field personnel was 
that this is old information. This has already been vetted. We 
sent it to Washington. Someone got excited about something that 
they shouldn't have gotten excited about.
    Well, from my standpoint, I am left with the challenge of 
articulating to a governor and to local officials is this 
credible quality information that you should act upon and do 
certain measures? I think in large part, those were early 
incidentals in this process, and things are beginning to 
improve, but just as we talked about a number of regional 
initiatives across the northeast, things that we are doing in 
Virginia, things that are going on within Federal agencies, who 
is the air traffic controller for all of these different 
things, and how are we making sure that we are making this 
whole effort operate in harmony and in a synchronized fashion?
    Mr. Parrish. If I could just add, one of the things, an 
initiative of Under Secretary Libutti is we need to go out and 
hear from our customer base in a follow-up to Congressman 
Markey's scenarios that he presented. For example, I know that 
you have interest with regard to water supplies. On June 23rd, 
we put out an extensive threat advisory to all States with 
regard to water safety--water supply threats with some 
protective measures on what they should be looking for to 
handle that.
    It will be valuable for us to get the feedback from Mr. 
Foresman's office, how did the Commonwealth--how do they use 
that? Was it valuable to them? Was it a good product? What 
else, additional information?
    To Congressman Markey's scenarios, as I mentioned it had 
other day, the morning following the attack on Riyadh as I was 
sitting at TTIC looking at the sensitive intelligence traffic 
going back to TTIC and to the CIA, I said I needed a downgraded 
product at the unclassified level. IA began writing protective 
measures against this new tactic and technique employed by Al 
Qaeda in those attacks.
    Again, a lengthy document that assessed and analyzed the 
actual tactics and techniques employed against an installation, 
breaking through the fence, assault teams coming in, we took 
that intelligence, got it unclassified the same day, and we put 
out a product that gave protective measures to State, local and 
private sectors on things they should consider in enhancing 
their security posture.
    So we put products out there like that to the State and 
locals, but we need feedback to see if that is relevant to 
them, is it useful to them. So, again, it is an initiative of 
the Under Secretary. We are going to get out there and find out 
exactly has needed.
    Ms. McCarthy. Anyone else wish to comment? I thank you, Mr. 
Chairman, and I thank the panel.
    Mr. Cox. Thank you. I want to take the opportunity, Mr. 
Kallstrom, to ask you prospectively about how the 
Counterterrorism Center that you describe in your testimony 
might operate when it opens in August and thereafter.
    Specifically we heard from Mr. Lago that a CIA source is an 
IT solution that deliberates finished intelligence products. Is 
this something that you would expect to take advantage of at 
that center?
    Mr. Kallstrom. Sir, I think we would see the center as sort 
of the filter or the go-between between all the collaborative 
agencies in Washington and internationally, for that matter. To 
the myriad of people in the State, probably the law enforcement 
people first, and then there is obviously other people that 
need to know things. And we would be in a position at that 
center, because we would have trained the people, they would 
have the proper clearances--and I must just divert and tell you 
something in my view of 28 years in the FBI, I see virtually no 
reason for but a handful of people in any State to have a top 
secret clearance, by the way, because the only reason it is top 
secret is the information is not anything that anyone needs to 
know. It is--secret is adequate. But the center would then take 
the information through collaborative efforts between the 
people in the center in Washington, discussions, phone 
discussions, summary reports, different types of intelligence 
that is put out periodically, and we would then put that into 
real words and real action for the cops in a different form to 
educate them as to what they should be looking for, what 
indications might be, what warnings might be so that their eyes 
and ears work better. That is one thing.
    The second thing is a point someone made here earlier, I 
think the gentleman from Texas. A police officer is someone on 
the side of the road that for whatever reason his level of 
suspicion is raised. Maybe there is a hidden NCIC, but maybe 
just because he presents some documentation that looks a little 
strange or maybe this thing is in plain view or whatever the 
reason, that police officer just radios in to the center in New 
York who has connectivity with Washington and says, I have this 
guy and maybe there is a code word for an all sources check, 
please give a check on that, and then instantaneously within 
minutes, you know, our people in New York who are sort of an 
extension of Homeland Security/FBI/CIA, are looking at 
databases to see if this person is of any interest. And then 
the center and Washington together craft what we want that 
officer to do without divulging the sensitive information. Hold 
the guy? Let him go? Delay him? You know, whatever it is, make 
note of whatever is in plain view, blah, blah, blah. And that 
is how we see the process working.
    The other point I want to make is I think it is imperative 
on the part of all of us, particularly in Washington, to break 
this issue of the protection of us as a people into two 
categories. Category one, those things we need to do to stop 
the next event, to not have another event happen on the soil of 
this country or against American interests elsewhere. Number 
two, if it does happen, clean up the mess. And those things 
obviously we have to be prepared. Our first responders need the 
right equipment. We need the right protocols. They need 
information. But it is critically important to do a dozen 
things--maybe it is 14. Maybe it is 10--to add the State and 
local resources to this problem, this challenge of not having 
another event happen, and I think we can easily do it, ladies 
and gentlemen. I think we can do it. I think we need to focus 
on it, though, and not combine all this stuff into one big pot 
and call it homeland security. I think we have to talk about 
those issues we do to stop the event and those issues we do to 
mitigate if an event happens. I think we would have clearer 
direction and clearer solutions to it if we looked at it that 
simple way.
    Mr. Cox. Well, I couldn't agree with you more on that 
point.
    Mr. Lago, when you described a CIA source in your 
testimony, you had reference to sharing with DHS. Is that 
system something that on a classified or unclassified basis 
State and local governments can tap into?
    Mr. Lago. Today, no. We have nothing in place today. There 
are some issues that you would have to work, you will have to 
work on, on getting the CIA process that close with the State 
and local processes, but as Mr. Kallstrom said--and I think I 
would echo that--the first thing you need is to be able to 
translate the needs, the requirements needs on both sides. We 
could put a box out there and we could give a person a couple 
weeks training, but I would suggest that it has taken--it 
probably takes us 4 to 6 years to train an analyst to be 
proficient in doing the modeling and using the tool to the best 
of their ability. We have tried to come and work our way around 
that relationship. We have deployed a CIA officer to New York. 
We are fairly proud of the information flow that has gone both 
ways because of that. It clearly has given us more insight into 
their specific requirements. And quite frankly, we spoke 
different languages when we started this relationship, today we 
have an individual to help translate.
    Now, does that mean to say that we couldn't put some kind 
of a system in that would allow them the access to those things 
or maybe send an analyst to help them? There are other ways of 
doing it. But I am not sure that just sending a system to them 
would help most of the States.
    Does that answer your question?
    Mr. Cox. Well, it certainly raises an important aspect of 
the question, which is that there is judgment involved in 
determining what is reasonably likely to require onward passage 
to State, local, and so on, law enforcement and intelligence.
    The MOU obviously contemplates this and states that 
information that is classified or otherwise subjected to 
restricted dissemination but which reasonably appears likely to 
require onward passage to State, local or private sector 
officials, the public or other law enforcement officials goes 
to DHS with accompanying high-content tear lines suitable for 
onward passage at the unclassified level. That would 
certainly--and run a lot of the tougher problems that we have 
just been talking about.
    And the question is whether there is an IT solution to that 
or whether this--how is this being done? Is it being done 
literally with tear lines where pieces of paper are being 
faxed, or how does this work?
    Mr. Parrish. Sir, if I could on the access, the CIA source, 
CT link, some of those systems, IA has access to that with our 
analysts. As I say, we go into those systems daily. We receive 
that information. We analyze those pieces of intelligence to 
say what do I have here and who needs to know it, what State 
and local authorities need this, is this regionally oriented to 
the Northeast sector? Do we need to get that to California?
    We then go back in through the process to get that tear 
line if required, and then that information is provided to us. 
Now, oftentimes we will go back and say we need more 
information, that this tear line does not meet the needs of our 
constituents, and we have had success with that with the CIA to 
go back and get that.
    Then--and going back to the concept of RISSNET as we 
implement this, this will be a secure Internet system not at 
the classified level but it will be password protected. We 
envision this to be posted on a Web site or we will send it 
directly via e-mail up to that operations center in New York to 
convey this information to them.
    So that is our job. That is our mission in IA to make sure 
that we are pushing the IC, the Intelligence Community for 
every piece of information that is there that is classified 
sensitive at a level that we deem essential to get out into the 
hands of the State and locals, and right now the system is 
working. We are working it with TTIC, reaching back through 
CTC, and I am here to say that so far, Parrish has never been 
told no.
    Mr. Cox. Mr. Kallstrom.
    Mr. Kallstrom. If I can just add one thought to close the 
loop on it. You know, I think we have a very good vehicle in 
place now to stop the next attack, and that is the terrorist 
task forces that comprise all the Federal agencies and some 
select State and local police. There is just not enough people 
on these task forces to know what they don't know, and the 
missing piece as we talked about earlier I think before you 
came in was we need to find a way from the--I am talking about 
prevention now. We need to find a way to let State and local 
resources be more effective eyes and ears for those task forces 
so we can broaden their knowledge base of what is going on in 
our communities, our towns, our neighborhoods, you know, some 
little town up on the northern border where maybe some 
terrorists are living. The targets may be in New York. They may 
be in Washington. They may be a few other places. The 
terrorists aren't necessarily there.
    So I think we will go a long way. I think the Federal 
Government appears to be fairly well coordinated now. We have 
got problems with these watch lists. We have got problems with 
computers, but if we can figure out a way of harnessing the 
State and local assets, the law enforcement assets and other 
assets to be more effective lookouts, watchdogs or listening 
posts for the task forces we already have, I think we will make 
a geometric leap in the ability to protect our society.
    Mr. Cox. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. If I could, another 
question for Mr. Parrish. I have to admit that many of us I 
think were surprised when the TTIC was created, because I think 
many of us had expected and wanted to have that type of an 
entity, that function performed by the Information Analysis 
Directorate, but at this point I think many of us are just 
withholding judgment as to whether that is going to work and we 
will take a wait and see attitude.
    I am concerned, though, and just want to touch on the topic 
of the type of information again that you are receiving, and I 
know this has been discussed, but I want to look at it again. 
Are you receiving the raw intelligence or mainly the analyzed 
product? And if you are receiving analyzed product rather than 
the raw intelligence, are you concerned that something might be 
missed that you would have picked up on had your analysts 
looked at--had direct access to the raw intelligence? And do 
you feel that the TTIC analysts are looking for the same things 
that you would be at the Information Analysis Directorate?
    Mr. Parrish. Yes, sir, and I recognize your concern. First, 
again, as we mentioned the other day, is that we are a part of 
TTIC, the Department of Homeland Security. IAIP is a 
partnership with TTIC. We have Department of Homeland Security 
analysts, the IAIP analysts working in TTIC that come there 
with an operational understanding, I should say--or rather, an 
understanding of the operational environment of the Department 
of Homeland Security. A TSA analyst is located there. A Customs 
and Border Protection analyst is there, and Immigration and 
Customs Enforcement.
    So they are looking at all of that raw intelligence, all of 
that information that is filtering through TTIC that is coming 
from the entire Intelligence Community, looking at it through 
the lenses of what is relevant to the Department of Homeland 
Security from the standpoint of what is needed for the State 
and local and private sector.
    We are also receiving that information within IA, and we do 
conduct independent assessments on that intelligence to 
identify if in fact there are credible threats that we need to 
get out to the private sector, which is State and local.
    Mr. Langevin. The raw intelligence as well as analyzed 
intelligence?
    Mr. Parrish. Yes, sir. Again as I said the other day, you 
know what you know. I know that we are getting reports. Again, 
I have analysts from those agencies of the IC that have access 
to their systems within IAIP, members of the NSA, from the CIA. 
So at this point in time, I think your assessment is right, is 
that TTIC is a force multiplier right now. It is doing what the 
administration intended. At the same time IAIP is certainly in 
compliance with those 19 functions of the Homeland Security 
Act, of which we are charged.
    Mr. Langevin. Well, thank you. We will be monitoring its 
progress, and I certainly would hope that you will share with 
this committee if you have concerns that that arrangement is 
not working.
    Mr. Parrish. Sir, if it is not working, I will be right 
back here to tell you.
    Mr. Langevin. I yield back. Thank you.
    Ms. McCarthy. [Presiding] the Chair recognizes Mr. Markey.
    Mr. Markey. Thank you. Thank the Chair very much. Back to 
you, Mr. Lago, if I could. Back in October 7th, 3 days before 
the Congress voted on the resolution authorizing the President 
to go to the UN and then to use force if necessary, the 
President said in that speech to the American people and to the 
Congress at that time--he said that--he said, we have learned 
that Iraq has trained Al Qaeda members in bomb making and 
poisons and deadly gases and we know that after September 11th 
Saddam Hussein's regime gleefully celebrated the terrorist 
attack on America. Iraq could decide on any given day to 
provide a biological or chemical weapon to a terrorist group or 
individual terrorists. Alliance with terrorists could allow the 
Iraq regime to attack America without ever leaving 
fingerprints.
    Then in the State of the Union Address that the President 
delivered this year, which laid out the case for why we might 
have to go to war against Saddam Hussein, the President said to 
the American people as he was concluding the State of the Union 
address, he says, evidence from intelligence sources, secret 
communications and statements by people now in custody reveal 
that Saddam Hussein aids and protects terrorists, including 
members of Al Qaeda; secretly and without fingerprints he could 
provide one of his weapons to terrorists or help them develop 
their own.
    I am continuing the President's State of the Union Address. 
This is how he is concluding now. Before September 11th, many 
in the world believed that Saddam Hussein could be contained, 
but chemical agents, lethal viruses and shadowy terrorist 
networks are not easily contained. Imagine those 19 hijackers 
with other weapons and other plans, at this time armed by 
Saddam Hussein. It would take only one vial, one canister, one 
crate slipped into this country to bring a day of horror like 
none we have ever known. We will do everything in our power to 
make sure that that day never comes.
    Now, we know that on Friday a senior White House official--
and we know who that is. We just won't say his name. We know he 
doesn't want his name mentioned--said that in response to the 
questions about the National Intelligence Estimate that was 
revealed on Friday that he publicly released, showed that--and 
I will read this now from the National Intelligence Estimate: 
Saddam if sufficiently desperate might decide that only an 
organization such as al Qaeda, already engaged in a life or 
death struggle against the United States, could perpetrate the 
type of terrorist attack that he would hope to conduct. It went 
on to say that Hussein might decide to take the extreme step of 
assisting al Qaeda in a terrorist attack against the United 
States if it, quote, would be his last chance to exact 
vengeance or by taking a large number of victims with him.
    So thus far the intelligence assessment that Hussein might 
be a potentially bigger threat now than before the United 
States attacked has yet to be retracted if he wasn't captured 
and if these materials went into the hands of al Qaeda.
    That being the case, Mr. Lago, again, it is hard for me to 
understand why a warning hasn't been passed on to Mr. Daniels, 
Mr. Foresman and others to be on high alert, given the fact 
that al Qaeda has not been yet captured in that country and the 
materials are at large, none of them have yet been identified. 
Can you explain to me why we are not now giving warnings that 
reflect the National Intelligence Estimate that was used by the 
President both on October 7th and in the State of the Union as 
a justification for me?
    I voted for that resolution, Mr. Lago. So I was relying on 
the President's holding out. So why isn't it now being 
communicated to the public that this risk is real, since we 
haven't identified either al Qaeda or the terrorists which the 
CIA said was there?
    Mr. Lago.
    Mr. Lago. Congressman, again, we do not have specific 
threat information. If we were to give warnings on every piece 
of general information that we have, we would be warning people 
24 hours a day, 7 days a week. We need specific actionable 
information to put out those warnings. We don't want to be in a 
position of spooking people, and we do that without specific 
actionable intelligence.
    Mr. Markey. I understand what you are saying, but doesn't 
this intelligence reflect a greatly heightened sense of concern 
which we should have? Now we have--the basic intelligence said 
he is more dangerous if we attack in terms of these materials, 
and he feels desperate, which obviously he does, and these 
materials would then be much more likely to be put into the 
hands of al Qaeda and other terrorist groups.
    Mr. Lago. Congressman, again, to warn--we are at an 
elevated level of warning today. To warn specific events, we 
have to have actionable intelligence. We do not have specific 
actionable intelligence.
    Mr. Markey. Mr. Kallstrom.
    Mr. Kallstrom. I can only speak from New York State, but we 
are at a high level of alert. New York City is still at Orange. 
We have done numerous things throughout the State, which I 
don't want to discuss here, but involving sensors, involving 
special precautions around special sites. So Congressman, we 
actually are, and just before we went into Iraq, we went up to 
Orange, as I am sure you remember.
    In the New York State, we really have not come down much 
from that from the standpoint of the potential of somebody 
actually doing that, so we have taken it very, very seriously, 
and we continue to.
    Mr. Markey. See, the problem that I have, Mr. Kallstrom, is 
this, is that I agree with this conclusion, and of course the 
reason that I voted for the resolution was that I am from 
Boston. They took over the two planes in Boston. It was 
Bostonians who were on those two planes, and now the Bush 
administration is opposing any attempts to screen cargo that 
comes onto planes coming out of Logan Airport, and if this 
biological or chemical or nuclear material tied to an explosive 
is out there at heightened risk and the administration is still 
opposing the screening of cargo going onto passenger planes, 
then that means that the entire intelligence assessment before 
October 10th, when we voted here in Congress, was wrong and 
that the information the President was communicating in the 
State of the Union was in fact wrong.
    Then the question is was it knowingly wrong, or was it just 
very bad information which the President was relying upon? But 
I know that people in my district are still relying upon these 
representations by the President based upon CIA and other 
intelligence agencies, but you can't have it both ways. You 
can't say that it is a greater risk and then at the same time 
you are saying the very planes that the President said would be 
at greater threat if 19 terrorists had these greater weapons 
aren't going to screen the cargo that is going on passenger 
planes. You can't have it both ways. It is either one or the 
other, and the very fact that you don't have the specific 
threat yet doesn't mean that there isn't a plan in place.
    You know, we still haven't found anybody in Boston helping 
those terrorists that killed all those people from my district. 
They haven't found anybody even helping them yet. So wouldn't 
it be wise for us, Mr. Lago, to take the precaution of 
screening all cargo that goes on planes that have passengers on 
them in the United States given the President's representation?
    Mr. Lago. Congressman Markey, I am not an expert in that 
area. I do think it is wise for us to be at the elevated state 
of alert. I do think it is wise for us all to take precautions. 
Again, if we don't have specific actionable information--.
    Mr. Markey. I understand that, but I am saying to you--.
    Mr. Cox. [Presiding.] The gentleman's time has expired, but 
let him answer the question.
    Mr. Lago. There is--.
    Mr. Markey. --if you wait until that point in time, you are 
going to have a recurrence of September 11th in Boston, okay. 
That is all I am saying to you. They will put the cargo on the 
same planes, maybe with the same number on the flight and send 
it off. We don't screen cargo for biological, chemical or 
nuclear materials that would go on in the cargo to find an 
explosive.
    Mr. Lago. Sir, again, that is out of the scope of my 
expertise--we don't screen domestic cargo at the CIA, sir. I 
can't answer that question.
    Mr. Markey. I understand, but I think your analysis before 
that the President relied upon is either accurate or 
inaccurate. I hope the President used accurate information. If 
he did, there is a natural consequence of that to passengers on 
domestic planes.
    Mr. Cox. Mr.Turner.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Parrish, you have 
been with us several times. You know where the sentiment of 
this committee is with regard to the role that the new 
department should play in information, collection and analysis. 
I think it is fair to say, at least on the part of the chairman 
and I, that we have a view based on the reading of the Homeland 
Security Act that your role is very broad, and I certainly 
appreciate the fact that we are at a somewhat early stage in 
the evolution of these relationship. I am glad when I hear Mr. 
Kallstrom talking about the relationship that he has with the 
Department. It is based on in many cases longtime friendships 
with Mr. Libutti, and those kinds of things are important. But 
with a country as large as we have, we have got to create a 
system that works for everybody, including Mr. Foresman. I see 
him shaking his head down there.
    And I guess what I hope is that at some point we will be 
able to arrive at such a system, and I hope it is sooner rather 
than later, because I think it is important to our security.
    Just a minute ago I was listening to you talk about your 
relationship to teinnst the threat integration center. You said 
we have analysts there, and of course when I hear that--and I 
think my chairman shares this view--I mean, we think maybe 
those analysts are supposed to be at your shop and what is 
happening in terms of information flow at TTIC is supposed to 
be coming to your shop at DHS.
    You made a comment that you are pushing the agencies for 
every bit of information when the Homeland Security Act by its 
very words really shouldn't require you to have to push anybody 
for information. The statute says you are to get it whether you 
ask for it or not, and you said a moment ago that when you have 
made these requests you have never been told no. Under the 
Homeland Security Act, nobody has the right to ever tell you 
no, and so I think that we can get there. If somebody says no, 
no, we went down the wrong road, the Congress passed this 
legislation, and it gave you this authority, but that was a 
mistake, then I hope at some point somebody would come to us 
and say we need to change the law. Because we all come to this 
table from different perspectives, and many of you have worked 
on behalf of the people of America for many, many years and you 
do an outstanding job. We like to think that we come to this 
table with the same motivation, and our job is oversight, and 
our job is to read the statute that we pass and see if it is 
being complied with. I guess many of the frustrations that we 
probably exchange back and forth relates to that different 
perspective, because I know each of you are doing the very best 
you can to get to the desired goal, and that is making America 
more secure. But I hope you will work with us, because if what 
we put in the statute is wrong, we need to hear that from you 
as well. I would welcome your comment with respect to that if 
you feel I am off base with regard to that observation, I would 
welcome it now.
    Mr. Parrish. No, sir. I do not think you are off base. As I 
said the day before yesterday, it is not a push-pull system at 
this point. It is still a pull system, but I am telling you 
that it is working and it is getting much better. In my short 
tenure as the Acting Assistant Secretary, I have received phone 
calls from members of the Intelligence Community that have said 
I need to make sure that you got this message.
    Again, we are standing up. Some of the IT connectivity is 
not there. We have the work-around because we have 
representatives from the other communities. I can tell you that 
I worked very late last night on some things, and the system 
was working very well, and it continued to work this morning 
when I got back into work at 6 o'clock to follow up on where we 
ended last night.
    Let the record show, sir, that when I am told no and if I 
ever am told no, I will be back to this committee to let you 
know that I was told no. The law is very clear. Under Secretary 
Libutti has made that very clear to his counterparts within the 
Intelligence Community, but at this point in time I have to 
admit I have seen nothing but cooperation from--again, there 
are personalities involved in this, and I have established some 
strong relationships with senior leadership in the FBI, senior 
leadership at the CIA, at the National Security Agency and 
other agencies which I meet with on a weekly basis, and the 
system is working right now.
    I think the legislation that this Congress passed is on 
target. I think the list of the 19 functions of which we are 
held responsible for, we are implementing those functions, and 
I think that legislation as it is written right now is going to 
be the things that Mr. Kallstrom has alluded to in the 
preventive measures to stop a terrorist attack.
    Mr. Turner. Well, let me thank all of you for your patience 
with us today and for your time. I know it has been a long day. 
You had to wait for us to go through a series of votes, and we 
had lengthy questions, even though perhaps we haven't been as 
well attended in the subcommittee as the panel has, but you 
have been very generous with your answers to our questions. 
And, again, each of us greatly appreciates your dedication to 
our country, your deep sense of patriotism and your devotion to 
the task that we know is important to the future of the 
country.
    Thank you so much.
    Mr. Cox. Thank you. I want to join my ranking member in 
thanking each of you, Mr. Daniels, Mr. Foresman, Mr. Kallstrom, 
Mr. McCraw, Mr. Lago, Mr. Parrish, for your extended duty 
today. We have benefitted greatly, not only from the time and 
the resources that you have committed to this hearing but from 
the fact that you have been here together so that we could 
learn jointly from your presentation.
    I think you have inferred from our questions today that the 
kind of commitment, the full commitment to information sharing 
that Congress intended in the Homeland Security Act, in our 
view at least, requires enormous changes in the way the 
government at all levels does its business, and it may require, 
for example, that agencies be willing to give up ownership and 
control of information that they generate and through IT permit 
not only sharing that information but also its augmentation by 
government at all levels in a networked environment.
    These are things that are under construction. It is work in 
progress. It is a new way of looking at the world, but I think 
that protecting the American people from attack necessitates 
these things in this if not strange new world in which we live, 
difficult new world in which we live. So what you are doing 
seems to be exactly the right thing. The fact that you are 
doing it together is more important still.
    We are going to cut you loose. We know some of you have to 
go, and, again, thank you very much for your extended stay 
today. It has been enormously beneficial to this committee. 
This hearing is adjourned.
    [Whereupon, at 6:32 p.m., the subcommittee was adjourned.]

                                APPENDIX

                 Questions and Responses for the Record

    Responses to Questions for the Record by Willam Parrish, Acting 
 Assistant Secretary for Information Analysis, Department of Homeland 
  Security from the Subcommittee on Intelligence and Counterterrorism 
   hearing titled ``Improvements to Department of Homeland Security 
        Information Sharing Capabilities'' held on July 24, 2003

Status of Information Analysis Office

Section 201 of the Homeland Security Act requires the Information 
Analysis and Infrastructure Protection (IAIP) Directorate to 
disseminate information analyzed by the Department within the 
Department, to other Federal government agencies, state and local 
governments, and the private sector, in order to assist in the 
prevention of, or response to, terrorist attacks against the United 
States.

Question: 1. How many products, and what types of products, has IAIP 
disseminated to other parts of the Department as of today? To other 
federal government agencies? To state and local governments? To the 
private sector? Do you consider this number to be adequate? If not, 
when will you be able to disseminate the desired number of products?
Response: Information Analysis and Infrastructure Protection has 
disseminated 46 products to other federal government agencies, 48 to 
state and local governments, and 41 to the private sector. Procedure 
dictates that a draft of a bulletin or advisory is vetted through 
twelve internal DHS divisions, as well as through outside sources, for 
approval. Once the product has been vetted, it is then disseminated to 
DHS. At no point has the necessary information or a needed product not 
been distributed. The figures above, therefore, accurately represent 
the number desired.

Question: 2. How frequently does IAIP disseminate intelligence 
products? Can you give some examples of the products? Will you provide 
them to the Subcommittee?
Response: The Homeland Security Information Summary (HSIS) is briefed 
and distributed electronically daily to DHS leadership and component 
intelligence chiefs, as well as to selected members of the intelligence 
community. Additionally, IAIP compiles the information received from 
DHS operational elements into the Homeland Security Intelligence Report 
(HSIR) or into a restricted version (the HSIR-R). IAIP also produces a 
Spot Report in advance of the daily report when it is necessary to 
begin processing critical material immediately. Lastly, IAIP produces 
the Secretary's Morning Brief, a daily compilation of in-depth 
analytical perspectives on significant recent, and developing, issues 
affecting homeland security and DHS. Although some products have been 
provided to Congress in the past, DHS, Office of Legislative Affairs is 
developing a more formal and automatic process to pass appropriate 
level products to a variety of committees in Congress. These products 
will be provided to the Committee as appropriate to their level of 
classification.

Terrorist Threat Integration Center (TTIC)

During the joint hearing held on Tuesday on the Terrorist Threat 
Integration Center, you testified that you hope to have about 150 
analysts in your office by next year. Mr. Brennan, the Director of 
TTIC, testified that TTIC will have about 300 analysts when fully 
staffed.

Question: 3. Will 150 analysts be adequate to carry out all the 
missions of the Information Analysis office? How did you determine what 
the correct number should be? How does that mission compare to the 
Terrorist Threat Integration Center, which will have 300 analysts when 
fully staffed? If TTIC will have 300, how can IA only have 150 in light 
of its broad mission?
Response: Yes. One hundred and fifty analysts is an adequate number to 
carry out the missions of Information Analysis. The number was 
determined by Information Analysis Division Chiefs based on years of 
experience in the Intelligence Community. The missions of TTIC and 
Information Analysis differ in that IA deals only in intelligence that 
involves threats to the Homeland. TTIC deals in all threat-related 
information and therefore has more information flowing in on a daily 
basis. Information Analysis also has the added benefit of analysts in 
other DHS component entities that pass threat-related information to 
IA.

At the hearing on TTIC on July 22, Mr. Brennan testified that an 
agency, such as the CIA, that has threat information provides it to 
both TTIC and the Information Analysis office of DHS simultaneously.

Question: 4. Can you explain what happens at that point? What does your 
office do with the information that is distinct from what TTIC does?
Response: Information that comes into Information Analysis is 
independently analyzed and assembled with all domestic threat-related 
information flowing into the Department. This information is matched 
with known capabilities and vulnerabilities to produce an overall 
threat picture that allows IA to issue warning products to other 
federal government agencies, state and local governments and the 
private sector. TTIC receives all domestic and international threat-
related information and sends reports to IA regarding domestically 
relevant intelligence, particularly to support its critical 
infrastructure protection responsibilities. TTIC does not communicate 
with anyone outside of the Intelligence Community.

Question: 5. After TTIC and the Information Analysis office both 
process the information, what happens then? What is the ``output'' of 
the Information Analysis office? Who receives this output? How is it 
different from what the TTIC would do with the same information?
Response: The ``output'' of the Information Analysis office is the 
afore-mentioned warning and intelligence products, based on information 
from DHS entities and members of the Intelligence Community. IA differs 
from TTIC in that all IA products deal solely in threats to the 
Homeland while TTIC deals in the overall threat picture. IA delivers 
its ``output'' to other federal government agencies, state and local 
governments and the private sector. TTIC does not communicate with the 
public.

Responsibilities of the Information Analysis Office

The Information Analysis office, in particular its Information & 
Warnings Division, is responsible for administering the Homeland 
Security Advisory System. Many state and local officials have 
complained that there is little guidance accompanying changes in the 
threat level.

Question: 6. Can you describe, specifically, what guidance the 
Information Analysis office provided to state and local officials 
during the recent changes in the threat level form yellow to orange and 
back to yellow? Did the office recommend that state and local officials 
take any specific actions other than be at a higher state of alert?
Response: When the threat level was changed from yellow to orange on 
May 20, 2003, specific protective measures were included in the 
Advisory that was widely disseminated. Upon deciding to lower the alert 
level back to yellow on May 30, 2003, DHS/IAIP distributed a product 
that included an overview of the existing situation and suggested that 
those receiving the product maintain surveillance of critical 
locations, assess emergency plans, and provide a visible presence as a 
viable form of deterrence. The report detailed such actions as the use 
of random or rolling patrol operations and encouraged individuals to 
report information concerning suspicious or criminal activity to law 
enforcement. Specific suggestions regarding what type of threat exists, 
recommended increased security measures, and as many details regarding 
suspicious activity as can be reported continue to be included in 
products issued by IA.

Question: 7. Who do you believe your ``customers'' are? Do you intend 
to develop intelligence products tailored to each type of ``customer'' 
of the Information Analysis office?
Response: Information Analysis is dedicated to sharing information with 
the Intelligence Community, TTIC, DHS entities, and to serving other 
federal government agencies, state and local governments and the 
private sector as is relevant. Information Analysis, through these 
bodies and through its cooperation with other DHS entities, 
consequently serves the public at large.

Question: 8. Have you met with the officials and agencies that are your 
``customers'' to determine what information they need from your office 
and in what form?
Response: Information Analysis receives feedback on its communication 
with its ``customers'' through a variety of channels. The State and 
Local and Private Sector Directorates within the Department of Homeland 
Security convey the feedback they receive from their components and IA 
is in regular communication with the federal government agencies and 
Intelligence Community members it works with.

In your testimony, you discussed that DHS has operational personnel, 
such as Border Patrol and Customs inspectors, who are in positions to 
collect information that could be useful to the rest of the Department 
and the government as a whole.

Question: 9. What systems are in place for regular reporting from those 
on the front lines to IAIP? Do the personnel on the front lines know 
what they should report? Can you give some examples of information that 
has been collected by Border Patrol or Customs that has been reported 
to IAIP and shared with other agencies?
Response: The operational personnel within DHS entities such as Border 
and Transportation Security operate through their own intelligence 
components. IA receives threat information from these components. 
Personnel on the front lines diligently observe and report intelligence 
and threat-related information such as suspicious activity at the 
nation's borders and suspect names discovered through daily activity.

You testified that there is work being done on a national watchlist 
center, and that there has not been a final decision on whether it 
would be at the Department or the FBI.

Question: 10. What is the time line for this process? When will the 
national watchlist be in place? What agencies are working on the 
problem?

The Terrorist Screening Center, now in existence, is a central point at 
which the Terrorist Screening Database (TSDB) will be consolidated and 
administered. TSC operations were phased in and became operational 1 
December 2003. The TSC, a multi-agency effort, involves the expertise 
of the FBI, DHS, and State Department.

   Responses to Questions from Steven C. McCraw, Assistant Director, 
                    Federal Bureau of Investigation

1. The FBI has been criticized in the past for its unwillingness to 
share information. The March, 2003 Memorandum of Understanding between 
the Attorney General, the Director of Central Intelligence and the 
Secretary of Homeland Security provides that the FBI is to provide 
Electronic Communications (ECs) and interview summaries known as 
``302s''?

Question: Is the FBI currently providing ECs and 302s to the Department 
of Homeland Security? If not, why not?

Response: The Federal Bureau of Investigation (FBI) is sharing a very 
large amount of information and intelligence with the Department of 
Homeland Security (DHS), primarily through electronic cable message 
traffic. The FBI also provides information and intelligence through 
Electronic Communications (BCs) and FD-302s when these documents can 
independently fulfill a Request for Information (RFI) without revealing 
protected sources or methods. In either instance, the intelligence 
contained in FBI documents/ communications is made available to DHS, as 
provided for in the Memorandum of Understanding (MOU). To further 
assist in the flow of information, two FBI Supervisory Special Agents 
have been posted to DHS since April 2003.

Due to the internal structure of DHS, a determination was made to 
create two parallel RFI channels to ensure the proper sharing of 
information. The first channel was the RFI process for ``emergent 
threat'' information. Because of the time sensitivity of this type of 
RFI, the system calls for direct connectivity between the DHS Homeland 
Security Operations Center (HSOC) and the FBI Counterterrorism Watch. 
The majority of these RFIs are either by telephone or by facsimile. The 
HSOC now assigns a tracking number to all RFIs.

The Director of the HSOC has initiated a program whereby a DHS Senior 
Watch Officer (SWO) is detailed to the Counterterrorism Watch on a 90-
day rotating basis. The SWO educates the Counterterrorism Watch on the 
mission and needs of the HSOC and, by learning how the Counterterrorism 
Watch defines and manages emergent threat matters, is additionally able 
to serve as the ``eyes and ears'' of the HSOC.

The second channel of information sharing is the method by which all 
requests for nonemergent (i.e., routine) information, such as 
investigative updates and analytical products, are processed. 
Procedurally, these requests are collected and sent via cable from the 
DHS Information Management and Requirements Division (IMRD) to FBI 
Headquarters (FBIHQ), where they are received by the Executive Staff of 
the Counterterrorism Division. Responses are sent by FBIHQ via cable 
back to IMRD for dissemination to the request's originator.

In addition to these RFI processes, information sharing initiatives 
have included numerous briefings and meetings both at DHS and the FBI, 
including weekly Intelligence briefings at the FBI's Strategic 
Information and Operations Center where DHS selects the topic to be 
covered and the FBI's Counterterrorism Division provides the briefer. 
The FBI provides to DHS virtually all of its terrorism analytical 
products that are disseminated externally.

2. The same Memorandum of Understanding indicates that the TTIC and the 
FBI's Joint Terrorism Task Forces (JTTFs) will have a role in the 
information sharing.
Question: Can you explain what the current roles of TTIC and JTTFs are? 
Does the FBI share information directly with the Department of Homeland 
Security, or only through the TTIC and JTTFs?

Response: The mission of the Terrorist Threat Integration Center (TTIC) 
is to enable full integration of terrorist threat information and 
analysis. It is a multi-agency joint venture that integrates and 
analyzes terrorist threat-related information collected domestically 
and abroad, and disseminates information and analysis to appropriate 
recipients. TTIC sponsors a website that increasingly includes products 
tailored to the needs of state and local officials and private 
industry, so that DHS and the FBI (who are the designated conduits of 
information to these entities) can readily pass this information along.

The 84 Joint Terrorism Task Forces (JTTFs) are the United States 
Government's primary counterterrorism operational entities throughout 
the United States. The JTTFs team FBI Agents with state and local law 
enforcement officials, as well as representatives of DHS and other 
federal agencies, to coordinate counterterrorism investigations and 
share information. The JTTFs investigate and follow up operationally on 
leads provided by the Foreign Terrorist Tracking Task Force, the FBI, 
and other intelligence agencies. The JTTFs also serve as conduits of 
state and local law enforcement information to the FBI.

In accordance with the Homeland Security Act of November 2002 and other 
statutory requirements and interagency agreements, the FBI furnishes 
information directly to the Department of Homeland Security, as 
discussed in response to Question 1.

3. Your office in the FBI is a new one, and was created as a response 
to the criticism of the FBI's weaknesses in analysis.

Question: Can you explain the role of your office in relation to the 
Information Analysis and Infrastructure Protection Directorate of DHS, 
and the TTIC? For instance, if a FBI field office has terrorism 
information, is it reported to your office and then in turn to DHS and 
TTIC?

Response: The Office of Intelligence (OI) is the program manager for 
the FBI-wide Intelligence Program. As such, the OI manages intelligence 
requirements, collection tasking, information sharing policy, 
standards, the analytic cadre, and oversight of the FBI's distributed 
intelligence production mission. The core principle of the FBI 
Intelligence program is the integration of intelligence with FBI 
counterterrorism, counterintelligence, cyber, and criminal operations. 
The actual intelligence production mission takes place within those FBI 
investigative programs and in all operational divisions both at 
Headquarters and in the Field. The OI ensures that intelligence 
production is accomplished against a common set of priorities and 
according to a common set of protocols and policies regarding analysis 
and dissemination. Additionally, the OI develops training and 
certification standards for intelligence professionals, both analysts 
and agents.

The FBI produces two types of intelligence: 1) raw intelligence in 
response to intelligence requirements from the National Security and 
Homeland Security Councils; and 2) assessments to support FBI 
operations and those of our partners in the larger National Security 
Community, to include our state, local, and tribal law enforcement 
partners. Both raw intelligence and assessment reports are passed from 
01 elements embedded in HQ divisions and the field to our customers 
according to a common set of standards and policies.

TIIC is an intelligence analysis organization with two core functions. 
First, it directs the work of raw intelligence producers like the FBI 
by identifying gaps in our knowledge and issuing requirements for 
intelligence collection and production with respect to key threat 
areas. Second, it produces all-source threat analyses for the larger 
National Security Community. The OI ensures that TIIC intelligence 
requirements are tasked to FBI collectors and that assessments 
requested by TIIC are produced in a timely fashion. In addition, the OI 
manages the FBI analytic cadre embedded in TTIC. FBI analysts bring the 
authorities and intelligence information produced by the FBI directly 
to TTIC by virtue of their access to FBI systems and databases from 
TTIC space. In this way, the FBI is able to apply all its information 
to TTIC's mission of providing consolidated terrorist threat 
information to the National Security Community.

The Information Analysis and Infrastructure Protection (IAIP) component 
of DHS is an information and analysis organization with two core 
functions. First, it overlays threat information from all producers in 
the United States and proposes countermeasures. Second, through its 
participation in the larger national intelligence requirements process, 
it directs raw intelligence producers to provide information based on 
its analysis of vulnerabilities in the U.S. infrastructure. In 
addition, like the FBI's OI, DHS IAIP provides a full range of 
intelligence support to DHS leadership and manages the collection, 
processing, analysis, and dissemination of DHS information from its 
operational components (Coast Guard, Secret Service, Transportation 
Security Administration, Immigration and Customs Enforcemnt, and 
Customs and Border Protection). DHS has assigned to the FBI a senior 
representative, who is attached to the FBI's OI. That assignment 
ensures that all information required by DHS is passed to it 
expeditiously by the FBI.

4. The FBI has long established relationships with state and local law 
enforcement. The hearing held on July 22 indicated that state and local 
officials are receiving information from both the Department of 
Homeland Security and through the JTTFs.

Question: What determines whether a piece of .information from the 
federal government is shared through DHS or the JTTFs? Are there any 
protocols or guidance?

Response: The JTTFs are the operational and investigative arms of the 
United States Government in the war on terrorism. Because of this 
responsibility, the FBI is tasked with dissemination of information on 
terrorism (including operational and investigative information, as 
wellas general threat information) to the JTTFs, which utilize the 
information to conduct investigations and/or cover leads. This 
information is provided through the JTTF structure to state and local 
JTTF members who possess the appropriate security clearances. In 
addition, FBIHQ distributes weekly intelligence bulletins to all law 
enforcement officials through the National Law Enforcement 
Telecommunications System, the Law Enforcement Online program, the 
Regional Information Sharing System, and the National Electronic Alert 
System. The Special Agent in Charge of each FBI field office is tasked 
with further disseminating general terrorism threat information to 
members of the state and local law enforcement community through 
established methods. These methods may include regularly scheduled 
briefings, working groups, newsletters, e-mails, and similar vehicles. 
Terrorism threat information is shared on a daily basis between the FBI 
and DHS.

DHS passes threat information on to their state Homeland Security 
Directors, who are charged with notifying first responders in each 
state. Because many of these first responders are members of the law 
enforcement community, they often receive information from both the FBI 
and DHS.

There is close coordination between the FBI and DHS in the 
dissemination of terrorism intelligence information. All weekly FBI 
Intelligence Bulletins are reviewed by DHS prior to release by the FBI. 
The FBI and DHS have also agreed to protocols requiring coordination of 
changes made to the Homeland Security threat level. The sharing of 
information on terrorism intelligence was formalized in the March 2003 
MOU referenced above.

5. You testified at the hearing that the FBI still has responsibility 
for ``domestic terrorism.''

Question: Can you define the term ``domestic terrorism''? For matters 
that fall in that definition of "domestic terrorism," is the FBI the 
only agency with responsibilities? Does DHS have any role?

Response: As codified at 18 U.S.c. section 2331(5), the term ``domestic 
terrorism'' means activities that:
        (A) involve acts dangerous to human life that are a violation 
        of the criminal laws of the United States or of any State;
        (B) appear to be intended
        (i) to intimidate or coerce a civilian population;
        (ii) to influence the policy of a government by intimidationor 
        coercion; or
        (iii) to affect the conduct of a government by mass 
        destruction, assassination, or kidnapping; and
        (C) occur primarily within the territorial jurisdiction of the 
        United States.

While the overall role of the FBI in coordinating the Federal 
Government's response to a terrorist incident has changed pursuant to 
Homeland Security Presidential Directive 5 (2/28/03), the FBI still 
maintains responsibilities regarding domestic terrorism. DHS has 
assumed responsibility to coordinate the Federal Government's overall 
response to domestic terrorism incidents, including a major terrorist 
attack on U.S. soil. The FBI's role in domestic terrorism concentrates 
on criminal investigative and counterterrorism intelligence missions, 
tactical resolution of terrorist-related incidents, and the 
coordination of the law enforcement community's response to a terrorist 
incident. The creation of DHS in no way alters the FBI's chain of 
command. The Attorney General continues to have the lead responsibility 
for criminal investigation of terrorist acts and terrorist threats. The 
FBI continues to be the lead law enforcement agency to detect, prevent, 
preempt, and disrupt terrorist acts against the United States. While 
active coordination with DHS will be maintained, the FBI's 
investigative role in domestic terrorism will be preserved.

    FOLLOW-UP QUESTIONS FOR JAMES K. KALLSTROM FROM CHAIRMAN GIBBONS

Question: 1. Who provides you with information about terrorist threats? 
Is it the Department of Homeland Security, the FBI, or another agency? 
If you receive information from both, can you determine what types of 
information are being channeled through DHS or the FBI? Is it a problem 
to receive terrorism information from the federal government through 
more than one channel?

Answer: 1. The NYS Office of Public Security (OPS) receives terrorism 
threat-related information from a variety of federal sources. DHS and 
FBI supply frequent informational bulletins regarding current and 
historical terrorist trends, potential targets for terrorism (in 
general terms), potential indicators for terrorism, suggested 
protective measures for critical infrastructure, etc. DHS and FBI 
normally coordinate the dissemination of such information; both 
agencies contribute to the content and therefore a specific bulletin/
advisory is only disseminated through one channel. In addition, DHS 
distributes related press releases, scripts of counter-terrorism 
related testimonies, and daily incident reports indicating possible 
terrorist activity nationwide.

As discussed in my testimony, shortly after September 11th 2001, OPS 
created 16 Counter-Terrorism Zones for the purpose of facilitating the 
dissemination of terror-related information and best practices, while 
promoting cooperation and collaboration among local, county and state 
law enforcement agencies on a regional basis. OPS also created the 
Counter-Terrorism Network, a secure, stand-alone system to distribute 
counter-terrorism and threat-based information and intelligence. 
Through these developed methodologies of information sharing, OPS 
disseminates the above-mentioned advisories from DHS and other federal 
agencies, as well as information generated by our office and other 
state and local agencies. Therefore, statewide law enforcement is 
uniformly kept abreast of current terrorist trends and indicators, 
enabling them to play a more effective role in the prevention of acts 
of terror in our state and country.

Our office also maintains contacts at other federal agencies, such as 
the CIA and the DOD, as well as other state homeland security offices 
and law enforcement agencies, and therefore may receive threat 
information in a less formal manner (i.e. phone call, fax, etc.) All 
information classified above "Law Enforcement Sensitive" is generally 
relayed in person or over a secure phone line.

Our office attends meetings and conferences with international 
intelligence and law enforcement agencies in effort to share 
information across national borders. We maintain contact with Canadian, 
British, German and other foreign counterparts.

Question: 2. Can you compare the status of information sharing prior to 
the passage of the Homeland Security Act to the present situation? 
What, if anything, has changed?

Answer: 2. Information sharing between federal, state and local 
governments has improved significantly since the passage of the 
Homeland Security Act. The Department of Homeland Security hosts bi-
weekly regional conference calls with state homeland security 
representatives, touching base on local, national and international 
terrorism issues. DHS formalized a method of sharing terrorism 
information on a continual and frequent basis by distributing 
information bulletins and advisories (see AI) to our office so we may 
further disseminate information to appropriate law enforcement agencies 
and private sector constituents within New York State.

In addition, state and local representatives are invited to attend FBI-
Joint Terrorism Task Force (JTTF) meetings held weekly to share and 
discuss current general and specific threat posture items of concern.

The creation of DHS has sparked the creation of federal information 
sharing centers like the Terrorism Threat Integration Center (TTIC) and 
the Terrorism Screening Center (TSC). TTIC, designed to serve as a 
depot and analytical center for all collected foreign and domestic 
intelligence, will facilitate the flow of raw and analyzed intelligence 
between federal, state and local law enforcement and intelligence 
communities. The TSC is designed to allow a state or local law 
enforcement officer to access federal watch list information in ``real 
time'' when he/she comes in contact with a suspicious individual during 
routine traffic stops, etc. This process can potentially help police 
officers intercept a terrorist and prevent the next attack.

However, these federal systems of improved information sharing will be 
effective only if the process does indeed work in ``real time'' and is 
unhampered by bureaucracy and interagency cultural differences. In 
reality, information sharing is often hindered between agencies due to 
nonequivalence of security clearance levels. Additionally, some federal 
agencies classify information, which is received at an unclassified 
level from foreign sources, thus rendering it difficult for us to 
further ascertain credibility or corroboration with the help of our 
federal intelligence agencies.

New York State and the nine other states comprising the Northeast 
Homeland Security Agreement have advanced a feasible system of ``one-
stop shopping'' to enable the realtime dissemination of relevant 
counter-terrorism information to law enforcement. As outlined in my 
testimony, the Northeast Homeland Security Agreement has proposed the 
implementation of this information-sharing pilot program to the 
Department of Homeland Security. The currently operational Upstate New 
York Regional Intelligence Center (UNYRIC) will serve as the central 
hub of intelligence gathering, analysis and dissemination between law 
enforcement agencies in these northeastern states. This facilitated 
flow of counterterrorism information will enable state and locals to 
assist the efforts of the JTTF's. The proposal has been detailed and 
pending with the DHS since November 2003. It is our view that the 
conception and approval of this Northeast Regional information-sharing 
center, rather than federal intelligence centers, will better serve law 
enforcement personnel in New York State and the surrounding region. 
Finally, sensitive threat information and information regarding threat 
level changes is often prematurely released to the media. This makes it 
difficult for our office to share such information in a controlled and 
secure environment, leading law enforcement to discredit the 
intelligence community's ability to handle and effectively disseminate 
sensitive information from the federal to local level.

Question 3. Can you describe what happened when the threat level was 
raised or lowered in recent months? How did you find out about the 
change in the threat level? What guidance did you receive from the 
Department of Homeland Security at the time the threat levels changed?

Answer: 3. The national and New York State alert levels were recently 
elevated to Orange on December 21,2003. That day, the Department of 
Homeland Security held several conference calls with our office and 
other state homeland security representatives. Secretary Ridge and 
other intelligence community (IC) representatives shared information 
regarding current threat posture, including intelligence indicators 
requiring the US to raise its terrorism alert level. Implementing 
Operation Liberty Shield at the federal level was discussed on the 
call, thus providing guidance to states for implementing their own 
deployment plans. The conference call and subsequent DHS advisory 
provided detailed information on the types of critical infrastructure 
terrorist groups may attempt to target and supplied guidance on the 
steps state and local law enforcement should take in protecting such 
targets.

When the alert level was lowered to yellow on January 9,2004, DHS 
conducted another conference call with state homeland security 
representatives to explain the lowering of the alert level and 
suggested reducing resources and security personnel deployed at 
strategic locals during Orange Alert.

Question: 4. Do you have a sense that the information you receive from 
the Federal Government is coordinated? Do you ever receive conflicting 
information from different Federal agencies? If so, what examples can 
you provide to the committee?

Answer: 4. Since its inception, OPS has received information from a 
wide variety of federal agencies. This information usually appears to 
have been discussed among the various IC agencies prior to its 
dissemination to state and local authorities and there is clearly some 
consensus as to the threat/analysis/credibility of the information.

However, on occasion, our office has been in receipt of information 
from one federal agency that has clearly not been coordinated with 
other appropriate federal agencies prior to dissemination. There has 
been occasions where federal agencies are completely unaware of this 
information or if it was aware, it had assessed the credibility of the 
source or analyzed the intelligence in a drastically different manner. 
On occasion, we have had federal agencies contact our office for 
information when it would have been more appropriate to reach out 
directly to another IC agency.

Question: 5. If you run across information during your duties that 
could indicate potential terrorist activity, where would you report 
that information at the federal level? Is it the FBI? Do you know if 
the FBI shares that information with the DHS or with any other federal 
agencies?

Answer: 5. OPS does not have an investigative arm thus the office 
reports all terrorist threat related info to relevant counter-terrorism 
agencies. For example, if intelligence reporting indicates an imminent 
threat, OPS would immediately contact 911 and then the relevant 
federal, state and local agencies.

If the threat does not appear imminent, information is distributed 
based on jurisdiction. OPS reports information related to New York City 
to the New York City Terrorism Tip Line-(888) NYC-SAFE that is handled 
out of the Upstate New York Regional Intelligence Center (UNYRIC). 
UNYRIC, based in Latham, New York, serves as a regional center to 
facilitate the collection, analysis. and dissemination of criminal and 
terrorist intelligence.

If the information is specific to another part of New York State, OPS 
reports information to the New York State Terrorism Tip Line--(866) 
SAFE-NYS. Both the New York City and the New York State Police evaluate 
the information and based on initial investigations, either choose to 
conduct further in-house investigations or pass the intelligence to the 
FBI Joint Terrorism Task Force (JTTF). On occasion, our office has 
passed information directly to the JTTF's when it appears very specific 
in nature to indicate federal jurisdiction.

When OPS has been in receipt of threat information pertaining to other 
states, we have reported said information to the state's respective 
homeland security office and/or appropriate law enforcement agencies at 
the federal, state or local level.

Question: 6. Has the Information Analysis office ever contacted you to 
coordinate training for your employees regarding information sharing? 
If no, does another federal agency provide such training?

Answer: 6. Neither the DHS' Information Analysis Office nor any other 
DHS division has contacted OPS with regard to training our employees or 
providing training to other relevant officials within New York State. 
OPS has and will continue to orchestrate and offer counter-terrorism 
training for state and local law enforcement officers and first 
responders throughout New York State. Our office has taken the approach 
that continuing education is essential in this field and has 
implemented many programs in this regard. OPS welcomes educational and 
training initiatives provided by DHS and other relevant agencies for 
both our own staff and other relevant personnel involved in the war on 
terror.

Our office encourages DHS to utilize the resources available in the 
departments under its command and within the agencies of the 
Intelligence Community to coordinate training in a variety of areas. 
New York can benefit from additional training in; analytical skills, 
the creation of threat matrixes, data mining, first response, chem/bio-
terrorism, radiological terrorism, infrastructure protection, general 
aviation threats/security, fraudulent documents, etc.

                                 <all>

</pre></body></html>
